  Office of Inspector General
      Audit Report


QUALITY CONTROL REVIEW OF AUDITED
CONSOLIDATED FINANCIAL STATEMENTS
  FOR FISCAL YEARS 2012 AND 2011
        Department of Transportation

        Report Number: QC-2013-020
       Date Issued: November 15, 2012
           U.S. Department of
                                                          Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Audited                            Date:    November 15, 2012
           Consolidated Financial Statements for Fiscal Years
           2012 and 2011, Department of Transportation
           Report Number: QC-2013-020

  From:    Calvin L. Scovel III                                              Reply to
                                                                             Attn. of:   JA-20
           Inspector General

    To:    The Secretary

           I respectfully submit our report on the quality control review (QCR) of the
           Department of Transportation’s (DOT) audited consolidated financial statements
           for fiscal years 2012 and 2011.

           The audit of DOT’s consolidated financial statements as of and for the year ended
           September 30, 2012, was completed by KPMG LLP (see Attachment) under
           contract to the Office of Inspector General. The contract required the audit to be
           performed in accordance with generally accepted Government auditing standards
           and Office of Management and Budget Bulletin 07-04, “Audit Requirements for
           Federal Financial Statements,” as amended.

           KPMG LLP concluded that the consolidated financial statements present fairly, in
           all material respects, DOT’s financial position as of September 30, 2012, and its
           net costs, changes in net position, and budgetary resources for the year ended,
           in conformity with U.S. generally accepted accounting principles.
           Clifton Gunderson LLP, under contract to the Office of Inspector General, audited
           DOT’s fiscal year 2011 consolidated financial statements, and expressed an
           unqualified opinion on those statements. 1

           DOT substantially corrected two of three significant deficiencies in internal
           control reported in Clifton Gunderson LLP’s fiscal year 2011 audit report, but the
           remaining significant deficiency in internal control is now a material weakness.

           1
             Quality Control Review of Audited Consolidated Financial Statements for Fiscal Years 2011 and 2010,
           Department of Transportation, Report Number QC-2012-009, November 15, 2011. OIG reports and
           testimony can be found on our Web site at: www.oig.dot.gov.
                                                                                     2



KPMG LLP’s Fiscal Year 2012 Audit Report

KPMG LLP reported one material weakness and two significant deficiencies in
internal control over financial reporting. In addition, KPMG LLP reported two
instances of noncompliance with laws and regulations.

Material Weakness

Lack of Sufficient Controls over Undelivered Orders – KPMG LLP determined
that DOT had a potential material misstatement in Undelivered Orders (UDO) as
of March 31, 2012. Improperly designed internal controls contributed to this
misstatement. To address KPMG LLP’s finding, DOT conducted a review of
UDOs and found over $2 billion that needed to be deobligated. DOT performed
the necessary deobligations to correct its financial data. However, until DOT
corrects the existing control deficiencies, there is a risk that material misstatements
may occur and remain undetected.

Significant Deficiencies

   1. Lack of Sufficient Controls over Grant Accruals – The Federal Aviation
      Administration, Federal Highway Administration (FHWA), and Federal
      Railroad Administration have weaknesses in the methodologies used to
      estimate grant accruals. As a result, the grant accruals are potentially
      understated.

   2. Lack of Sufficient Controls over Financial Statement Preparation and
      Review – DOT’s interim financial statements as of and for the period ended
      June 30, 2012, had numerous material errors due to deficiencies in the
      preparation and review processes. In addition, the fiscal year 2012
      consolidated financial statements had errors in several note disclosures.
      Until the processes are corrected, there is a risk that misstatements will
      occur and remain undetected.

Instances of Noncompliance with Laws and Regulations

   1. Noncompliance with the Federal Financial Management Improvement
      Act of 1996 – DOT has a material weakness related to controls over UDOs
      that affects DOT’s ability to prepare financial statements in accordance
      with Federal accounting standards.

   2. Noncompliance with the Anti-Deficiency Act – Over the past decade, the
      U.S. Merchant Marine Academy, the Federal Motor Carrier Safety
                                                                               3


      Administration (FMCSA), and FHWA committed anti-deficiency
      violations. For example, FMCSA issued grant awards in excess of available
      funding by approximately $26 million.

We performed a QCR of KPMG LLP’s report and related documentation. Our
QCR, as differentiated from an audit performed in accordance with generally
accepted Government auditing standards, was not intended for us to express, and
we do not express, an opinion on DOT’s financial statements or conclusions about
the effectiveness of internal controls or compliance with laws and regulations.
KPMG LLP is responsible for its report dated November 15, 2012, and the
conclusions expressed in that report. However, our QCR disclosed no instances in
which KPMG LLP did not comply, in all material respects, with generally
accepted Government auditing standards.

KPMG LLP made 19 recommendations to strengthen DOT’s financial,
accounting, and system controls. DOT officials concurred with KPMG LLP’s
findings on the material weakness, significant deficiencies and instances of
noncompliance with laws and regulations. The Department also committed to
submitting to OIG, by December 31, 2012, a detailed action plan to address the
findings contained in the audit report. In accordance with DOT Order 8000.1C, the
corrective actions taken in response to the findings are subject to follow up.

We appreciate the cooperation and assistance of DOT representatives and
KPMG LLP. If we can answer any questions, please call me at 202-366-1959, or
Lou E. Dixon, Principal Assistant Inspector General for Auditing and Evaluation,
at 202-366-1427.


Attachment

                                        #
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                        Independent Auditors’ Report


Secretary and Inspector General
U.S. Department of Transportation:

We have audited the accompanying consolidated balance sheet of the U.S. Department of Transportation
(DOT) as of September 30, 2012, and the related consolidated statements of net cost, and changes in net
position, and the combined statement of budgetary resources (hereinafter referred to as “consolidated
financial statements”) for the year then ended. The objective of our audit was to express an opinion on the
fair presentation of these consolidated financial statements. In connection with our fiscal year 2012 audit,
we also considered the DOT’s internal control over financial reporting and tested the DOT’s compliance
with certain provisions of applicable laws, regulations, contracts, and grant agreements that could have a
direct and material effect on these consolidated financial statements. The consolidated financial statements
of the DOT as of September 30, 2011, and for the year then ended were audited by other auditors. Those
auditors expressed an unqualified opinion on the fiscal year 2011 consolidated financial statements in their
report dated November 11, 2011.

Summary
As stated in our opinion on the consolidated financial statements, we concluded that the DOT’s
consolidated financial statements as of and for the year ended September 30, 2012, are presented fairly, in
all material respects, in conformity with U.S. generally accepted accounting principles.

As discussed in our opinion on the consolidated financial statements, the DOT changed its presentation for
reporting the Combined Statement of Budgetary Resources in fiscal year 2012, based on new reporting
requirements under Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting
Requirements. As a result, certain balances on the DOT’s Combined Statement of Budgetary Resources
for fiscal year 2011 have been reclassified to conform to the current year presentation.

As discussed in our opinion on the consolidated financial statements, the consolidated financial statements
reflect actual excise tax revenues deposited in the Highway Trust Fund and the Airport and Airway Trust
Fund through June 30, 2012, and excise tax receipts estimated by the Department of Treasury’s Office of
Tax Analysis for the quarter ended September 30, 2012.

Our consideration of internal control over financial reporting resulted in identifying certain deficiencies
that we consider to be a material weakness, and other deficiencies that we consider to be significant
deficiencies, as defined in the Internal Control Over Financial Reporting section of this report, as follows:

    A. Exhibit I – Lack of Sufficient Controls over Undelivered Orders

    B. Exhibit II – Lack of Sufficient Controls over Grant Accruals

    C. Exhibit II – Lack of Sufficient Controls over Financial Statement Preparation and Review



                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
U.S. Department of Transportation
November 15, 2012
Page 2 of 5




The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements disclosed the following instances of noncompliance and other matter that are required to be
reported under Government Auditing Standards, issued by the Comptroller General of the United States,
and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended:

    D. Exhibit III – Noncompliance with the Federal Financial Management Improvement Act of 1996

    E. Exhibit III – Noncompliance with the Anti-Deficiency Act

We also reported an other matter related to potential compliance with the Anti-Deficiency Act in Exhibit III.

The following sections discuss our opinion on the DOT’s consolidated financial statements; our
consideration of the DOT’s internal control over financial reporting; our tests of the DOT’s compliance
with certain provisions of applicable laws, regulations, contracts, and grant agreements, and other matter;
and management’s and our responsibilities.

Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheet of the U.S. Department of Transportation
(DOT) as of September 30, 2012 and the related consolidated statements of net cost, and changes in net
position, and the combined statement of budgetary resources for the year then ended.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the DOT as of September 30, 2012 and its net costs, changes in net
position, and budgetary resources for the year then ended, in conformity with U.S. generally accepted
accounting principles. The consolidated financial statements of the DOT as of September 30, 2011, and for
the year then ended were audited by other auditors. Those auditors expressed an unqualified opinion on the
fiscal year 2011 consolidated financial statements in their report dated November 11, 2011.

As discussed in Note 1 to the consolidated financial statements, the DOT changed its presentation for
reporting the Combined Statement of Budgetary Resources in fiscal year 2012, based on new reporting
requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a result, certain
balances on the DOT’s Combined Statement of Budgetary Resources for fiscal year 2011 have been
reclassified to conform to the current year presentation.

As discussed in Notes 1 and 20, the consolidated financial statements reflect actual excise tax revenues
deposited in the Highway Trust Fund and the Airport and Airway Trust Fund through June 30, 2012, and
excise tax receipts estimated by the Department of Treasury’s Office of Tax Analysis for the quarter ended
September 30, 2012.

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, Required Supplementary Information, and Required Supplementary Stewardship
Information sections be presented to supplement the basic financial statements. Such information, although
not a part of the basic financial statements, is required by the Federal Accounting Standards Advisory
Board who considers it to be an essential part of financial reporting for placing the basic financial
statements in an appropriate operational, economic, or historical context. We have applied certain limited
procedures to the required supplementary information in accordance with auditing standards generally
accepted in the United States of America, which consisted of inquiries of management about the methods
U.S. Department of Transportation
November 15, 2012
Page 3 of 5




of preparing the information and comparing the information for consistency with management’s responses
to our inquiries, the basic financial statements, and other knowledge we obtained during our audit of the
basic financial statements. We do not express an opinion or provide any assurance on the information
because the limited procedures do not provide us with sufficient evidence to express an opinion or provide
any assurance.

Our audit was conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The information in the Other Accompanying Information, Forward, and Message from the
Secretary sections as listed in the Table of Contents of the DOT Agency Financial Report are presented for
the purposes of additional analysis and are not a required part of the basic financial statements. Such
information has not been subjected to the auditing procedures applied in the audit of the basic financial
statements, and accordingly, we do not express an opinion or provide any assurance on them.

Internal Control Over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and was not designed to identify all deficiencies in internal
control over financial reporting that might be significant deficiencies or material weaknesses and therefore,
there can be no assurance that all deficiencies, significant deficiencies, or material weaknesses have been
identified. However, in our fiscal year 2012 audit, we identified certain deficiencies in internal control over
financial reporting that we consider to be a material weakness and other deficiencies that we consider to be
significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. We
consider the deficiency described in Exhibit I to be a material weakness.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiencies described in Exhibit II to be significant deficiencies.

Exhibit IV presents the status of prior year significant deficiencies and instances of non-compliance.

We noted certain additional matters that we have reported to management of the DOT in a separate letter
dated November 15, 2012.

Compliance and Other Matters
The results of certain of our tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA),
disclosed two instances of noncompliance or other matters that are required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 07-04, and are described in Exhibit III.
U.S. Department of Transportation
November 15, 2012
Page 4 of 5




The results of our other tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed instances, described in Exhibit III, where the DOT’s financial
management systems did not substantially comply with applicable Federal accounting standards.

The results of our tests of FFMIA disclosed no instances in which the DOT’s financial management
systems did not substantially comply with (1) Federal financial management systems requirements and (2)
the United States Government Standard General Ledger at the transaction level.

                                                *******

Responsibilities
Management’s Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control over financial reporting; and complying with laws,
regulations, contracts, and grant agreements applicable to the DOT.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2012
consolidated financial statements of the DOT based on our audit. We conducted our audit in accordance
with auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we
plan and perform the audits to obtain reasonable assurance about whether the consolidated financial
statements are free of material misstatement. An audit includes consideration of internal control over
financial reporting as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of the DOT’s internal control over
financial reporting. Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall consolidated financial statement presentation.
We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2012 audit, we considered the DOT’s internal control over
financial reporting by obtaining an understanding of the DOT’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the DOT’s
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the DOT’s internal control over financial reporting. We did not test all controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.
U.S. Department of Transportation
November 15, 2012
Page 5 of 5




As part of obtaining reasonable assurance about whether the DOT’s fiscal year 2012 consolidated financial
statements are free of material misstatement, we performed tests of the DOT’s compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of the consolidated financial statement amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the provisions
referred to in Section 803(a) of FFMIA. We limited our tests of compliance to the provisions described in
the preceding sentence, and we did not test compliance with all laws, regulations, contracts, and grant
agreements applicable to the DOT. However, providing an opinion on compliance with laws, regulations,
contracts, and grant agreements was not an objective of our audit and, accordingly, we do not express such
an opinion.

                                    ______________________________

The DOT’s written response to the findings identified in our audit and presented herein was not subjected
to the auditing procedures applied in the audit of the DOT’s consolidated financial statements and,
accordingly, we express no opinion on it.

This report is intended solely for the information and use of the DOT’s management, the DOT’s Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 15, 2012
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control over Financial Reporting                                   EXHIBIT I
                                                               MATERIAL WEAKNESS
______________________________________________________________________________________

A. Lack of Sufficient Controls over Undelivered Orders

Criteria

US Code Title 31 Section 1501 states that an amount shall be recorded as an obligation of the United States
Government only when supported by documentary evidence of a binding agreement between an agency
and another person (including an agency) that is (a) in writing, in a way and form, and (b) for a purpose
authorized by law, and executed before the end of the period of availability.
US Code Title 31 Section 1554 states that the head of each agency shall establish internal controls to assure
that an adequate review of obligated balances is performed to support the certification required by section
1108 (c) of this title.
The United States Standard General Ledger Supplement No. S2 Treasury Financial Manager defines an
Undelivered Order (Obligation) as the amount of goods and/or services ordered, which have not been
actually or constructively received and for which amounts have not been prepaid or advanced. This
includes amounts specified in other contracts or agreements such as grants, program subsidies, undisbursed
loans and claims, and similar events for which an advance or prepayment has not occurred.
Statement of Federal Financial Accounting Concepts (SFFAC) No 1, Objective of Federal Financial
Reporting Issued by the Federal Financial Accounting Standards Advisory Board (FASAB), Federal
financial reporting should assist report users in understanding whether financial management systems and
internal accounting and administrative controls are adequate to ensure that transactions are executed in
accordance with budgetary and financial laws and other requirements, consistent with the purpose
authorized, and are recorded in accordance with federal accounting standards.
The Standards for Internal Control in the Federal Government (Standards) issued by the Government
Accountability Office states that transactions should be promptly recorded to maintain their relevance and
value to management in controlling operations and making decisions. This applies to the entire process or
life cycle of a transaction or event from the initiation and authorization through its final classification in
summary records. In addition, control activities help to ensure that all transactions are completely and
accurately recorded.

Background

In carrying out its mission, the DOT incurs obligations by entering into contracts or agreements for the
purchase of goods and services from other Federal agencies and the public, and for the execution of grant
agreements with state and local governments and other grantees. These obligations are recorded as
undelivered orders in the DOT consolidated financial statements on the statement of budgetary resources.

Once an obligation is satisfied and/or no longer required, funds are required to be de-obligated, which
reduces the balance of undelivered orders and potentially releases the funds for other uses. As of
September 30, 2012, the DOT reported $86.5 billion in obligations, which included an adjustment in the
amount of $1.4 billion that was not properly supported by a new contract, grant agreement, or underlying
financial event.
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control over Financial Reporting                                   EXHIBIT I
                                                               MATERIAL WEAKNESS
______________________________________________________________________________________

Condition

We noted a control deficiency in the monitoring of grant and non-grant undelivered orders, particularly
those obligations that were aged over one year and had no recent activity (aged undelivered orders).
Specifically, we noted that DOT has inadequate policies and/or does not consistently apply its policy of
timely review and de-obligation of open obligations. The following conditions were identified during our
audit:

    1. As of March 31, 2012:

        •   During our review of a statistical sample of 235 items, totaling $1.3 billion from a total of $7.5
            billion of aged grant related undelivered orders, we noted that for 75 items, totaling $109
            million, the related grant agreements’ period of performance had either ended and/or the project
            funded by the grant was completed; however, the unused obligations for these items were not
            properly de-obligated by management.

        •   In addition, during our review a statistical sample of 25 items, totaling $433 million from a
            total of $816 million of aged non-grant related undelivered orders, we noted that for 13 items,
            totaling $1.5 million, the related contracts/agreements had ended; however, the unused balances
            for these items were not properly de-obligated by management.


Based on these reviews, we determined that a potentially material amount of undelivered orders were
reported as of March 31, 2012, which should have been deobligated. Subsequently, and as a result of our
review, DOT conducted a review of aged grant related undelivered orders as of March 31, 2012 and de-
obligated approximately $2.1 billion of grant agreements.


    2. As of August 31, 2012:

        •   During our review of a statistical sample of 232 items, totaling $2.3 billion from a total of $7.7
            billion of aged grant related undelivered orders, we noted that for 15 items, totaling $39.3
            million, the related grant agreements’ period of performance had either ended and/or the project
            funded by the grant was completed; however, the unused obligations for these items were not
            properly de-obligated by management.
Cause
Existing controls for the review and monitoring of grant and non-grant related undelivered orders to
determine if the obligation is still valid are not adequately designed, at the appropriate level of precision, to
timely identify all unused obligation balances that may, in the aggregate, be material to the consolidated
financial statements taken as a whole.
Specifically, under the DOT’s Federal Highway Administration’s (FHWA) existing process, the Financial
Integrity Review and Evaluation (FIRE) program, grants with unexpended obligation balances of $50,000
to $500,000 are not included in the review until the grant has been inactive for 24 months and grants with
unexpended obligation balances of less than $50,000 are not included in the review until the grant has been
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control over Financial Reporting                                   EXHIBIT I
                                                               MATERIAL WEAKNESS
______________________________________________________________________________________

inactive for 36 months. In addition, the personnel executing the existing review process do not always
properly identify amounts that should be de-obligated.
The DOT’s Federal Transit Administration’s (FTA) existing process to annually review and de-obligate
funds is not appropriately designed to timely identify unused obligation balances as the review only
includes grants that were originally obligated more than 5 years ago with no activity within 18 months.

Effect

Undelivered orders were potentially overstated as of September 30, 2012 by approximately $319.2 million
and $131.3 million for grant and non-grant related undelivered orders, respectively. Furthermore, the lack
of adequate processes to review undelivered orders increases the risk that material misstatements may
occur and not be detected.
Recommendations

We recommend that DOT perform the following:

    1. Develop a department-wide requirement for the periodic operating administration certification of
       the open obligation balance that is inactive for twelve or more months;
    2. Develop and provide training department-wide related to grants management, including the
       monitoring and close-out process;
    3. Revise the FHWA FIRE program and the FTA review process to require more timely identification
       and de-obligation of aged grant obligations; and
    4. Implement a review process that requires all other DOT operating administrations to analyze and
       monitor grant and non-grant related undelivered orders to ensure that the undelivered orders
       represent goods and services ordered, but not yet received prior to the end of the reporting period,
       or potential amounts yet to be claimed under the grant agreement.
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control over Financial Reporting                                  EXHIBIT II
                                                          SIGNFICIANT DEFICIENCIES
______________________________________________________________________________________

B. Lack of Sufficient Controls over Grant Accruals

Criteria

Statement of Federal Accounting Standards (SFFAS) No. 5, Accounting for Liabilities of the Federal
Government, Issued by the Federal Accounting Standards Advisory Board (FASAB) states, a liability for
federal accounting purposes is a probable future outflow or other sacrifice of resources as a result of past
transactions or events. General purpose federal financial reports should recognize probable and measurable
future outflows or other sacrifices of resources arising from (1) past exchange transactions, (2)
government-related events, (3) government-acknowledged events, or (4) nonexchange transactions that,
according to current law and applicable policy, are unpaid amounts due as of the reporting date.

FASAB Technical Release 12: Accrual Estimate for Grant Programs states agencies must accumulate
sufficient relevant and reliable data on which to base accrual estimates. Each agency should prepare grant
accrual estimates based upon the best available data at the time the estimates are made. As part of the
agencies’ internal control procedures to ensure that grant accrual estimates for the basic financial
statements were reasonable, agencies should validate grant accrual estimates by comparing the estimates
with subsequent grantee reporting.
The DOT Financial Management Policies Manual requires that estimated accruals be carefully analyzed
and compared with subsequent actual amounts to ensure that the accrual estimation process is continuously
refined to improve accuracy. Further, the DOT Financial Management Policies Manual requires that
accruals be as accurate as possible based on actual events.

Background

At fiscal year-end, the DOT calculates and records an estimated liability for amounts owed to its grantees
for costs incurred under grant agreements (including any subcontractor costs), but not yet billed to or
reimbursed by the DOT. Seventy-eight percent of the DOT’s grant accrual balance as of September 30,
2012 is comprised of grant accruals related to the Federal Highway Administration (FHWA), the Federal
Aviation Administration (FAA), Office of the Secretary (OST), and the Federal Railroad Administration
(FRA). As the grants related to each of these operating administrations are vastly different in nature, each
operating administration develops a unique grant accrual methodology.

Condition

During our review of the estimation methodology for the DOT’s grant accruals, we noted the following
weaknesses in the grant accrual estimation methodology for FHWA (including OST), FAA, and FRA:

Federal Highway Administration and Office of the Secretary
During our review of the estimation process for FHWA’s grant accrual, we noted that while FHWA is
responsible for managing certain grants on behalf of the DOT’s OST, such as portions of the TIGER
Grants Program, FHWA did not properly include these grants in the grant accrual calculation provided to
OST for recording at period-end. In addition, we noted that FHWA had not performed an assessment to
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control over Financial Reporting                                  EXHIBIT II
                                                          SIGNFICIANT DEFICIENCIES
______________________________________________________________________________________

determine if a grant accrual was necessary for three of its grant programs with significant expense activity
during fiscal year 2012.

Federal Aviation Administation
During our review of the estimation process for FAA’s grant accrual, we noted that FAA had not
performed an adequate retrospective review or look back analysis to validate the methodology used to
calculate its grant accrual as of September 30, 2011, as required by generally accepted accounting
principles and the DOT Financial Management Policies Manual. In addition, we noted that there was not a
process in place to accumulate sufficient relevant and reliable data from grantees as a basis for preparing
grant accrual estimates.
Federal Railroad Administration
During our review of the estimation process for FRA’s grant accrual as of March 31, 2012, we noted that
FRA had not performed a retrospective review or look back analysis to validate the methodology used to
calculate its grant accrual as of September 30, 2011, as required by generally accepted accounting
principles and the DOT Financial Management Policies Manual. In addition, we noted that FRA does not
have a process in place to ensure that a complete population of grantees was included in its accrual
calculation. Specifically, we noted that thirteen treasury fund symbols, which consisted of 226 grantees,
with significant outstanding grant-related obligations, were omitted from the calculation.

FRA management subsequently updated its grant accrual methodology as of June 30, 2012 to include a
retrospective review of the prior period accrual, however it does not include a process to ensure the
completeness of the population of grantees used in the accrual calculation. Specifically, we noted that
seven grantees were omitted from its grant accrual calculation as of June 30, 2012. In addition, we noted
that data used to capture the incurred, but not yet billed costs, for nine of the twenty-five grantees selected
for review was not based on current, relevant data as these grantees had not submitted current financial
reports. Lastly, we noted that FRA did not perform an analysis to estimate the costs incurred by the
grantees, but not yet submitted for payment.

Cause

Federal Highway Administration
There are not adequate controls in place at FHWA to ensure that all significant grantees and/or overall
grant programs are properly included in the grant accrual estimate methodology.
Federal Aviation Administation
There are not adequate controls in place at FAA to require a retrospective review or look back analysis to
validate its grant accrual methodology. In addition, FAA does not have a process in place to accumulate
sufficient relevant and reliable data from its grantees that can be used as a basis for preparing future grant
accruals.
Federal Railroad Administration
There are not adequate controls in place at FRA to require a retrospective review or look back analysis to
validate its grant accrual methodology. In addition, the grant accrual methodology does not include the
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control over Financial Reporting                                  EXHIBIT II
                                                          SIGNFICIANT DEFICIENCIES
______________________________________________________________________________________

costs incurred by the grantees, but not yet submitted for payment as of period-end. Lastly, the controls in
place at FRA are not adequate to ensure that all significant grantees are included in the grant accrual
calculation.

Effect

The grant accrual is potentially understated in DOT’s interim financial statements submitted to the Office
of Management and Budget (OMB) and on the consolidated financial statements as of September 30, 2012.

Recommendations

We recommend that FHWA (in coordination with OST, where applicable):

1. Determine the appropriate grant accrual for the related FHWA TIGER grant programs; and
2. Perform a quarterly evaluation for applicable grant programs to determine if an accrual is required.

We recommend that FRA:

1. Perform the required retrospective review or look back analysis to validate its grant accrual
   methodology in accordance with generally accepted accounting principles and the DOT Financial
   Management Policies Manual;
2. Update its grant accrual methodology to include a thorough supervisory review to ensure all significant
   grant activity is properly included in the estimate and include an analysis for the costs incurred by the
   grantee, but not yet submitted for payment; and
3. Establish additional procedures to obtain current and relevant data for grants with outdated grantee
   reporting.

We recommend that FAA:

1. Perform the required retrospective review or look back analysis to validate its grant accrual
   methodology in accordance with generally accepted accounting principles and the DOT Financial
   Management Policies Manual; and
2. Develop a process to accumulate relevant and reliable data from grantees to use in estimating its grant
   accrual.
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control over Financial Reporting                                  EXHIBIT II
                                                          SIGNFICIANT DEFICIENCIES
______________________________________________________________________________________

C. Lack of Sufficient Controls over Financial Statement Preparation and Review

Criteria

The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires that agencies establish internal
controls according to standards prescribed by the Comptroller General. These standards are established in
the GAO’s Standards for Internal Control in the Federal Government (Standards). The GAO defines
internal control as an integral component of an organization’s management that provides reasonable
assurance that the following objectives are achieved: effectiveness and efficiency of operations, reliability
of financial reporting, and compliance with applicable laws and regulations.

The GAO Standards identify the control environment as one of the five key elements of control, which
emphasizes the importance of conscientiousness in management’s operating philosophy and commitment
to internal control. These standards cover controls such as human capital practices, supervisory reviews,
policies, procedures, monitoring, and segregation of duties.

Background

Financial reporting in the federal environment is a complicated and evolving process. In addition, the
complex and varied operations of the DOT and its 13 operating administrations makes consolidated
reporting, under standards issued by the Federal Accounting Standards Advisory Board (FASAB) and
OMB, a challenge for the DOT.

Condition

During our fiscal year 2012 audit, we noted several areas for improvement in the DOT’s consolidated
financial statement preparation and review. Specifically, through our review of the DOT’s interim
consolidated financial statements as of and for the period ended June 30, 2012, we noted numerous
material misclassifications in the notes to the financial statements. The misclassifications occurred within
the following note disclosures:

    •      Fund Balance with Treasury;
    •      Property, Plant & Equipment;
    •      Liabilities Not Covered by Budgetary Resources;
    •      Other Liabilities;
    •      Earmarked Funds; and
    •      Reconciliation of Net Cost to Budget.

In addition, through our review of the DOT’s consolidated financial statements as of and for the year ended
September 30, 2012, we noted additional misclassifications in the following note disclosures, which were
subsequently corrected:

    •      Earmarked Funds;
    •      Commitments and Contingencies;
    •      Combined Statement of Budgetary Resources – Available Contract Authority at Year-end;
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control over Financial Reporting                                  EXHIBIT II
                                                          SIGNFICIANT DEFICIENCIES
______________________________________________________________________________________

   •     Reconciliation of Net Cost to Budget; and
   •     Fiduciary Activities.

Cause

Existing controls related to the DOT operating administration preparation and the consolidated review of
the financial statements and notes are not adequately designed, at the appropriate level of precision, to
prevent a misstatement in the financial statements or notes.

Effect

Misstatements and/or misclassifications may occur and not be detected in the consolidated financial
statements and notes.

Recommendations

We recommend that DOT:

   1. Develop financial statement and note disclosure preparation guidance for the operating
      administrations to ensure consistency across the Department;
   2. Provide training, where necessary, to the operating administrations to ensure the financial
      statement and note disclosure guidance is implemented department-wide and to ensure the
      operating administrations understand the requirements of each line item on the financial statements
      and notes;
   3. Develop a financial statement (including notes) review checklist (that includes a review of account
      mapping) to be completed by the operating administrations prior to submission of their financial
      statements and to be completed by the DOT after consolidation; and
   4. Automate footnotes, where applicable, to ensure consistency across the Department.
U.S. Department of Transportation
Independent Auditors’ Report
Compliance and Other Matters                                              EXHIBIT III
                                                     INSTANCES OF NONCOMPLIANCE
______________________________________________________________________________________


D. Noncompliance with the Federal Financial Management Improvement Act of 1996 (FFMIA)

Criteria
The Federal Financial Improvement Management Act of 1996, Section 803(a) states that Federal financial
management systems comply with (1) Federal accounting standards, (2) Federal system requirements, and
(3) the United States Government Standard General Ledger at the transaction level. FFMIA emphasizes
the need for agencies to have systems that can generate timely, reliable, and useful information with which
to make informed decisions to ensure ongoing accountability.
Condition
The DOT is required to prepare its financial statements in accordance with applicable Federal accounting
standards. As discussed in the Internal Control over Financial Reporting section of this report, we identified
a material weakness related to controls over undelivered orders that affected the DOT’s ability to prepare
its financial statements in accordance with Federal accounting standards.
Cause
There are not adequate policies and procedures over undelivered orders to establish and maintain financial
management systems that comply with Federal accounting standards.
Effect
The DOT’s financial management systems did not substantially comply with the applicable Federal
accounting standards.
Recommendation
We recommend that the DOT improve its internal controls over undelivered orders, as noted above, to
ensure that DOT’s financial management systems comply with the Federal accounting standards.


E. Noncompliance with the Anti-Deficiency Act

Criteria
Title 31 U.S. Code (U.S.C.) Section 1517 states that an officer or an employee of the United States
Government may not make or authorize an expenditure or obligation exceeding an apportionment or an
amount permitted by regulations as specified by Title 31 U.S.C. Section 1514.

Condition
Known Anti-Deficiency Act Violations:
Maritime Administration (MARAD)
During fiscal years 2003 through 2008, the U.S. Merchant Marine Academy, a component of MARAD,
committed Anti-Deficiency Act violations totaling approximately $5 million, as a result of charging user
fees above the amounts allowable under the U.S.C and using these fees to pay for the Academy’s
operations. The DOT reported this violation to the Office of Management and Budget (OMB), the
President, U.S. Senate, and U.S. Congress on July 6, 2012.
U.S. Department of Transportation
Independent Auditors’ Report
Compliance and Other Matters                                              EXHIBIT III
                                                     INSTANCES OF NONCOMPLIANCE
______________________________________________________________________________________

Federal Motor Carrier Safety Administration (FMCSA)
During the fiscal years 2005 through 2010, the FMCSA committed Anti-Deficiency Act violations totaling
$25.6 million, as a result of issuing grant awards within the Commercial Vehicle Systems and Networks
(CVISN) that exceeded available funding for this program, as well as reprogramming of funds within the
CVISN, Performance Information Systems Management (PRISM), and Safety Improvement Program
(SaDIP) grant programs, which resulted in grant awards exceeding the available funding. As of the date of
our report, the DOT has drafted the final Anti-Deficiency Act report for OMB, the President, U.S. Senate,
and U.S. Congress confirming the actual Anti-Deficiency Act violations by the FMCSA.
Federal Highway Administration (FHWA)

During fiscal year 2010, the FHWA committed Anti-Deficiency Act violations totaling $11.5 million, as a
result of entering obligations in the American Reinvestment and Recovery Act (ARRA) appropriation(s)
within the Tiger Grants Program ($10M), Refuge Roads Program ($1.0M), and the Puerto Rico Highway
Program ($465K) that exceeded the amount apportioned in those program categories. As of the date of our
report, the DOT has not yet drafted the final Anti-Deficiency Act report for OMB, the President, U.S.
Senate, and U.S. Congress confirming the actual Anti-Deficiency Act violations by the FHWA.

Potential Anti-Deficiency Act Violations:
FMCSA
During fiscal years 2005 through 2010, the FMSCA may have committed further Anti-Deficiency Act
violations in relation to grant awards under the CVISN program.
Cause
At the time when the violations occurred, there were not sufficient controls in place to require an
appropriate level of oversight over fund status monitoring to prevent Anti-Deficiency Act violations.
Effect
The DOT is not in compliance with the Anti-Deficiency Act.
Recommendations

We recommend that DOT:

    1. Report the known violations, in accordance with the Anti-Deficiency Act and the applicable
       implementation guidance;
    2. Complete the investigation into potential additional Anti-Deficiency Act violations at the FMCSA;
       and
    3. Implement appropriate policies and procedures to prevent future violations.
U.S. Department of Transportation
Independent Auditors’ Report
Status of Prior Year Deficiencies                                                    EXHIBIT IV

______________________________________________________________________________________

          Prior Year                     As Reported as of                     Status as of
          Condition
                                        September 30, 2011                 September 30, 2012
                                           Control Deficiencies
     Financial and Fund    Significant Deficiency: The DOT has          No longer considered a
     Status Monitoring     weaknesses in the following areas:           Significant Deficiency.
     and Reporting
                              •     Over-reliance of journal entries;
                              •     Implementation of Managerial Cost
                                    Accounting; and
                              •     Fund Status Monitoring and
                                    Reporting


     Undelivered Orders    Significant Deficiency: The DOT has          Elevated to a Material
                           weaknesses in the management and             Weakness (Exhibit I).
                           monitoring of inactive obligations.
     Implementation of     Significant Deficiency: The DOT (Federal     No longer considered a
     GrantSolutions        Railroads Administration and Federal Motor   Significant Deficiency.
     Grants Management     Carrier Safety Administration) has
     System                weaknesses in the implementation of
                           GrantSolutions.
                                     Compliance and Other Matters
     Anti-Deficiency Act   Instance of Non-Compliance: The DOT          Repeated as actual or
                           management reported potential ADA matters    potential non-compliance
                           in FY 2011.                                  violations (Exhibit III).
     Federal Managers’     Instance of Non-Compliance: The DOT has No longer considered an
     Financial Integrity   weaknesses in its processes and procedures instance of Non-
     Act (FMFIA)           for reporting material weaknesses in its Compliance.
                           FMFIA assurance statement as related to the
                           effectiveness of the DOT’s information
                           security program and its compliance with
                           FISMA requirements.
     U S Department of                                            Assistant Secretary            1200 New Jersey Avenue, So
                                                                                                                          s
                                                                                                                          a
                                                                                                                          e
                                                                                                                          th
                                                                                                                           u
     Transportation                                               for Budget and Programs        Washington, DC 20590
                                                                  and Chief Financial Officer
 Office of the Secretary
 of Transportation




                                             November 15, 2012

     Me m o r a n d u m t o :               Calvin L Scovell thethird
                                            Inspector General, U S D OT

                                            M Hannah Padilla
                                            Partner, KP M G LLP

      Fr o m :                              Christopher P Bertram

      Su b j e c t :                        Management’s Response to the Audit Report on the
                                            Consolidated Financial Statements for Fiscal Year (F Y)
                                            2012


      The Department of Transportation (DOT) is pleased to respond to the unqualified audit
      report on our Consolidated Financial Statements for FY 2012. We take great pride in our
      ability to sustain strong and vigilant financial management, as demonstrated in our
      achievement of an unqualified audit opinion.

      We concur with the one material weakness and two significant deficiencies contained in
      your report on internal controls over financial reporting, and with two instances of non­
      compliance found in certain provisions of selected laws and regulations that you
      reviewed. We concur with all recommendations. Corrective actions have already begun
      to address these issues. The Department plans to submit a detailed action plan along with
      estimated completion dates of the actions to the Inspector General no later than
      December 31, 2012, to address the findings contained in your report.

      We appreciate the professionalism and cooperation exhibited by your office during the
      audit. Our combined efforts and teamwork made the difference in successfully meeting
      the objectives o f the financial audit process. Please refer any questions to David J
      Rivait, Deputy Chief Financial Officer.




53     U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
AGENCY
FINANCIAL
REPORT
FISCAL YEAR 2012
TABLE OF CONTENTS
�


      3           FOREWORD
      5           MESSAGE FROM THE SECRETARY
     11           MANAGEMENT’S DISCUSSION AND ANALYSIS
      12          DOT Mission and Values
      13          Organizational Chart
      14          Overview Legislative Authority
      16          Performance Highlights
      17          Performance Summary Tables
      22          Financial Highlights
      24          FY2012 FMFIA Assurance Letter to the President
      27          System, Controls, and Legal Compliance
      27          Federal Manager’s Financial Integrity Act (FMFIA)
      28          Federal Financial Management Improvement Act (FFMIA)
      28          FISMA Compliance: Corrective Action Summary
      29          SSAE-16 Review on DOT’s Financial Management System
      30          Implementation of eInvoicing for Grants
      30          Inspector General’s FY 2012 Top Management Challenges

     31           FINANCIAL REPORT
      32          Message from the Chief Financial Officer
      34          Office of Inspector General Quality Control Review
      37          Independent Audit Report
      54          Principal Statements
      59          Notes to Principal Statements
      96          Required Supplementary Information (RSI)
     101          Required Supplementary Stewardship Information (RSSI)

     106          OTHER ACCOMPANYING INFORMATION
     107          Schedule of Spending
     108          Net Cost by DOT Goal
     109          Summary of Financial Statement Audit and Management Assurances
     110          Inspector General’s 2013 Top Management Challenges
     132          Improper Payments Information Act (IPIA) Reporting (As Amended by IPERA)




                  Cover Image Courtesy of Presidio Parkway




 2     U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
FOREWORD
�
FOREWORD
�
The United States Department of Transportation’s (DOT or Department)
Agency Financial Report (AFR) for fiscal year (FY) 2012 provides an
overview of the Department’s financial performance and results to
Congress, the President, and the American people.




 THE REPORT DETAILS INFORMATION about our stewardship                    ANNUAL PERFORMANCE REPORT (APR)
 of the financial resources entrusted to us. Additionally, the           [AVAILABLE FEBRUARY 2013]
 report provides information about our performance as an organi-         The APR will be produced in conjunction with the FY 2013
 zation, our achievements, initiatives, and challenges.                  President’s Budget Request and will provide the detailed per-
                                                                         formance information and descriptions of results by each key
 The AFR is the first in a series of reports required under the          performance measure.
 Office of Management and Budget’s Program for Alternative
 Approaches to Performance and Accountability Reporting. This            The FY 2012 summary of performance information will be
 is the third year that the Department has prepared an AFR. The          found on page 16 of the AFR.
 report provides readers with an overview of the Department’s
 highest priorities, as well as our strengths and challenges.            The APR report satisfies the reporting requirements of the
                                                                         following major legislation:
 The Department’s FY 2012 annual reporting includes
 the following two components:                                            ▶	 Reports Consolidation Act of 2000;

 AGENCY FINANCIAL REPORT (AFR)                                            ▶	 Government Performance and Results Act of 1993;
 The following AFR report is organized into two major sections:
 The Management’s Discussion and Analysis section provides                ▶	 Chief Financial Officers Act of 1990;
 executive–level information on the Department’s history, mis-
 sion, organization, key activities, analysis of financial statements,    ▶	 Government Management Reform Act of 1994;
 systems, controls and legal compliance, accomplishments for the
 fiscal year, and management and performance challenges facing            ▶	 Federal Managers’ Financial Integrity Act of 1982;
 the Department.
                                                                          ▶	 Federal Financial Management Improvement Act of 

 The Financial Details section provides a Message From the                    1996; and
	
 Chief Financial Officer, consolidated and combined financial
 statements, the Department’s notes to the financial statements,          ▶   Improper Payments Information Act of 2002.
 and the Report of the Independent Auditors.
                                                                         The reports will be available on the Department’s website at:
 The Other Accompanying Information section provides Improper            http://www.dot.gov/budget.
 Payments Information Act reporting details and other statutory
 reporting requirements including a new OMB requirement, the
 Schedule of Spending (SOS). The SOS presents an overview
 of how and where agencies are spending their money.




 4    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
MESSAGE FROM THE SECRETARY
�
MESSAGE FROM THE SECRETARY
�
I am pleased to present the U.S. Department of Transportation’s (DOT)
annual Financial Report. Consistent with all statutory requirements,
this material provides reliable and complete information on DOT’s
financial operations and performance for the fiscal year that ended
September 30, 2012.




                                OVERVIEW OF FY 2012 FINANCIAL RESULTS
                                This report is presented together with our annual Performance Report that will be released in 2013.
                                As we have for the past several years, I am very pleased that DOT again received an unqualified
                                audit opinion on its financial statements.

                                Of note during 2012, DOT made significant progress in addressing an internal control weakness
                                related to adequate monitoring of Undelivered Orders (UDOs). The UDOs are budget obligations
                                that have not yet been fully liquidated by making a payment. The Department undertook major
                                steps during the fourth quarter to review these transactions, confirm the validity of outstanding
                                obligations, and correct balances that needed adjustment. In addition, to ensure the reliability of
                                UDO reporting in the future, new Department-wide guidance concerning the periodic review of
RAY LaHOOD                      these balances will be implemented in early 2013.

                                Supported by the Department’s successful financial performance, we made significant progress
                                toward our strategic goals and objectives during 2012. Looking forward to the coming year, the
                                Department will continue to lead in promoting safety and critical transportation investments that
                                will strengthen our nation and help the economic recovery move forward.

                                STRATEGIC GOALS - In a time of great challenge and opportunity, the traveling public is calling
                                for investment in all modes of transportation, and for policies that bring affordable housing closer
                                to good schools and quality jobs. People from across the political spectrum recognize that our trans-
                                portation system must become safer, more efficient, more outcome-based, more cost-effective, and
                                more environmentally sustainable. To respond to these challenges, DOT’s financial resources and
                                programs have been carefully structured around the following five strategic goals:

                                 ▶	 SAFETY - Improving transportation safety is DOT’s top priority. Our goal is to bring a Depart-
                                     ment-wide focus on reducing transportation-related fatalities and injuries. Our key initiatives
                                     include: roadway safety for all users; combating distracted driving and other dangerous behav-
                                     iors; pursuing a more effective Federal role in transit safety; and addressing the most serious
                                     safety risks in other surface transportation modes and in aviation.

                                 ▶	 STATE OF GOOD REPAIR - Recent reports on the condition of key facilities-highways, bridges,
                                     transit systems, passenger rail and airport runways-reveal that many fall short of a state of
                                     good repair and thus compromise the safety, capacity, and efficiency of the U.S. transporta-
                                     tion system. The DOT programs bring a strong emphasis on improving the condition of our
                                     infrastructure. The DOT encourages its government and industry partners to make optimal use
                                     of existing capacity, minimize life-cycle costs, and apply sound asset management principles
                                     throughout the system.



6   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
MESSAGE FROM THE SECRETARY
�
    ▶	 ECONOMIC COMPETITIVENESS - With demand for both freight and passenger transportation
       expected to more than double by 2050, our goal is to support the U.S. economy by fostering
       smart, strategic investments that will serve the traveling public and facilitate freight movement.
       Our central strategies for achieving maximum economic returns on our policies and invest-
       ments include leading the development of intercity, high-speed passenger rail and a competi-
       tive air transportation system; increasing travel time reliability in freight-significant highway
       corridors; improving the performance of freight rail and maritime networks; advancing
       transportation interests in targeted markets around the world; and expanding opportunities
       in the transportation sector for small businesses.

    ▶	 LIVABLE COMMUNITIES - These are places where coordinated transportation, housing, and
       commercial development give people access to affordable and environmentally sustainable
       transportation. Our emphasis is a transformational policy shift for the Department. Over the
       last 50 years, transportation spending has often been poorly coordinated with other infrastructure
       investments resulting in auto-dependent residential communities where access to job
       opportunities and key amenities is inadequate and expensive. Now, we will pursue coordinated,
       place-based policies and investments that increase transportation choices and access to public
       transportation services for all Americans.

    ▶	 ENVIRONMENTAL SUSTAINABILITY - Transportation is crucial to our economy and our
       quality of life, but building, operating, and maintaining transportation systems clearly have
       significant environmental impacts on our air, water, and natural ecosystems. The transportation
       sector is a significant source of greenhouse gas (GHG) emissions, accounting for 33 percent
       of total U.S. GHG emissions in 2009. The Department’s programs address these challenges
       through strategies such as fuel economy standards for cars and trucks, more environmentally
       sound construction and operational practices, and by expanding opportunities for shifting
       freight from less fuel-efficient modes to more fuel-efficient modes.

INFRASTRUCTURE INVESTMENTS AND MAP-21
In July, President Obama signed into law the Moving Ahead for Progress in the 21st Century Act
(MAP-21). The MAP-21 provides needed funds and represents a milestone for the U.S. economy.
This is the first multi-year transportation authorization enacted since 2005. It funds surface transpor-
tation programs at over $105 billion for FY 2013 and FY 2014, and this legislation transforms the
framework for investments to guide the growth and development of the country’s vital transporta-
tion infrastructure.

This bipartisan Act will create jobs. It builds on our aggressive safety efforts, including our fight
against distracted driving and our push to improve transit and motor carrier safety. This law also
provides States and communities with 2 years of steady funding to build the roads, bridges, and
transit systems they need.

While MAP-21 provides predictability in transportation funding in the near future, 2 years will
pass quickly. We need to begin work on a 6-year bill to provide the long-term stability needed for
transportation programs. After 56 years of steady funding increases fueled by Federal gas taxes, the
Highway Trust Fund now faces shortfalls. A long-term surface transportation reauthorization bill
with increased resources is urgently required to spur economic growth.

HIGHLIGHTS OF KEY INITIATIVES IN 2012
Our transportation infrastructure, much of which was built decades ago, is aging and in need of repair.
The growing U.S. population, particularly in metropolitan areas, increasingly demands varied,
accessible, affordable, and environmentally sustainable transportation options. Programs authorized



7      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
MESSAGE FROM THE SECRETARY
�

under MAP-21 are a good start to achieving this new vision. The Department’s key initiatives,
formulated to support our strategic goals, have furthered these efforts in 2012 and will continue
on this path in 2013.

INNOVATIVE FINANCING
The Transportation Infrastructure Financing and Innovation Act (TIFIA) program provides Federal
credit assistance to eligible surface transportation projects. The TIFIA program includes Federal
credit assistance in the form of direct loans, loan guarantees, and standby lines of credit to finance
surface transportation projects of national and regional significance. The TIFIA credit assistance
provides improved access to capital markets, flexible repayment terms, and potentially more favor-
able interest rates than can be found in private capital markets for similar instruments. The TIFIA
program can help advance qualified, large-scale projects that otherwise might be delayed or deferred
because of size, complexity, or uncertainty over the timing of revenues. Many surface transportation
projects-highway, transit, railroad, intermodal freight, and port access-are eligible for assistance.

Since its launch, TIFIA has helped projects turn about $9 billion in DOT assistance into $36 billion
in infrastructure investment across America. Now, MAP-21 has transformed TIFIA into the largest
transportation infrastructure loan program in history. Under MAP-21, DOT can extend $1.7 billion
in capital for TIFIA. But each dollar of Federal funds can actually provide approximately $10
billion in TIFIA credit assistance, meaning $17 billion in loans. Projects can then use this credit to
leverage an additional $20 to $30 billion in investment from other sources. This means that, alto-
gether, the expanded loan program could result in up to $50 billion in public and private investment
in critical transportation infrastructure needs from coast to coast.

FUEL ECONOMY STANDARDS
In August 2012, the Administration finalized groundbreaking standards that will increase fuel
economy to the equivalent of 54.5 miles per gallon for cars and light-duty trucks by Model Year
2025. When combined with previous standards set by this Administration, this move will nearly
double the fuel efficiency of those vehicles compared to new vehicles currently on our roads. In
total, the Administration’s national program to improve fuel economy and reduce greenhouse gas
emissions will reduce U.S. oil consumption by 12 billion barrels.

These fuel standards represent the single most important step we have ever taken to reduce our
dependence on foreign oil and will strengthen our Nation’s energy security. This historic agreement
builds on the progress we have already made to save families money at the pump and cut our oil
consumption. It is great news for middle class families, and it will help create an economy built to
last.

NEXTGEN
The NextGen is an umbrella term for the ongoing transformation of the National Airspace System.
At its most basic level, NextGen represents an evolution from a ground-based system of air traffic
control to a satellite-based system of air traffic management. This evolution is vital to meeting
future demand, and to avoiding gridlock in the sky and at our nation’s airports.

The NextGen will open America’s skies to continued growth and increased safety while reducing
aviation’s environmental impact. We will realize these goals through the development of aviation-
specific applications for existing, widely-used technologies, such as the Global Positioning System,
and technological innovation in areas such as weather forecasting, data networking, and digital
communications. Hand-in-hand with state-of-the-art technology will be new airport infrastructure



8    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
MESSAGE FROM THE SECRETARY
�

and new procedures, including the shift of certain decision-making responsibility from the ground
to the cockpit.

The NextGen will be a better way of doing business. Travel will be more predictable because there
will be fewer delays, less time sitting on the ground and holding in the air, with more flexibility to
get around weather problems. Also, these improvements will reduce aviation’s impact on the envi-
ronment. Flying will be quieter, cleaner, and more fuel-efficient. We will use alternative fuels, new
equipment, and operational procedures, which will lessen our impact on the climate. In addition,
more precise flight paths will help us limit the amount of noise that communities experience. Fur-
ther, with NextGen we will be even more proactive about preventing accidents with new technology
that will help us to predict risks and resolve hazards.

DISTRACTED DRIVING
In our current era of advancing technology and access to smartphones, many think they can use
these devices while driving, but the consequences can be dire. When someone takes his or her focus
off the road-even if just for a moment-he or she puts the lives of all those around them in danger.
Distracted driving is unsafe, irresponsible, and-in a split second-it can be devastating. Distracted
driving is any activity that could divert a person’s attention away from the primary task of driv-
ing. All distractions endanger driver, passenger, and bystander safety. These types of distractions
include: texting, using a cell phone or smartphone, eating and drinking, talking to passengers, or
using a navigation system. Because text messaging requires visual, manual, and cognitive attention
from the driver, though, it is by far the most alarming distraction. Sending or receiving a text takes
a driver’s eyes from the road for an average of 4.6 seconds, the equivalent-at 55 mph-of driving
the length of an entire football field blind. Text messaging creates a crash risk 23 times worse than
driving while not distracted.

In 2010, 3,092 people were killed in crashes involving a distracted driver, and an estimated
additional 416,000 were injured in motor vehicle crashes involving a distracted driver. The best way
to end distracted driving is to educate all Americans about the danger it poses, and DOT will remain
at the forefront of a campaign to inform the public about this hazard.

HIGH SPEED RAIL
The Administration has placed a new emphasis on building high-speed and intercity passenger
rail to connect communities and economic centers across the country. A fully developed passenger
rail system will complement highway, aviation and public transit systems. With the successful
completion of the original phases of the Northeast Corridor (NEC) Improvement Project offering
Amtrak’s maximum 150 miles per hour (mph) Acela train service between Washington, New York,
and Boston, efforts to develop high-speed intercity passenger rail service have expanded beyond
NEC. However, just as the Interstate Highway System took 50 years to complete, the true potential
of a fully integrated high-speed intercity passenger rail network will not be achieved or realized
overnight.

The DOT is working with States to plan and develop high-speed and intercity passenger rail corridors
that range from upgrades to existing services to entirely new rail lines exclusively devoted to 150
to 220 mph trains. Today, over 30 States are at work building this bold vision for 21st century rail.
Our partners are moving forward with more than 150 high-speed and higher performing passenger
rail projects. In 2012 alone, nearly $3 billion in Federal investments are scheduled to be underway
or complete. Implementing these corridor projects and programs will serve as a catalyst to promote
economic expansion (including new manufacturing jobs), create new choices for travelers



9    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
MESSAGE FROM THE SECRETARY
�

in addition to flying or driving, reduce national dependence on oil, and foster livable urban and
rural communities.

Once track is laid and stations are constructed, high-speed rail will spur economic development. It
will generate quality jobs at small business all along its corridors. Our highways and airports simply
cannot handle the substantial growth forecast over the next several decades. A new, modem, high-
speed rail network must be an important part of the solution.

LOOKING AHEAD
This year has seen many achievements to improve our country’s transportation systems. As we
continue to move ahead in 2013, we look forward to working with the Congress and our public
and private sector stakeholders to rebuild and strengthen America’s roads, transit systems, airways,
and waterways, creating the means by which we connect with one another, grow our economy, and
pursue our dreams.




RAY LaHOOD




10   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
MANAGEMENT’S DISCUSSION
AND ANALYSIS
MANAGEMENT’S DISCUSSION AND ANALYSIS
�

DOT MISSION AND VALUES                                               ORGANIZATION

MISSION                                                              Established in 1967, DOT sets Federal transportation policy and
The Department’s mission is to serve the United States by ensuring   works with State, local, and private-sector partners to promote
a fast, safe, efficient, accessible, and convenient transportation   a safe, secure, efficient, and interconnected National transporta-
system that meets our vital national interests and enhances the      tion system of roads, railways, pipelines, airways, and seaways.
quality of life of the American people, today and into the future.   DOT’s overall objective of creating a safer, simpler, and smarter
                                                                     transportation system is the guiding principle as the Department
VALUES                                                               moves forward to achieve specific goals.
PROFESSIONALISM As accountable public servants, DOT
employees exemplify the highest standards of excellence,             HOW DOT IS ORGANIZED
integrity, and respect in the work environment.                      DOT employs more than 57,000 people in the Office of the
                                                                     Secretary (OST) and through twelve Operating Administrations
TEAMWORK DOT employees support each other, respect                   (OAs) and bureaus, each with its own management and
differences in people and ideas, and work together in ONE            organizational structure.
DOT fashion.
                                                                     The Office of the Secretary provides overall leadership and
CUSTOMER FOCUS        DOT employees strive to understand and         management direction, administers aviation economic and
meet the needs of the Department’s customers through service,        consumer protection programs, and provides administrative
innovation, and creativity. We are dedicated to delivering results   support. The Office of Inspector General (OIG) and the Surface
that matter to the American people.                                  Transportation Board (STB), while formally part of DOT, are
                                                                     independent by law.




12   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
ORGANIZATIONAL CHART
�




                                                          SECRETARY/
                                                            DEPUTY
                                                          SECRETARY



                                                                                                            ASSISTANT
                                                                                                          SECRETARY FOR
                                                                                                         TRANSPORTATION
                                                                                                             POLICY
                                                                           UNDERSECRETARY
                                                                             FOR POLICY                      ASSISTANT
                                                                                                             SECRETARY
                                                                                                          FOR AVIATION AND
                                                                                                           INTERNATIONAL
                                                                                                              AFFAIRS




                                               ASSISTANT                                                 OFFICE OF DRUG
       ASSISTANT                                                OFFICE OF THE CHIEF
                          BOARD OF       SECRETARY FOR BUDGET                          OFFICE OF CIVIL     & ALCOHOL           EXECUTIVE
     SECRETARY FOR                                                 INFORMATION
                      CONTRACT APPEALS   AND PROGRAMS & CHIEF                              RIGHTS           POLICY &          SECRETARIAT
     ADMINISTRATION                                                   OFFICER
                                           FINANCIAL OFFICER                                              COMPLIANCE




                                             ASSISTANT                                                   OFFICE OF SMALL
                                                                    OFFICE OF
                                           SECRETARY FOR                              OFFICE OF PUBLIC   & DISADVANTAGED
                      GENERAL COUNSEL                             INTELLIGENCE
                                           GOVERNMENTAL                                   AFFAIRS            BUSINESS
                                                                  AND SECURITY
                                              AFFAIRS                                                       UTILIZATION




                                          FEDERAL MOTOR
 FEDERAL AVIATION     FEDERAL HIGHWAY                           FEDERAL RAILROAD      FEDERAL TRANSIT      MARITIME
                                          CARRIER SAFETY
  ADMINISTRATION       ADMINISTRATION                            ADMINISTRATION       ADMINISTRATION     ADMINISTRATION
                                          ADMINISTRATION




                                                                  PIPELINE AND         RESEARCH AND      SAINT LAWRENCE
                      NATIONAL HIGHWAY        OFFICE OF                                                                         SURFACE
                                                                   HAZARDOUS             INNOVATIVE          SEAWAY
                       TRAFFIC SAFETY        INSPECTOR                                                                       TRANSPORTATION
                                                                MATERIALS SAFETY        TECHNOLOGY        DEVELOPMENT
                       ADMINISTRATION         GENERAL                                                                            BOARD
                                                                 ADMINISTRATION       ADMINISTRATION      CORPORATION




13     U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
 �
OVERVIEW LEGISLATIVE AUTHORITY                                          OPERATING ADMINISTRATIONS AND
                                                                        INDEPENDENT ORGANIZATIONS
The Secretary of Transportation, under the direction of the
President, exercises leadership in transportation matters. Section      OFFICE OF THE SECRETARY (OST)
101 of Title 49 United States Code describes the United States          The Office of the Secretary oversees the formulation of national
Department of Transportation purposes as follows:                       transportation policy and promotes intermodal transportation.
                                                                        Other responsibilities include negotiation and implementation
A.	� “The national objectives of general welfare, economic              of international transportation agreements, assuring the fitness of
      growth and stability, and security of the United States           U.S. airlines, enforcing airline consumer protection regulations,
      require the development of transportation policies and pro-       issuance of regulations to prevent alcohol and illegal drug misuse
      grams that contribute to providing fast, safe, efficient, and     in transportation systems, and preparing transportation legisla-
      convenient transportation at the lowest cost consistent with      tion.
      those and other national objectives, including the efficient
      use and conservation of the resources of the United States.       FEDERAL AVIATION ADMINISTRATION (FAA)
                                                                        The Federal Aviation Administration’s mission is to provide the
B.	� A Department of Transportation is necessary in the public
                                                                        safest, most efficient aerospace system in the world.
     interest and to—

     1.	�   ensure the coordinated and effective 
                      FEDERAL HIGHWAY ADMINISTRATION (FHWA)
            administration of the transportation programs 
             The mission of the Federal Highway Administration (FHWA) is
            of the United States Government;
	                          to improve mobility on our Nation’s highways through national
                                                                        leadership, innovation, and program delivery.
     2.	� make easier the development and improvement of
            coordinated transportation service to be provided
                                                                        FEDERAL MOTOR CARRIER SAFETY
            by private enterprise to the greatest extent feasible;
                                                                        ADMINISTRATION (FMCSA)
     3.	� encourage cooperation of Federal, State, and local            The Federal Motor Carrier Safety Administration’s primary
            governments, carriers, labor, and other interested          mission is to reduce crashes, injuries, and fatalities involving
            persons to achieve transportation objectives;               large trucks and buses.
     4.	� stimulate technological advances in transportation,
                                                                        FEDERAL RAILROAD ADMINISTRATION (FRA)
            through research and development or otherwise;
                                                                        The mission of the Federal Railroad Administration is to enable
     5.	� provide general leadership in identifying and solving         the safe, reliable, and efficient transportation of people and goods
            transportation problems; and                                for a strong America, now and in the future.
     6.	� develop and recommend to the President and Congress
                                                                        FEDERAL TRANSIT ADMINISTRATION (FTA)
            transportation policies and programs to achieve trans-
                                                                        The Federal Transit Administration’s mission is to improve
            portation objectives considering the needs of the public,
                                                                        public transportation for passengers and America’s communities.
            users, carriers, industry, labor, and national defense.”

                                                                        MARITIME ADMINISTRATION (MARAD)
                                                                        The Maritime Administration’s mission is to improve and
                                                                        strengthen the U.S. marine transportation system to meet the
                                                                        economic, environmental, and security needs of the Nation.

                                                                        NATIONAL HIGHWAY TRAFFIC SAFETY
                                                                        ADMINISTRATION (NHTSA)
                                                                        The National Highway Traffic Safety Administration’s mission is
                                                                        to save lives, prevent injuries, and reduce economic costs due to
                                                                        road traffic crashes, through education, research, safety standards,
                                                                        and enforcement activity.




14   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
OFFICE OF INSPECTOR GENERAL (OIG)
The Inspector General Act of 1978, as amended, established
the Office of Inspector General as an independent and objective
organization within the DOT. The OIG is committed to fulfilling
its statutory responsibilities and supporting members of Con-
gress, the Secretary, senior Department officials, and the public
in achieving a safe, efficient, and effective transportation system.

PIPELINE AND HAZARDOUS MATERIALS SAFETY
ADMINISTRATION (PHMSA)
PHMSA’s mission is to protect people and the environment
from the risks inherent in transportation of hazardous materials
by pipeline and other modes of transportation.

RESEARCH AND INNOVATIVE TECHNOLOGY
ADMINISTRATION (RITA)
The Research and Innovative Technology Administration works
to advance DOT priorities for innovation and research in transporta-
tion technologies and concepts.

SAINT LAWRENCE SEAWAY DEVELOPMENT
CORPORATION (SLSDC)
The Saint Lawrence Seaway Development Corporation’s mission is
to serve the marine transportation industries by providing a safe,
secure, reliable, efficient, and competitive deep draft international
waterway, in cooperation with the Canadian St. Lawrence
Seaway Management Corporation.

SURFACE TRANSPORTATION BOARD (STB)
The Surface Transportation Board is charged with promoting
substantive and procedural regulatory reform in the economic
regulation of surface transportation, and with providing an
efficient and effective forum for the resolution of disputes
and the facilitation of appropriate business transactions.




15   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
PERFORMANCE HIGHLIGHTS                                               ECONOMIC COMPETITIVENESS
                                                                     DOT has established a goal to support the U.S. economy by fos-
This is the first year that the Department of Transportation will    tering smart, strategic investments that serve the traveling public
report against “Transportation for a New Generation,” DOT’s          and facilitate freight movement. The Department’s central strate-
Strategic Plan for Fiscal Years 2012 – 2016. Under this Strate-      gies for achieving maximum economic returns on its policies and
gic Plan, the Department continues to track many of the mea-         investments include leading the development of intercity, high-
sures found in the previous plan, but as the agency builds upon      speed passenger rail and a competitive air transportation system;
progress in improving transportation and develops new strategic      increasing travel time reliability in freight-significant highway
priorities, some new measures were developed.                        corridors; improving the performance of freight rail and maritime
                                                                     networks; advancing transportation interests in targeted markets
An overview of the Department’s strategic goals is provided          around the world; and expanding opportunities in the transporta-
below, and a complete analysis of DOT’s successes and challenges     tion sector for small businesses. In FY 2012, preliminary results
related to FY 2012 performance targets will be included in           show that the Department met or exceeded all 18 targets for the
the Annual Performance Report. A brief discussion of the             economic competitiveness goals.
Department’s results by strategic goal follows.
                                                                     LIVABLE COMMUNITIES
SAFETY                                                               Fostering livable communities – places where coordinated trans-
Improving transportation safety remains DOT’s top priority. The      portation, housing, and commercial development gives people
Department tracks the safe movement of Americans and products        access to affordable and environmentally sustainable transpor-
on the highways, in the air, on transit systems, on railroads, and   tation – is a transformational policy shift for DOT. Through the
through pipelines. The Department has estimated or final 2012        principles established in the livable communities strategic goal,
results for 11 of the 13 safety goals that will be included in the   the Department will pursue coordinated, place-based policies
Annual Performance Report. Preliminary performance measure           and investments that increase transportation choices and access
results show that the Department is on target or exceeding the       to public transportation services for all Americans. Based on pre-
target for all but one of the goals. DOT does not anticipate         liminary data, DOT met or exceeded FY 2012 targets for five of
achieving its FY 2012 target for the number of fatal general         six livable communities goals. The Department is awaiting final
aviation (GA) accidents per 100,000 flight hours, because the        data for the two remaining goals and results will be discussed in
number of fatal GA accidents continues to decline more slowly        the Annual Performance Report released in early 2013.
than anticipated. Most of the fatalities occurred in the area of
experimental aircraft, which are predominately amateur-built.        ENVIRONMENTAL SUSTAINABILITY
These aircraft accounted for approximately 28 percent of GA          While the transportation sector is a significant source of green-
fatal accidents while contributing to slightly less than 4 percent   house gas (GHG) emissions, the Department is working to ad-
of GA flying hours. FAA continues to pursue multiple avenues         dress and mitigate this challenge through strategies such as fuel
for addressing this issue.                                           economy standards for cars and trucks, more environmentally
                                                                     sound construction and operational practices, and by expanding
STATE OF GOOD REPAIR                                                 opportunities for shifting freight from less fuel-efficient modes to
Recent reports on the condition of key facilities – highways,        more fuel-efficient modes. A full discussion of the Department’s
bridges, transit systems, passenger rail, and airport runways        FY 2012 environmental sustainability goals will be included in
– reveal that many fall short of a state of good repair and thus     the Annual Performance Report.
compromise the safety, capacity, and efficiency of the U.S.
transportation system. DOT’s role in achieving a state of good
repair is through strong programmatic emphasis and new resources
aimed at improving the condition of our infrastructure. DOT
also encourages its government and industry partners to make
optimal use of existing capacity, minimize life-cycle costs, and
apply sound asset management principles throughout the system.
In FY 2012, preliminary results show that the Department met or
exceeded the target for each of the state of good repair goals for
which data is currently available. The Department will work to
finalize results for all state of good repair performance measures
prior to the release of the Annual Performance Report.




16   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
PERFORMANCE SUMMARY TABLES
�
 SAFETY PERFORMANCE SUMMARY


                                                                                                                                 2012             2012
 PERFORMANCE MEASURE                                         2007         2008         2009        2010             2011       TARGET           ACTUAL        MET/NOT MET
 Highway fatality rate per 100 million vehicle-miles            1.36        1.26         1.15        1.11            1.09*           1.05              N/A        Potentially Met
 traveled (VMT). (NHTSA, FHWA, FMCSA)                                                                                                                                      (2011)


 Passenger vehicle occupant fatality rate per 100               1.08        0.97         0.89        0.84      0.83–0.89*            0.85      0.83–0.89*         Potentially Met
 million VMT. (NHTSA, FHWA, FMCSA)

 Motorcyclist rider fatality rate per 100,000                 72.48        68.52        56.36       54.82          56-58*              63           56-58*        Potentially Met
 motorcycle registrations. (NHTSA, FHWA, FMCSA)

 Non-occupant (pedestrian and bicycle) fatality rate            0.18        0.18         0.17        0.17      0.16–0.17*            0.16      0.16–0.17*         Potentially Met
 per 100 million VMT. (NHTSA, FHWA, FMCSA)

 Large truck and bus fatality rate per 100 million            0.169        0.155        0.123       0.131   0.117–0.134*            0.117    0.110–0.127*         Potentially Met
 total VMT. (NHTSA, FHWA, FMCSA)

 Number of commercial air carrier fatalities per 100            N/A           0.4         6.7         0.3             0.0*            7.6              0.0*       Potentially Met
 million persons onboard. (FAA)

 Number of fatal general aviation accidents per                 N/A          N/A         1.16        1.10            1.13*           1.07            1.10*    Potentially Not Met
 100,000 flight hours. (FAA)

 Category A&B runway incursions per million                   0.393        0.427        0.227       0.117           0.138           0.395            0.356                    Met
 operations. (FAA)

 Pipeline incidents involving death or major injury.             47           40           49          39               39             43              32*        Potentially Met
 (PHMSA)
 Hazardous materials incidents involving death or                36           24           29          19               33             34              33*        Potentially Met
 major injury. (PHMSA)

 Transit fatalities per 100 million passenger-miles             N/A          N/A          N/A        .533             .547           .543              N/A              Met (2011)
 traveled. (FTA) (r)

 Rail-related accidents and incidents per million            17.298       16.904       16.874     16.634           15.890         16.300           14.351*        Potentially Met
 train-miles. (FRA)†

 Cumulative number of States and localities that                N/A          N/A           15          22               26             26               27                    Met
 adopt roadway designs that accommodate all road
 users (complete streets). (OST)

 (r) Revised Performance Measure; * Preliminary Estimate; † Actual results might differ from previous reports and are subject to change, due to subsequently obtained
 information. FY 2012 actuals are based on 9 months of preliminary data.




17    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
 STATE OF GOOD REPAIR PERFORMANCE SUMMARY


                                                                                                                         2012             2012
 PERFORMANCE MEASURE                                2007           2008           2009         2010       2011         TARGET           ACTUAL        MET/ NOT MET
 Percent of travel on the National Highway              57             56             57           58         58              56.0           N/A**                        ---
 System (NHS) roads with pavement
 performance standards rated “good.”
 (FHWA)

 Percent of deck area (i.e., the roadway               8.4            8.2            8.2          8.3         7.8              7.8             7.1*        Potentially Met
 surface of a bridge) on NHS bridges rated              (r)            (r)            (r)          (r)
 structurally deficient. (FHWA)

 Backlog of transit capital assets in need of          N/A           N/A            N/A         $77.7       N/A^            $77.6             N/A^                        ---
 replacement or refurbishment (as defined                                                      Billion                     Billion
 by an estimated condition rating of 2.5 or
 lower). (FTA)
 Percent of runway pavement in excellent,           96.6%          96.9%          97.0%        97.2%       97.4%            93.0%            97.5%                        Met
 good, or fair condition for paved runways
 in the National Plan of Integrated Airport
 Systems. (FAA)
 (r) Revised; * Preliminary Estimate; ^ 2011 and 2012 Actuals Available Following Release of Conditions and Performance Report ** Results currently unavailable;will be
 reported in the Annual Performance Report;




18    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
ECONOMIC COMPETITIVENESS PERFORMANCE SUMMARY


                                                                                                            2012       2012
PERFORMANCE MEASURE                                    2007       2008       2009       2010     2011     TARGET     ACTUAL     MET /NOT MET
Travel time reliability in urban areas as measured     1.24(r)    1.21(r)    1.19(r)      1.21     1.21       1.21      1.21*     Potentially Met
by the Travel Time Index. (FHWA)
Travel time reliability in freight significant           15.0       14.4       13.8       13.7     13.8       15.0      13.2*     Potentially Met
corridors. (FHWA)
Number of corridor programs that will achieve             N/A        N/A        N/A       N/A         3         1          1                 Met
initial construction. (FRA)
Number of individual construction projects that           N/A        N/A        N/A       N/A         8        14         19                 Met
will achieve initial construction. (FRA)
Average daily airport arrival and departure           102,545    103,222    101,691    101,668   87,338     86,835    88,591*     Potentially Met
capacity at Core Airports. (FAA)
Percent of operational availability for the           99.83%     99.82%     99.78%     99.79%    99.72%    99.70%     99.80%                 Met
reportable facilities that support Core Airports.
(FAA)
Initial operating capability on ERAM at continental       N/A        N/A        N/A       N/A         2         7          7                 Met
U.S. En Route centers. (FAA)
Percent of time the U.S. portion of the St.            99.4%      98.8%      99.4%      99.8%     99.0%     99.0%      99.7%                 Met
Lawrence Seaway system and locks are
available. (SLSDC)
Ships available to meet DOD’s requirements for             60         60         59        60        60        60         60                 Met
commercial sealift capacity (as measured by the
number of ships contractually enrolled in the
maritime security program). (MARAD)
Operating days in U.S. foreign commerce and               N/A        N/A        N/A     21,436   21,557     19,200     21,593                Met
available to meet DOD’s requirements (as
measured by the number of ship operating days
that ships enrolled in the MSP were actually
operating in U.S. foreign commerce). (MARAD)
Number of Twenty Foot Equivalent (TEU)                    N/A        N/A        N/A       N/A     1,061      3,500      8,221                Met
containers transported across America’s Marine
Highway corridors. (MARAD)
Number of U.S. Merchant Marine Academy                    210        219        198       198      205        210        219                 Met
(USMMA) graduates. (MARAD)
Number of State Maritime Academy graduates.               N/A        N/A        N/A       575      545        592        607*     Potentially Met
(MARAD)
Percent of NAS on-time arrivals at Core Airports.     86.96%     87.29%     88.98%     90.55%    90.41%    88.00%     92.50%                 Met
(FAA)
Review air carriers to ensure they meet the               N/A        N/A         22        20       26         18         27                 Met
requisite standards for obtaining or retaining
economic authority to operate. (OST)
Reach new or expanded bilateral and multilateral            3          4          4         7         4         3          4                 Met
agreements to remove market-distorting barriers
to trade in transportation. (OST)
Percent of total dollar value of DOT direct           19.30%     16.19%     13.36%     14.00%    19.50%    15.00%     19.50%*     Potentially Met
contracts awarded to small, disadvantaged
businesses. (OST)
Percent of total dollar value of DOT direct           10.40%      8.12%     10.94%      8.00%    11.10%     6.00%     10.40%*                Met
contracts awarded to women-owned businesses.
(OST)
(r) Revised; * Preliminary Estimate




19   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
 LIVABLE COMMUNITIES PERFORMANCE SUMMARY


                                                                                                              2012        2012       MET/ NOT
     PERFORMANCE MEASURE                        2007           2008           2009      2010      2011      TARGET      ACTUAL            MET
 States with policies that improve                 N/A            N/A            N/A        21        24          26          26               Met
 transportation choices for walking
 and bicycling. (FHWA)
 States that have developed an                     N/A            N/A            N/A       N/A        13          12          17               Met
 Americans with Disabilities Act (ADA)
 transition plan that is current and
 includes the public rights-of-ways.
 (FHWA)
 Number of calendar year transit                    9.9          10.3             9.9       9.9     10.1        10.1         10.3       Potentially
 boardings reported by urbanized area           Billion        Billion        Billion   Billion   Billion     Billion    Billion#              Met
 transit providers. (FTA)
 Number of transit boardings reported              118            128           131        138       144         144       TBD^                Met
 by rural area transit providers. (FTA)         Million        Million       Million    Million   Million     Million                        (2011)
 Transit “market share” among                      N/A            N/A            N/A         0         1           4       TBD^           Not Met
 commuters to work in the 50 most-                                                                                                        (2011)**
 populous urbanized areas. (FTA)
 Number of key rail stations verified              N/A            N/A            N/A       513       522         531        567*    Potentially Met
 as accessible and fully compliant.
 (FTA)
 Number of intercity rail passenger-              5.65           6.16           5.90      6.33      6.53        6.60        6.80               Met
 miles traveled. (FRA)                          Billion        Billion        Billion   Billion   Billion     Billion     Billion
 Percent of intercity passenger                    N/A            N/A            N/A       N/A       N/A         2%          0%            Not Met
 rail stations that comply with the
 requirements of the ADA. (FRA)
 * Preliminary Estimate; # Projection from Trends; ^ 2012 Actual Available Late 2013;
 ** 2011 Interim Target Developed Prior to 2012-2016 Strategic Plan Release




20    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
 ENVIRONMENTAL SUSTAINABILITY PERFORMANCE SUMMARY


                                                                                                                                                   2012        MET/ NOT
 PERFORMANCE MEASURE                                 2007           2008            2009           2010           2011         TARGET            ACTUAL             MET
 NAS energy efficiency (measured by fuel          (13.87%)        (13.52%)       (14.03%)       (15.25%)        (14.50%)         (14.00%)          (14.76%)            Met
 burned per miles flown). (FAA)
 U.S. population exposed to significant                 N/A       383,465         291,768        317,596        315,293           386,000           319,901            Met
 aircraft noise around airports. (FAA)
 Hazardous liquid pipeline spills with                   97            128            111              88             99                99             114*     Potentially
 environmental consequences. (PHMSA)                                                                                                                              Not Met
 Percent reduction of vehicle fleet                    11%              8%            14%             5%            4.9%              14%             TBD**            ---
 petroleum use. (OST)
 Percent improvement in water efficiency.               N/A             2%           3.3%          (1.2%)         (9.7%)              10%             TBD**            ---
 (OST)
 Percent recycling and waste diversion.                 N/A            N/A            N/A              ##             ##               6%             TBD**            ---
 (OST)
 Percent of all applicable contracts that               N/A            N/A            N/A              ##           95%               95%             TBD**            ---
 meet sustainability requirements. (OST)
 Percent reduction in green-house gas                   N/A            N/A            N/A           7.9%          15.4%                4%             TBD**            ---
 emissions from facilities and fleets. (OST)
 Percent reduction in green-house gas                   N/A            N/A            N/A          (4.7%)           0.1%               2%             TBD**            ---
 emissions from employee business travel
 and commuting. (OST)
 Compliance with the April 2010 court-                  N/A            N/A            N/A              11             15                 2                10           Met
 ordered consent decree for removal of
 Suisun Bay Reserve Fleet non-retention
 ships on an annual basis. (MARAD)

 Percent of alternative-fuel and hybrid                39%             42%            43%            44%           45%*               46%              TBD^           Met
 vehicles in the transit revenue service                                                                                                                            (2011)
 fleet. (FTA)
 * Preliminary Estimate; ** Results available in Jan. 2013 and reported in Annual Performance Report; ## Data unavailable; ^ 2012 Actual Available Late 2013




21    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
                                                                       The Department’s assets reflected in the Consolidated Balance
FINANCIAL HIGHLIGHTS                                                   Sheet are summarized in the following table.

DOT has chosen to produce an Agency Financial Report (AFR)
and an Agency Performance Report (APR) for FY 2012. The                 ASSETS BY TYPE
DOT will include its FY 2012 APR with its Congressional                 DOLLARS IN
Budget Justification and will post it on DOT’s website at               THOUSANDS
                                                                                                      2012      %          2011        %

www.dot.gov by February 15, 2013.                                       Fund Balance with       $33,356,274    43.8   $39,761,625    46.4
                                                                        Treasury
The financial statements and financial data presented in this           Investments              22,330,652    29.4    26,682,058    31.1
Report have been prepared from the accounting books and
                                                                        General Property,        14,030,366    18.4    13,740,507    16.0
records of the U.S. Department of Transportation in conformity
                                                                        Plant & Equipment
with generally accepted accounting principles (GAAP). GAAP
                                                                        Direct Loans and          5,022,807     6.6     4,187,635     4.9
for Federal entities are the standards and other authoritative          Guarantees, Net
pronouncements prescribed by the Federal Accounting Stan-
                                                                        Inventory and Related       857,891     1.1      845,833      1.0
dards Advisory Board (FASAB). Department management is                  Property, Net
responsible for the integrity and fair presentation of the financial
                                                                        Accounts Receivable         271,457      .4      266,388       .3
information in these statements.
                                                                        Cash and Other              239,348      .3      247,528       .3
The American Recovery and Reinvestment Act of 2009 (ARRA                Assets
or the Recovery Act) continues to have a significant, although         Total Assets             $76,108,795   100.0   $85,731,574   100.0
reduced, impact on the Department’s financial statements when
comparing FY 2012 amounts to FY 2011 amounts for certain               LIABILITIES The Department’s Consolidated Balance Sheet
financial statement line items. Of the $48.1 billion in appropri-      reported total liabilities of $18 billion at the end of FY 2012, as
ations provided by ARRA in FY 2009, the Department obligat-            summarized in the table below. This represents a modest decrease
ed $47.6 billion, or 99 percent of the available funding, as of        from the previous year’s total liabilities of $18.4 billion. The
September 30, 2012, with $8 billion obligated in FY 2011 and           largest decrease was in the Accounts Payable line item as
a remaining $46 million obligated in FY 2012. The Department           disbursements for ARRA programs continue to decline.
had disbursed $37 billion as of September 30, 2012, with $11.3
billion disbursed in FY 2011 and $5.3 billion disbursed in FY           LIABILITIES BY TYPE
2012.
                                                                        DOLLARS IN                   2012        %         2011        %
                                                                        THOUSANDS
Both the Airport and Airway Trust Fund (AATF) and the
                                                                        Grant Accrual           $6,315,689       35    $6,560,755    35.7
Highway Trust Fund (HTF) were granted extensions of authority
to collect excise taxes and to make expenditures in FY 2012.            Debt                      5,193,598    28.8     4,342,866    23.6
In February, the FAA Modernization and Reform Act of 2012,
                                                                        Other Liabilities         3,660,118    20.3     4,051,687    22.1
Public Law (P.L.) 112-95, extended AATF authority through
September 30, 2015. In July, Moving Ahead for Progress in the           Federal Employee          1,019,076     5.6       978,918     5.3
                                                                        Benefits Payable
21st Century (MAP-21), P.L. 112-141, infused the HTF with $2.4
billion in FY 2012 and extended its authority through September         Environmental and         1,010,818     5.6     1,068,076     5.8
                                                                        Disposal Liabilities
30, 2014.
                                                                        Accounts Payable           643,997      3.6     1,208,245     6.6

OVERVIEW OF FINANCIAL POSITION                                          Loan Guarantees            192,829      1.1       158,425      .9
ASSETS The Consolidated Balance Sheet reports a decrease
in total assets to $76.1 billion at the end of FY 2012, compared       Total Liabilities        $18,036,125   100.0   $18,368,972   100.0
with $85.7 billion at the end of FY 2011. The Fund Balance with
Treasury line item decreased by $6.4 billion as ARRA funding           NET POSITION The Department’s Consolidated Balance Sheet
provided in FY 2009 continued to be disbursed in FY 2012.              and Consolidated Statement of Changes in Net Position report a
Investments decreased by $4.4 billion, as greater drawdowns            Net Position of $58 billion at the end of FY 2012, a 13.8 percent
decreased the HTF investment balance by $6.3 billion, offset by        decrease from the $67.4 billion from the previous fiscal year. The
an increase in the AATF investment balance of $1.9 billion from        decline is mainly attributable to a return to pre-ARRA funding
excise tax collections.                                                levels. Net Position is the sum of Unexpended Appropriations
                                                                       and Cumulative Results of Operations.




22   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NET COSTS      The Department’s total net cost of operations for
                                                                        RESOURCES
FY 2012 was $77 billion. Surface and air costs represent 98.4
percent of the Department’s net cost of operations. Surface             DOLLARS IN                   2012           2011     (DECREASE)
transportation program costs represent the largest investment           THOUSANDS
for the Department at 77.6 percent of the Department’s net cost
                                                                        Total Budgetary
of operations. Air transportation is the next largest investment                               $134,107,279   $140,800,746            %(4.8)
                                                                        Resources
for the Department at 20.8 percent of total net cost of operations.
                                                                        Obligations Incurred     86,554,746     90,313,537            %(4.2)

 NET COSTS                                                              Net Outlays              75,973,821     78,551,159            %(3.3)

 DOLLARS IN
 THOUSANDS                      2012       %          2011       %     HERITAGE ASSETS AND STEWARDSHIP
                                                                       LAND INFORMATION
 Surface Transportation    $59,762,698    77.6   $60,319,117    77.2
                                                                       Heritage assets are property, plant, and equipment that are unique
 Air Transportation         16,004,333    20.8    16,544,662    21.2   for one or more of the following reasons: historical or natural
 Maritime Transportation      493,519       .6      484,393       .6
                                                                       significance; cultural, educational, or artistic importance; or
                                                                       significant architectural characteristics.
 Cross-Cutting Programs       391,458       .5      347,273       .5
                                                                       Stewardship land is land and land rights owned by the Federal
 Costs Not Assigned to        384,545       .5      417,558       .5
 Programs                                                              Government but not acquired for or in connection with items of
                                                                       general property, plant, and equipment.
Net Cost of Operations     $77,036,553   100.0   $78,113,003   100.0

                                                                       The Department’s heritage assets consist of artifacts, museum
RESOURCES                                                              and other collections, and buildings and structures. The artifacts
BUDGETARY RESOURCES The Combined Statement of                          and museum and other collections are those of the Maritime
Budgetary Resources provides information on how budgetary              Administration. Buildings and structures include Union Station
resources were made available to the Department for the year           (rail station) in Washington, D.C., which is titled to the Federal
and their status at fiscal year-end. For the 2012 fiscal year, the     Railroad Administration.
Department had total budgetary resources of $134.1 billion,
which represents a 4.8 percent decline from FY 2011 levels of          The Department holds transportation investments (stewardship
$140.8 billion. Budget Authority of $134.1 billion consisted of        land) through grant programs, such as the Federal aid highways,
$51.5 billion in unobligated authority carried over from prior         mass transit capital investment assistance, and airport planning
years, $19.7 billion in appropriations, $54.9 billion in borrowing     and development programs.
and contract authority, and $8 billion in spending authority from
offsetting collections. The Department’s FY 2012 obligations           Financial information for heritage assets and stewardship land
incurred totaled $86.6 billion compared with FY 2011 obligations       is presented in the Financial Report section of this report in the
incurred of $90.3 billion.                                             Notes to the Financial Statements and Required Supplementary
                                                                       Information.
Net Outlays reflect the actual cash disbursed against previously
established obligations. For FY 2012, the Department had net           LIMITATIONS OF THE FINANCIAL STATEMENTS
outlays of $76 billion, compared to FY 2011 levels of $78.6            The principal financial statements have been prepared to
billion, a decrease of 3.3 percent. As expected, disbursements         report the financial position and results of operations of the U.S.
have decreased as the Recovery Act program nears completion            Department of Transportation, pursuant to the requirements of 31
(i.e. as lower levels of obligations from FY 2012 and FY 2011 are      U.S.C. 3515 (b).
liquidated).
                                                                       These statements have been prepared from the books and records
                                                                       of the U.S. Department of Transportation in accordance with
                                                                       GAAP for Federal entities and in formats prescribed by OMB.
                                                                       The statements are in addition to the financial reports used to
                                                                       monitor and control budgetary resources, which are prepared
                                                                       from the same books and records.

                                                                       The statements should be read with the realization that they
                                                                       are for a component of the U.S. Government.




23    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
FY2012 FMFIA ASSURANCE LETTER TO THE PRESIDENT
THE FOLLOWING IS TEXT OF THE SECRETARY’S LETTER TO THE PRESIDENT

I am pleased to report on the effectiveness of the internal controls and financial management
systems for the U.S. Department of Transportation (DOT) during Fiscal Year (FY) 2012. This report
is based on our successful implementation of the Federal Managers’ Financial Integrity Act of 1982
(FMFIA); Office of Management and Budget (OMB) Circular A-123; Management’s Responsibility
for Internal Control; and OMB Office of Federal Procurement Policy’s Acquisition Assessment.

The FMFIA holds Federal managers accountable for establishing and maintaining effective internal
controls and financial systems. All DOT organizations are subject to Sections 2 and 4 of FMFIA,
except the Saint Lawrence Seaway Development Corporation, which reports separately under the
Government Corporations Control Act.

The DOT is able to provide reasonable assurance that the internal controls and financial manage-
ment systems in effect during the period of October 1, 2011, through September 30, 2012, met the
objectives of both Sections 2 and 4 of the FMFIA, except for two material weaknesses. One weak-
ness is related to compliance with the Federal Information Security Management Act (FISMA), and
a second weakness involves improper controls over the review and monitoring of grant “Undeliv-
ered Orders” (UDOs). The UDOs are budget obligations that have not yet been fully liquidated by
making a payment. Closely associated with this UDO issue, we also are citing a non-conformance
with accounting standards for reporting grant UDO balances. During FY 2012, DOT conducted its
assessment of internal controls and compliance with applicable laws and regulations in accordance
with OMB Circular A-123.

FISMA COMPLIANCE
In late 2011, the Office of Inspector General (OIG) issued a report on DOT’s compliance with
FISMA. The purpose of this review was to determine the effectiveness of DOT’s security program
and practices in the areas of policies and procedures, enterprise-level information security controls,
management of information security weaknesses, and system-level security controls. As a result
of this review, OIG made 5 specific recommendations, in addition to the recommendations that
remained open from previous OIG FISMA reports.

As part of our commitment to resolve these deficiencies, DOT made improvements during 2012
through the issuance of new cybersecurity guidance for the majority of its components, and new cy-
bersecurity policy specifically for the Office of the Secretary (OST). The DOT also made progress
on Administration cybersecurity priority goals, deploying continuous monitoring capabilities across
66 percent of agency assets, consolidating 91 percent of its internet bandwidth through secured
internet connections, and enabling use of Personal Identity Verification (PIV) Cards for secure
network login for more than 70 percent of non-FAA personnel. Senior management and the Depart-
ment’s Chief Information Officer (CIO) have been monitoring these corrective actions.

Although progress has been made since 2011 to resolve outstanding FISMA matters, many of these
conditions substantially existed during 2012, with corrective actions still in progress. We expect
that the OIG’s report on FISMA for 2012 will reach a similar conclusion. As a consequence, DOT’s
compliance with FISMA during 2012 again constituted a material weakness in internal control
under Section 2 of FMFIA. To remediate further the Department’s cybersecurity program issues in
the coming year, DOT’s corrective action plan contemplates additional progress in the following
critical areas:

 ▶	 Improving contingency planning and testing;

 ▶	 Improving the oversight of component-level security programs and weaknesses;

 ▶	 Further implementation of a continuous monitoring strategy and program across the 

     Department; and 


 ▶	 Substantial progress in closing remaining open audit recommendations.


24   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
OMB CIRCULAR A-123, APPENDIX A INTERNAL CONTROL PROGRAM
During FY 2012, DOT conducted an assessment of the effectiveness of internal controls over finan-
cial reporting, including safeguarding of assets and compliance with applicable laws and regulations
in accordance with the requirements of OMB Circular A-123, Appendix A. During FY 2012, DOT
assessed and tested controls over key identified business processes, including Budget; Inventory
Management; Human Resources, Time and Attendance; Property Plant and Equipment; and Grants
Management. The DOT used a risk-based approach to determine other material business processes
that should be included in the testing.

The major OMB Circular A-123, Appendix A activities in FY 2012 included evaluating entity level,
process level, and in-depth testing at the transaction level of internal controls over financial report-
ing for the 5 identified business processes. All deficiencies were communicated to senior manage-
ment and mitigated using existing remediation procedures.

The DOT confirmed a material weakness in internal controls related to grant UDOs. Existing con-
trols for the review and monitoring of grant UDOs needs to be strengthened to determine accurately
if balances are still valid. Specifically, DOT determined that Federal Highway Administration’s
(FHWA) Financial Integrity Review and Evaluation tier review was not appropriately designed or
operating effectively to timely identify unused obligation balances. The DOT also concluded that
the Federal Transit Administration’s (FTA) review was not appropriately designed to timely identify
unused obligation balances, as the annual review only included grants that were originally obligated
more than 5 years ago and had not recorded a disbursement within 18 months. Therefore, the DOT
is reporting a material weakness in internal control under Section 2 of FMFIA.

The DOT is in the process of implementing corrective actions to mitigate this internal control
weakness related to UDOs. Corrective actions include:

 ▶	 In the fourth quarter of 2012, a clean-up effort was conducted which greatly reduced inactive
     UDOs across the Department;

 ▶	 DOT initiated a training effort for key Agency staff on contract and grant closeout procedures.
     This should help ensure that UDO balances are reviewed timely and are accurately reflected in
     the Department’s accounting records; and

 ▶	 A Department-wide order is being developed, requiring all DOT components to conduct 

     a quarterly review of UDOs. This guidance is expected to be issued by the second quarter 

     of 2013.
	

Based on the overall results of this Circular A-123 evaluation, DOT can provide reasonable
assurance that its internal control over financial reporting was operating effectively, except for the
material weakness related to grant UDOs noted above.


FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA)
The FFMIA states that each Agency shall implement and maintain financial management systems
that comply substantially with Federal financial management systems requirements, applicable
Federal accounting standards, and the United States Government Standard General Ledger at the
transaction level.

During FY 2012, DOT identified a non-conformance with Title 31, United States Code, Sections
1501 and 1554, and The Standards for Internal Control in the Federal Government, issued by the
Government Accountability Office. These issues are related to grant UDOs within FHWA and FTA.
Therefore, DOT is reporting a non-conformance under Section 4 of FMFIA. The DOT is in the
process of implementing several actions to correct this non-conformance with established account-
ing standards. These remediation activities are highlighted in our discussion of UDOs under the
Circular A-123, Appendix A section of this correspondence.




25   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
FMFIA INTERNAL CONTROL PROGRAM
For FY 2012, DOT utilized its standardized and consistent FMFIA Internal Control Program
approach for managing control and compliance activities. The DOT identified and documented
meaningful Components and Assessable Units (AU). Inherent risk assessments were conducted
to classify and prioritize each AU. Management Control Reviews, leveraging the 5 standards of
internal controls, as prescribed by the Committee of Sponsoring Organizations of the Treadway
Commission and the U.S. Government Accountability Office, were conducted to identify, assess,
document, and communicate key management and programmatic internal controls and related risks
or weaknesses.

OMB A-123 ACQUISITION ASSESSMENT
In accordance with guidance from the Office of Federal Procurement Policy and OMB Circular
A-123, DOT developed a 3-year assessment reporting cycle of the DOT’s acquisition offices and
programs, and in FY 2012, DOT is conducting an entity level top-down assessment for OST, the Pipeline
and Hazardous Materials Safety Administration, and the Saint Lawrence Seaway Development Corpora-
tion. As of September 30, DOT has not identified any material weaknesses during this review.

As a result of our FMFIA reviews in FY 2012, I conclude that the Department has made substantial
progress in enhancing its internal controls and financial management program. Additional enhance-
ments are planned and underway in FY 2013.

Sincerely yours,




RAY LaHOOD




26   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
                                                                      to the DOT’s Office of Financial Management. Any identified
SYSTEM, CONTROLS, AND LEGAL                                           FMFIA material weaknesses and material non-conformances
COMPLIANCE                                                            are also reported, as well as milestones established to resolve
                                                                      the challenges and/or accomplishments achieved. Specific
FEDERAL MANAGER’S FINANCIAL INTEGRITY ACT (FMFIA)
                                                                      guidance for completing the self-assessment and end of fiscal
The FMFIA requires agencies to conduct an annual evaluation of
                                                                      year assurance statement and reporting on deficiencies is issued
its internal controls and financial management systems and report
                                                                      annually by the DOT’s Office of Financial Management.
the results to the President and Congress. The agency then pre-
pares an annual Statement of Assurance based on its assessment
                                                                      CRITERIA FOR REPORTING MATERIAL WEAKNESSES AND
of the effectiveness of its controls.
                                                                      NON-CONFORMANCES
                                                                      A material weakness under the FMFIA must fall into one or more
The Secretary of Transportation provided the President and Congress
                                                                      of the categories below plus merit the attention of the Executive
a Statement of Assurance for the fiscal year ended September 30,
                                                                      Office of the President and/or the relevant Congressional over-
2012, stating that the Department of Transportation (DOT) is able
                                                                      sight committees.
to provide reasonable assurance that its controls and systems met
the objectives of the FMFIA, except for two material weaknesses
                                                                      CRITERIA FOR REPORTING A MATERIAL WEAKNESS
and one material non-conformance. One weakness is related to
compliance with the Federal Information Security Management Act
                                                                       ▶	 Significant weakness of the safeguards (controls) against
(FISMA), and a second weakness involves improper controls over
                                                                           waste, loss, unauthorized use or misappropriation of funds,
the review and monitoring of grant “Undelivered Orders” (UDOs).
                                                                           property, or other assets;
UDOs are budget obligations that have not yet been fully liquidated
by making a payment. Closely associated with this UDO issue, we        ▶	 Violates statutory authority, or results in a conflict 

also are citing a non-conformance with accounting standards for            of interest; 

reporting grant UDO balances.
                                                                       ▶	 Deprives the public of significant services, or seriously 

                                                                           affects safety or the environment; 

As a subset of the FMFIA Statement of Assurance, the DOT is
required to report on the effectiveness of internal control over       ▶	 Impairs significantly the fulfillment of the agency’s 

financial reporting, which includes safeguarding of assets and             mission; and 

compliance with applicable laws and regulations, in accordance with
                                                                       ▶	 Would result in significant adverse effects on the credibility
the requirements of Appendix A of OMB Circular A-123. A separate
                                                                           of the agency.
discussion on Appendix A follows at the end of this section.
                                                                      A material non-conformance under the FMFIA must fall into
FMFIA ANNUAL ASSURANCE PROCESS                                        one or more of the categories below plus merit the attention of
The FMFIA review is an agency self-assessment of the adequacy         the Executive Office of the President or the relevant Congressional
of financial controls in all areas of the Department’s operations –   oversight committees.
program, administrative, and financial management.
                                                                      CRITERIA FOR REPORTING A MATERIAL NON-CONFORMANCE
OBJECTIVES OF CONTROL MECHANISMS
                                                                       ▶	 Prevent the primary accounting system from centrally
 ▶	 Financial and other resources are safeguarded from 
                   controlling financial transactions and resource balances; and
     unauthorized use or disposition;
	
                                                                       ▶	 Prevent compliance of the primary accounting system, 

 ▶	 Transactions are executed in accordance with authorizations;           subsidiary system, or program system under the Office 

                                                                           of Management and Budget Circular A-127. 

 ▶	 Records and reports are reliable;

 ▶	 Applicable laws, regulations, and policies are observed;
                                                                      FY 2012 FMFIA MATERIAL WEAKNESSES
 ▶	 Resources are efficiently and effectively managed; and            STATUS OF INTERNAL CONTROLS (FMFIA SECTION 2)
                                                                      The DOT is reporting two material weaknesses in FY 2012. One
 ▶	 Financial systems conform to government-wide standards.
                                                                      weakness is related to compliance with the Federal Information
Managers within the DOT, being in the best position to under-         Security Management Act (FISMA). The FISMA non-compli-
stand the nature of the problems they face, establish appropri-       ance material weakness was also reported in FY 2010 and FY
ate control mechanisms to ensure Departmental resources are           2011. Senior management and the DOT’s Chief Information
sufficiently protected from fraud, waste, and abuse, and to meet      Officer have been collaborating and monitoring corrective
the intent and requirements of the FMFIA. The head of each Op-        actions. Although progress was made in FY 2011 and FY 2012,
erating Administration (OA) and Departmental office submits an        the same conditions substantially existed during FY 2012, with
annual statement of assurance representing the overall adequacy       many corrective actions in progress.
and effectiveness of management controls within the organization


27   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
A second weakness involves improper controls over the review           Security Management Act (FISMA) report on the effectiveness
and monitoring of grant UDOs. The DOT is in the process of             of the Department’s security program.
implementing corrective actions to mitigate this internal control
weakness related to UDOs.                                              The FFMIA requires that agencies’ financial management
                                                                       systems routinely provide reliable and timely financial informa-
                                                                       tion for managing day-to-day operations as well as to produce
STATUS OF FINANCIAL MANAGEMENT SYSTEMS
                                                                       reliable financial statements, maintain effective internal control,
(FMFIA, SECTION 4)
                                                                       and comply with legal and regulatory requirements. Under
The DOT is reporting one material non-conformance with
                                                                       FFMIA, financial management systems must substantially
accounting standards related to the reporting of grant UDO
                                                                       comply with three requirements: Federal financial management
balances. The DOT is in the process of implementing several
                                                                       system requirements, applicable Federal accounting standards,
actions to correct this non-conformance with established
                                                                       and the U.S. Government Standard General Ledger (SGL) at the
accounting standards.
                                                                       transaction level. In addition, CFO Act agencies must determine
                                                                       annually whether their systems meet these requirements. This
APPENDIX A, INTERNAL CONTROLS OVER FINANCIAL
                                                                       determination is to be made no later than 120 days after the ear-
REPORTING
                                                                       lier of (a) the date of receipt of the agency-wide audited financial
Appendix A of OMB Circular A-123 emphasizes management’s
                                                                       statement, or (b) the last day of the fiscal year following the year
responsibility for establishing and maintaining effective internal
                                                                       covered by such statement.
control over financial reporting. Appendix A requires agencies
to maintain documentation of the controls in place and of the
                                                                       Management conducted its assessment of the effectiveness of
assessment process and methodology management used to sup-
                                                                       internal controls over financial systems and compliance with
port its assertion as to the effectiveness of internal control over
                                                                       applicable laws and regulations in accordance with the Federal
financial reporting. Agencies are also required to test the controls
                                                                       Managers’ Financial Integrity Act of 1982 (FMFIA) guidance,
in place as part of the overall FMFIA assessment process. The
                                                                       and the requirements of OMB Circular A-123, Management’s
assurance statement related to the assessment performed under
                                                                       Responsibility for Internal Control and Circular A-127, Financial
Appendix A acts as a subset of the Overall Statement of Assur-
                                                                       Management Systems.
ance reported pursuant to Section 2 of the FMFIA legislation.
Management’s assurance statement, as it relates to Appendix A,
                                                                       The DOT is able to provide reasonable assurance that the internal
is based on the controls in place as of June 30.
                                                                       controls and financial management systems in effect during FY
                                                                       2012 met the objectives of both Sections 2 and 4 of the FMFIA,
The DOT performed in-depth testing of the controls over six
                                                                       except for two material weaknesses and one material non-con-
focus area business processes for each OA including Budget;
                                                                       formance. One weakness is related to compliance with FISMA,
Inventory Management; Human Resources, Time and Atten-
                                                                       and a second weakness involves improper controls over the
dance; Property Plant and Equipment; and Grants Management.
                                                                       review and monitoring of grant UDOs. Closely associated with
Additional testing of high-risk key controls from the remaining
                                                                       this UDO issue, the DOT is also citing a non-conformance with
nine non-focus area business processes was performed for
                                                                       accounting standards for reporting grant UDO balances.
OAs whose transactions are material to the Department-wide
financial statements.
                                                                       FEDERAL INFORMATION SECURITY
FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT                               MANAGEMENT ACT (FISMA)
ACT (FFMIA)                                                            The Federal Information Security Management Act (FISMA)
The Secretary has determined that our financial management             requires federal agencies to identify and provide security protection
systems were in compliance with the Federal Financial Man-             commensurate with the risk and magnitude of potential harm
agement Improvement Act of 1996 (FFMIA) for FY 2012, with              resulting from the loss, misuse of, unauthorized access to, disclosure
the exception of one material non-conformance with accounting          of, disruption to, or modification of information collected to
standards for reporting grant “Undelivered Orders” (UDO) bal-          maintained by or on behalf of the agency. FISMA also requires
ances. UDOs are budget obligations that have not yet been fully        that each agency report annually on the adequacy and effective-
liquidated by making a payment. In making this determination,          ness of information security policies, procedures, and practices,
management considered all the information available, including         and on FISMA compliance. OMB further requires that agency
independent auditor reports on the Department’s internal controls      heads submit a signed letter that provides a comprehensive over-
and compliance with selected provisions of laws and regulations.       view of these areas. This report and signed letter were delivered
Also considered were the results of management’s assessment of         to OMB November 15, 2012. In addition, FISMA requires that
its internal controls and financial management systems reviews,        agencies have an independent evaluation performed of agency
including the Inspector General’s most recent Federal Information      information security programs and practices. At the Department




28   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
of Transportation (DOT), this annual evaluation is performed by      Administration employees at the Mike Monroney Aeronautical
the Office of the Inspector General (OIG). This year’s (FY 2012)     Center in Oklahoma City, OK, under the overall direction of the
annual FISMA report will be finalized no later than November         DOT Chief Financial Officer.
15, as now required by the Department of Homeland Security.
                                                                     ESC is one of four Federal Shared Service Providers designated
The DOT has 13 Operating Administrations that for FY 2012            by the Office of Management and Budget to provide financial
operated a total of 431 information systems, an increase of 12       management systems and services to other government agen-
systems over the FY 2011 adjusted inventory, of which 283 belong     cies. ESC supports other Federal entities, including the National
to the Federal Aviation Administration (FAA). The FAA’s              Endowment for the Arts, the Commodity and Futures Trading
air traffic control system has been designated by the President as   Commission, the Institute of Museum and Library Services, the
part of the critical national infrastructure. Other systems owned    National Credit Union Association, the Securities and Exchange
by the Department include safety-sensitive surface transportation    Commission, the Consumer Product Safety Commission, and the
systems and financial systems that are used to manage and dis-       Government Accountability Office. The Office of Management
burse more than $78 billion in federal funds each year.              and Budget requires Shared Service Providers to provide client
                                                                     agencies with an independent audit report in accordance with
DOT’s cybersecurity program continues to have significant            the American Institute of Certified Public Accountants (AICPA)
deficiencies in its enterprise and systems controls. Specifically,   SSAE-16.
DOT still needs to make progress in critical areas, such as:
improving contingency planning and testing; improving the            This year’s SSAE-16 audit of Delphi was conducted by KPMG
oversight of component-level security programs and weaknesses;       LLP. KPMG concluded that management presented its descrip-
and continued implementation of a continuous monitoring              tion of ESC controls fairly in all material respects, and that the
strategy and program across the Department. Also required            controls, as described, were suitably designed and operating
is continued progress on remaining open recommendations.             effectively for all stated control objectives with the exception
                                                                     of controls surrounding the management of job processing errors.
As part of its commitment to resolve these deficiencies, DOT
made improvements during 2012 through the issuance of new            ESC is in the process of implementing procedures to review,
cybersecurity guidance for the majority of its components, and       track, and remediate job processing errors identified in Delphi.
new cybersecurity policy specifically for OST. DOT also made         Implementation will be completed in FY 2013.
progress on Administration Cybersecurity priority goals, deploy-
ing continuous monitoring capabilities across 66% of agency
assets, consolidating 91% of its Internet bandwidth through
secured Internet connections, and enabling use of PIV Cards for
secure network login for more than 70% of non-FAA personnel.
DOT has also submitted evidence and requested closure of 25
open audit recommendations. The full FY 2012 FISMA report is
anticipated to be available in early December 2012 and can be
found at www.oig.dot.gov.

SSAE-16 REVIEW ON DOT’S FINANCIAL
MANAGEMENT SYSTEM
The Statements on Standards for Attestation Engagements
(SSAE) 16 report summarized the results of a review of general,
application, and operational controls over the DOT Enterprise
Services Center (ESC). The ESC performs services including
accounting; financial management; systems and implementation;
media solutions; telecommunications; and data center services
for DOT and other Federal organizations.

This is the second year that a SSAE-16 audit has been conduct-
ed on DOT’s Delphi financial system. A Statement on Auditing
Standards (SAS) 70 audit was completed for the previous six
years. Effective for reports dated after June 15, 2011, SAS-70
was replaced with the new standard SSAE-16.

Delphi is hosted, operated, and maintained by Federal Aviation




29   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
                                                                         In selecting the challenges for each year’s list, the OIG continual-
IMPLEMENTATION OF eINVOICING                                             ly focuses on the Department’s key goals to improve transporta-
FOR GRANTS                                                               tion safety, capacity, and efficiency. In addition to the OIG’s
                                                                         vigilant oversight of DOT programs, budgetary issues, and
DOT’S ELECTRONIC INVOICING INITIATIVE
                                                                         progress milestones, it also draws from several dynamic factors
The Department is undergoing an effort to modernize and
                                                                         to identify key challenges. These include new initiatives, coop-
streamline financial management policies, processes, reports,
                                                                         erative goals with other Federal departments, recent changes in
and systems to better meet its mission and goals. The first ob-
                                                                         the Nation’s transportation environment and industry, as well as
jective of the effort is to implement electronic invoicing across
                                                                         global issues that could have implications for the United States’
the Department. The goal of the electronic invoicing initiative
                                                                         traveling public. As such, the challenges included on the OIG’s
is to eliminate, as much as possible, paper invoice submissions
                                                                         list vary each year to reflect the most relevant issues and provide
by allowing users to submit invoices electronically through an
                                                                         the most useful and effective oversight to DOT agencies.
online portal.
                                                                         For FY 2012, the OIG identified the following nine significant
The DOT selected Oracle’s iSupplier module, labeled the Delphi
                                                                         challenges:
eInvoicing system, as the DOT’s new payment processing sys-
tem. Key benefits of this initiative include:
                                                                          ▶	 Enhancing the Department’s Oversight of Highway, Bridge,
                                                                              and Transit Safety;
 ▶	 A standard process for grant recipients to submit invoices to
     the Department;                                                      ▶	 Ensuring Effective Oversight on Key Initiatives That Can
                                                                              Improve Aviation Safety;
 ▶	 Improved funds control;
                                                                          ▶	 Ensuring Effective Oversight of Hazardous Liquid and 

 ▶	 The ability to review and approve payment requests electronically;
                                                                              Natural Gas Pipeline Safety; 

 ▶	 A decrease in payment request review and processing time;
                                                                          ▶	 Ensuring Effective Oversight of American Recovery 

 ▶	 The ability to view the status of all payment requests in 
               and Reinvestment Act (ARRA) Projects and Applying 

     real-time;
	                                                             Related Lessons Learned To Improve DOT’s 

                                                                              Infrastructure Programs;
	
 ▶	 A decrease in the volume of payment requests mailed, 

     faxed, or e-mailed by grantees and vendors; and
	                    ▶	 Managing the Next Generation Air Transportation System
                                                                              Advancement While Controlling Costs;
 ▶	 An improvement to the accuracy, timeliness, and transpar-
     ency of transactions processed through the financial system.         ▶	 Managing DOT Acquisitions in a More Strategic Manner
                                                                              To Maximize Limited Resources and Achieve Better
                                                                              Mission Results;
The first phase of the Delphi eInvoicing deployment began in FY
2012 with the rollout of Delphi eInvoicing to the Department’s            ▶	 Improving the Department’s Cyber Security;
grantee community. The primary stakeholders include Grantees/
                                                                          ▶	 Defining Clear Goals To Guide the Federal Railroad 

Sponsors, DOT Grant Managers, and DOT Program Managers.
                                                                              Administration in Its Transformation; and
	
The Department is scheduled to complete the initial deployment
of the Delphi eInvoicing system to grant recipients in November           ▶	 Utilizing Department Credit Programs To Leverage Limited
2012. By offering this solution to grant recipients, the Department           Federal Transportation Infrastructure Resources.
estimates that approximately 900 invoices will be submitted
                                                                         The management challenges will be further discussed in the DOT
electronically per month, eliminating the need for grantees
                                                                         Annual Performance Report to be issued in February 2013, which
to mail, e-mail, or fax invoices.
                                                                         will be located on DOT’s website, http://www.dot.gov/budget.

INSPECTOR GENERAL’S FY 2012 TOP                                          The significant challenges identified by the OIG for FY 2013
MANAGEMENT CHALLENGES                                                    will be discussed in the Other Accompanying Information setion
                                                                         of this report.
DEPARTMENT OF TRANSPORTATION OFFICE OF
INSPECTOR GENERAL APPROACH
The Office of Inspector General (OIG) issues an annual report
on the Department of Transportation’s top management challenges
to provide a forward-looking assessment for the coming fiscal
year. The Reports Consolidation Act of 2000 requires the OIG
to identify and summarize the most significant management
challenges facing the Department in FY 2012.



30   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
FINANCIAL REPORT
�
MESSAGE FROM THE CHIEF FINANCIAL OFFICER
�

                                 I am pleased to issue the Department of Transportation’s (DOT) Fiscal Year 2012 Agency Financial
                                 Report (AFR). In addition to this information, DOT is preparing our Annual Performance Report,
                                 which will be published in February 2013. For the accompanying AFR, we highlight our progress
                                 during 2012 on several fronts. We had a positive year, with notable achievements in many areas,
                                 including efforts to modernize our financial systems, a successful financial audit, and continuing
                                 success in limiting improper payments.


                                 FINANCIAL SYSTEMS MODERNIZATION
                                 DOT furthered its efforts to modernize and streamline financial management policies, processes,
                                 reports, and systems to meet its mission and goals. During 2012, we implemented an electronic
                                 invoicing portal and began deploying it to DOT grant recipients. The goals of this initiative are to:
CHRISTOPHER P. BERTRAM
                                  ▶	 Provide a standard process for grant recipients to submit invoices to the Department;

                                  ▶	 Eliminate as much as possible paper invoice submissions by allowing grantees to submit 

                                      invoices electronically through an online portal; and
	

                                  ▶	 Offer the ability to view the status of all invoices in real time, which improves transparency.


                                 Initial deployment of the Delphi eInvoicing system to grantees will be completed in November
                                 2012. By offering this solution to grant recipients, the Department estimates approximately 900
                                 invoices will be submitted electronically per month, eliminating the need for grantees to mail,
                                 e-mail, or fax invoices.

                                 In addition to the electronic invoicing initiative, the Department also completed an assessment to
                                 determine whether it is feasible to upgrade the Department’s core accounting system, Delphi, to the
                                 next release of Oracle Federal Financials. The assessment provided the Department with informa-
                                 tion necessary to consider the resource and logistical requirements for a possible systems upgrade.
                                 Plans are being formulated for an upgrade, and we are preparing a business case analysis detailing
                                 the timeline and associated costs.

                                 ANNUAL FINANCIAL AUDIT
                                 During 2012, we continued our emphasis on improved financial management, which contributed
                                 substantially to another unqualified audit opinion – DOT’s eleventh in the last twelve years. The
                                 Department had a material weakness associated with the oversight and proper recording of Undeliv-
                                 ered Orders (UDOs), which are budget obligations that have not yet been fully liquidated by making
                                 a payment. We are already taking corrective actions to resolve this issue, which includesthe devel-
                                 opment of a Departmental Order requiring the periodic review of UDO balances. In addition to this
                                 step, supplemental training opportunities for Departmental personnel related to grants monitoring
                                 and closeout was completed this fall. Overall in 2012, our annual financial audit provided a useful
                                 independent review of our processes and system of controls. It highlighted some issues, including
                                 UDOs and grants management, that will be a continuing focus for management in 2013. Consider-
                                 ation of these important annual audit results remains an important component of our efforts
                                 to continually strengthen our safeguards and stewardship of taxpayer dollars.

                                 IMPROPER PAYMENTS
                                 During 2012, we worked with our Operating Administrations to maintain low rates of improper
                                 payments. We tested for improper payments in our largest grant programs, which include the
                                 Airport Improvement Program, the Federal-Aid Highway Construction and Planning Program,
                                 the Federal Transit Administration’s (FTA) Capital Investment Grants, and FTA’s Formula and
                                 Bus Grants. In addition, DOT proactively expanded the scope of this review to the Federal Railroad
                                 Administration’s High Speed Rail Program. Together, these five programs represent more than
                                 90 percent of DOT’s grants. Our analysis found that estimated improper payment rates for these



32   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
programs did not exceed 1 percent, which falls below the Office of Management and Budget’s 2.5
percent criterion of what would constitute “significant improper payments.” However, the estimated
improper payments for the Federal-aid Highway Constructions and Planning Program was $103
million, which meets the OMB’s criterion for “significant improper payments (greater than $100
million, regardless of error rate).” Moreover, the payments cited as improper during testing were
non-systemic improper payments, resulting from administrative or documentation errors, which
were mistakes having a low impact.

INTERNAL CONTROLS
Risk management includes monitoring our performance through indicators such as changes in the
amount and rate of improper payments, and by assessing the rate and degree of progress we make
in addressing internal control challenges. Some of these areas are brought to management’s atten-
tion through important oversight activities, such as audits by the Department’s Office of Inspector
General and our annual external financial statement audit conducted by independent public accoun-
tants. In 2012, we continued to manage a sound internal controls program for the Department that
focused on proactively identifying risks and improving our system of internal controls to meet these
challenges.

In the coming year, we expect additional progress in modernizing our financial systems. We will
build on our accomplishments, and maintain a strong program that supports the Department’s
strategic goals and critical investments.

Sincerely,




CHRISTOPHER P. BERTRAM




33   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
(pages 34 through 53 intentionally left blank)
PRINCIPAL STATEMENTS
�

CONSOLIDATED BALANCE SHEETS                                                                                     As of September 30:
 DOLLARS IN THOUSANDS                                                                                  2012                    2011

 ASSETS
 Intragovernmental:
     Fund balance with Treasury (Note 2)                                                          $33,356,274             $39,761,625
     Investments, net (Note 3)                                                                     22,330,652              26,682,058
     Accounts receivable (Note 4)                                                                    116,550                  97,516
     Other (Note 5)                                                                                  164,634                 123,152
 Total intragovernmental                                                                           55,968,110              66,664,351
 Cash                                                                                                      8                  34,289
 Accounts receivable, net (Note 4)                                                                   154,907                 168,872
 Direct loan and loan guarantees, net (Note 6)                                                      5,022,807               4,187,635
 Inventory and related property, net (Note 7)                                                        857,891                 845,833
 General property, plant and equipment, net (Note 8)                                               14,030,366              13,740,507
 Other (Note 5)                                                                                       74,706                  90,087
 Total assets                                                                                     $76,108,795             $85,731,574


 Stewardship property, plant and equipment (Note 9)


 LIABILITIES (NOTE 10)
 Intragovernmental:
     Accounts payable                                                                                 $9,823                 $21,451
     Debt (Note 11)                                                                                 5,193,598               4,342,866
     Other (Note 15)                                                                                2,287,336               2,561,301
 Total intragovernmental                                                                            7,490,757               6,925,618
 Accounts payable                                                                                    634,174                1,186,794
 Loan guarantee liability (Note 6)                                                                   192,829                 158,425
 Federal employee benefits payable (Note 12)                                                        1,019,076                978,918
 Environmental and disposal liabilities (Note 13)                                                   1,010,818               1,068,076
 Grant accrual (Note 14)                                                                            6,315,689               6,560,755
 Other (Note 15)                                                                                    1,372,782               1,490,386
 Total liabilities                                                                                $18,036,125             $18,368,972


 Commitments and contingencies (Note 17)



 NET POSITION
 Unexpended appropriations - earmarked funds (Note 18)                                             $1,108,929              $1,127,600
 Unexpended appropriations - other funds                                                           21,652,656              25,654,071
 Cumulative results of operations - earmarked funds (Note 18)                                      25,768,480              30,832,675
 Cumulative results of operations - other funds                                                     9,542,605               9,748,256
 Total net position                                                                                58,072,670              67,362,602
 Total liabilities and net position                                                               $76,108,795             $85,371,574




                                                                                              THE ACCOMPANYING NOTES ARE AN INTEGRAL
                                                                                                   PART OF THESE FINANCIAL STATEMENTS


54      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
PRINCIPAL STATEMENTS, CONT’D


CONSOLIDATED STATEMENTS                                 For the Periods Ended
OF NET COST                                                     September 30
 DOLLARS IN THOUSANDS                                   2012           2011
Program Costs (Note 19):

 SURFACE TRANSPORTATION
Gross costs                                        $60,988,807    $61,126,121
Less: earned revenue                                  1,226,109      807,004
Net program costs                                   59,762,698     60,319,117

 AIR TRANSPORTATION
Gross costs                                         16,632,500     17,214,141
Less: earned revenue                                   628,167        669,479
Net program costs                                   16,004,333     16,544,662

 MARITIME TRANSPORTATION
Gross costs                                            886,118       863,357
Less: earned revenue                                   392,599       378,964
Net program costs                                      493,519       484,393

 CROSS-CUTTING PROGRAMS
Gross costs                                            647,327       738,477
Less: earned revenue                                   255,869       391,204
Net program costs                                      391,458       347,273


Costs not assigned to programs                         396,058       421,434
Less earned revenues not attributed to programs          11,513         3,876
Net cost of operations                             $77,036,553    $78,113,003




                                                                                            THE ACCOMPANYING NOTES ARE AN INTEGRAL
                                                                                                 PART OF THESE FINANCIAL STATEMENTS


55    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
PRINCIPAL STATEMENTS, CONT’D

CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION                                           For the Periods Ended September 30


                                        EARMARKED        ALL OTHER            2012       EARMARKED        ALL OTHER            2011
 DOLLARS IN THOUSANDS                       FUNDS            FUNDS           TOTAL           FUNDS            FUNDS           TOTAL


CUMULATIVE RESULTS OF OPERATIONS
Beginning balance                         $30,832,675      $9,748,256     $40,580,931      $37,822,289     $10,455,592     $48,277,881

BUDGETARY FINANCING SOURCES
Appropriations used                         4,565,650      10,945,160      15,510,810        5,037,496      15,964,657      21,002,153
Non-exchange revenue (Note 20)             52,969,165          87,411      53,056,576       48,691,798         109,444      48,801,242
Donations/forfeitures of cash/cash
                                                1,224               -           1,224             1,212               -          1,212
equivalents
Transfers-in/(out) without
                                            2,451,721           5,395       2,457,116           58,921           5,196          64,117
reimbursement
Other                                                -         (2,160)         (2,160)                -               -              -

OTHER FINANCING SOURCES (NON-EXCHANGE)
Donations and Forfeitures of Property                -        158,117         158,117                 -               -              -
Transfers-in/(out) without
                                            (924,602)       1,020,788          96,186        (782,441)         788,803           6,362
reimbursement
Imputed financing                             528,664         113,118         641,782          698,858         119,923         818,781
Other                                          (6,684)      (146,260)       (152,944)          (31,059)      (246,755)       (277,814)
Total financing sources                    59,585,138      12,181,569      71,766,707       53,674,785      16,741,268      70,416,053
Net cost of operations                     64,649,333      12,387,220      77,036,553       60,664,399      17,448,604      78,113,003
Net change                                 (5,064,195)      (205,651)      (5,269,846)      (6,989,614)      (707,336)      (7,696,950)
Cumulative Results of Operations           25,768,480       9,542,605      35,311,085       30,832,675       9,748,256      40,580,931

UNEXPENDED APPROPRIATIONS
Beginning balance                           1,127,600      25,654,071      26,781,671        1,211,520      37,001,417      38,212,937

BUDGETARY FINANCING SOURCES
Appropriations received (Note 1U)           4,592,701       7,017,825      11,610,526        5,021,360       5,299,664      10,321,024
Appropriations transferred-in/(out)            14,819           5,070          19,889             9,240         20,265          29,505
Other adjustments                             (60,541)        (79,150)       (139,691)        (77,024)        (702,618)      (779,642)
Appropriations used                        (4,565,650)    (10,945,160)    (15,510,810)      (5,037,496)    (15,964,657)    (21,002,153)
Total budgetary financing sources             (18,671)     (4,001,415)    (4,020,086)         (83,920)     (11,347,346)    (11,431,266)
Total unexpended appropriations             1,108,929      21,652,656      22,761,585        1,127,600      25,654,071      26,781,671
Net position                              $26,877,409     $31,195,261     $58,072,670      $31,960,275     $35,402,327     $67,362,602




                                                                                               THE ACCOMPANYING NOTES ARE AN INTEGRAL
                                                                                                    PART OF THESE FINANCIAL STATEMENTS


56      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
PRINCIPAL STATEMENTS, CONT’D

COMBINED STATEMENTS OF BUDGETARY RESOURCES                                                  For the Periods Ended September 30
 DOLLARS IN THOUSANDS                                                              2012                                       2011


                                                              NON-BUDGETARY                                NON-BUDGETARY
                                                               CREDIT REFORM                                CREDIT REFORM
                                                                   FINANCING                                    FINANCING
BUDGETARY RESOURCES (NOTE 21)                       BUDGETARY      ACCOUNTS                      BUDGETARY      ACCOUNTS
Unobligated balance, brought forward, October 1        $50,244,231              $242,978            $60,471,640            $226,795
Recoveries of prior year unpaid obligations               1,199,749                   17              1,005,484                 198
Other changes in unobligated balance                      (156,094)                     -             (125,917)                    -
Unobligated balance from prior year budget
                                                         51,287,886              242,995             61,351,207             226,993
authority, net
Appropriations (Note 1U)                                 19,743,813                     -            17,323,090                    -
Borrowing authority                                               -             1,734,768              175,000             1,181,282
Contract authority                                       53,108,963                     -            53,306,399                    -
Spending authority from offsetting collections            7,754,699              234,155              7,116,258              120,517
Total budgetary resources                              $131,895,361           $2,211,918           $139,271,954           $1,528,792


Status of Budgetary Resources:
Obligations incurred                                    $84,627,858            $1,926,888           $89,027,723           $1,285,814
Unobligated balance, end of year:
     Apportioned                                         29,066,936              105,393             33,552,539               39,047
     Exempt from apportionment                             352,571                      -               317,713                    -
     Unapportioned                                       17,847,996              179,637             16,373,979             203,931
Total unobligated balance, end of year                   47,267,503              285,030             50,244,231             242,978
Total budgetary resources                              $131,895,361           $2,211,918           $139,271,954           $1,528,792




                                                                                             THE ACCOMPANYING NOTES ARE AN INTEGRAL
                                                                                                  PART OF THESE FINANCIAL STATEMENTS


57     U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
PRINCIPAL STATEMENTS, CONT’D


COMBINED STATEMENTS OF BUDGETARY RESOURCES, Continued                                       For the Periods Ended September 30
 DOLLARS IN THOUSANDS                                                              2012                                       2011


                                                              NON-BUDGETARY                                NON-BUDGETARY
                                                               CREDIT REFORM                                CREDIT REFORM
                                                                   FINANCING                                    FINANCING
CHANGE IN OBLIGATED BALANCES                        BUDGETARY      ACCOUNTS                      BUDGETARY      ACCOUNTS
Unpaid obligations, brought forward, October 1
                                                       $114,089,855            $3,815,207          $110,640,417           $4,194,500
(gross)

Uncollected customer payments from Federal

                                                         (1,192,857)            (238,553)            (1,102,192)           (325,263)
sources, brought forward, October 1
Obligated balance, start of year (net)                  112,896,998             3,576,654           109,538,225            3,869,237
Obligations incurred                                     84,627,858             1,926,888            89,027,723            1,285,814
Outlays (gross)                                         (85,585,176)          (1,320,846)          (84,595,015)           (1,664,909)
Change in uncollected customer payments from
                                                           (56,265)               15,847               (90,665)               86,710
Federal sources
Actual transfers, unpaid obligations                         10,000                     -                22,214                    -
Recoveries of prior year unpaid obligations              (1,199,749)                 (17)           (1,005,484)                 (198)
Obligated balance, end of year
     Unpaid obligations, end of year (gross)            111,942,788             4,421,232           114,089,855            3,815,207
     Uncollected customer payments from Federal
                                                         (1,249,122)            (222,706)            (1,192,857)           (238,553)
     sources, end of year
Obligated balance, end of year (net)                   $110,693,666           $4,198,526           $112,896,998           $3,576,654


Budget and Authority and Outlays, Net:
Budget authority, gross                                 $80,607,475            $1,968,923           $77,920,747           $1,301,799
Actual offsetting collections                            (7,726,408)            (466,819)            (7,043,681)           (382,466)
Change in uncollected customer payments from
                                                           (56,265)               15,847               (90,665)               86,710
Federal sources
Budget authority, net                                   $72,824,802           $1,517,951            $70,786,401           $1,006,043


Outlays, gross                                          $85,585,176           $1,320,846            $84,595,015           $1,664,909
Actual offsetting collections                            (7,726,408)            (466,819)            (7,043,681)           (382,466)
Outlays, net                                             77,858,768              854,027             77,551,334            1,282,443

Distributed offsetting receipts                          (2,738,974)                    -             (282,618)                    -
Agency outlays, net                                     $75,119,794             $854,027            $77,268,716           $1,282,443




                                                                                             THE ACCOMPANYING NOTES ARE AN INTEGRAL
                                                                                                  PART OF THESE FINANCIAL STATEMENTS


58     U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTES TO THE PRINCIPAL STATEMENTS
�
                                                                     The U.S. Saint Lawrence Seaway Development Corporation
NOTE 1. SUMMARY OF SIGNIFICANT                                       (SLSDC) is a wholly-owned government corporation and an
ACCOUNTING POLICIES                                                  Operating Administration of the Department. However, SLSDC’s
                                                                     financial data is not included in the DOT consolidated financial
A. REPORTING ENTITY                                                  statements as it is subject to separate reporting requirements un-
The United States (U.S.) Department of Transportation (DOT           der the Government Corporation Control Act and the dollar value
or Department) serves as the strategic focal point in the Federal    of its activities is not material to that of the Department taken
Government’s national transportation plan. It partners with cities   as a whole. Condensed information about SLSDC’s financial
and States to meet local and national transportation needs by pro-   position is presented in Note 23.
viding financial and technical assistance, ensuring the safety of
all transportation modes; protecting the interests of the American   B. BASIS OF PRESENTATION
traveling public; promoting international transportation treaties;   The consolidated financial statements have been prepared to re-
and conducting planning and research for the future.                 port the Department’s financial position and results of operations
                                                                     as required by the Chief Financial Officers Act of 1990 (CFO
The Department comprises the Office of the Secretary and the         Act) and Title IV of the Government Management Reform Act of
DOT Operating Administrations, each having its own man-              1994 (GMRA). The statements have been prepared from the DOT
agement team and organizational structure. Collectively, they        books and records in accordance with Office of Management
provide services and oversight to ensure that the best possible      and Budget (OMB) form and content requirements for entity
transportation system serves the American public. The Department’s   financial statements and DOT’s accounting policies and proce-
consolidated financial statements present the financial data for     dures. Material intra-departmental transactions and balances have
various trust funds, revolving funds, appropriations, and special    been eliminated from the principal statements for presentation
funds of the following organizations (referred to as Operating       on a consolidated basis, except for the Statement of Budgetary
Administrations):                                                    Resources, which is presented on a combined basis in accordance
                                                                     with OMB Circular A-136, Financial Reporting Requirements,
 ▶	 Office of The Secretary (OST) 
                                  as revised, and as such, intra-entity transactions have not been
     [includes OST Working Capital Fund]
	                           eliminated. Unless otherwise noted, all dollar amounts are pre-
                                                                     sented in thousands.
 ▶	 Federal Aviation Administration (FAA)

 ▶	 Federal Highway Administration (FHWA)                            The Consolidated Balance Sheets present agency assets, liabilities,
                                                                     and net position (which equals total assets minus total liabilities)
 ▶	 Federal Motor Carrier Safety Administration (FMCSA)
                                                                     as of the reporting dates. Agency assets substantially consist of
 ▶	 Federal Railroad Administration (FRA)                            entity assets (those which are available for use by the agency).
                                                                     Non-entity assets (those which are managed by the agency but not
 ▶	 Federal Transit Administration (FTA)
                                                                     available for use in its operations) are immaterial. Agency liabilities
 ▶	 Maritime Administration (MARAD)                                  include both those covered by budgetary resources (funded) and
                                                                     those not covered by budgetary resources (unfunded).
 ▶	 National Highway Traffic Safety Administration
	
     (NHTSA)
	
                                                                     The Consolidated Statements of Net Cost present the gross costs
 ▶	 Office of Inspector General (OIG)                                of programs less earned revenue, to arrive at the net cost of
                                                                     operations for both the programs and the agency as a whole for
 ▶	 Pipeline and Hazardous Materials Safety Administration
                                                                     the reporting periods.
     (PHMSA)

 ▶	 Research and Innovative Technology Administration 
              The Consolidated Statements of Changes in Net Position report
     (RITA) [includes Volpe National Transportation System 
         beginning balances, budgetary and other financing sources, and
     Center]
	                                                       net cost of operations, to arrive at ending balances.

 ▶	 Surface Transportation Board (STB)
                                                                     The Combined Statements of Budgetary Resources provide infor-
                                                                     mation about how budgetary resources were made available, as well
                                                                     as their status at the end of the reporting periods. Recognition and
                                                                     measurement of budgetary information reported on these state-



59   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
ments is based on budget terminology, definitions, and guidance      D. BASIS OF ACCOUNTING
presented in OMB Circular A-11, Preparation, Submission, and         The Department is required to be in substantial compliance with
Execution of the Budget, dated August 2012.                          all applicable accounting principles and standards developed
                                                                     and issued by the Federal Accounting Standards Advisory Board
A Statement of Custodial Activity is not presented since DOT         (FASAB), which is recognized by the American Institute of
custodial activity is incidental to Departmental operations and is   Certified Public Accountants (AICPA) as the entity to establish
not considered material to the consolidated financial statements     generally accepted accounting principles (GAAP) for the Federal
taken as a whole.                                                    Government. The Federal Financial Management Improve-
                                                                     ment Act (FFMIA) of 1996 requires the Department to comply
Intragovernmental transactions and balances result from              substantially with (1) Federal financial management systems
exchange transactions made between DOT and other Federal             requirements, (2) applicable Federal accounting standards, and
Government entities while those classified as “with the public”      (3) the U.S. Government Standard General Ledger requirements
result from exchange transactions between DOT and non-Federal        at the transaction level.
entities. For example, if DOT purchases goods or services from
the public and sells them to another Federal entity, the costs       Transactions are recorded on an accrual and a budgetary account-
would be classified as “with the public,” but the related revenues   ing basis. Under the accrual method, revenues are recognized
would be classified as “intragovernmental.” This could occur, for    when earned, and expenses are recognized when a liability is
example, when DOT provides goods or services to another Fed-         incurred without regard to receipt or payment of cash. Budget-
eral Government entity on a reimbursable basis. The purpose of       ary accounting facilitates compliance with legal constraints and
this classification is to enable the Federal Government to prepare   controls over the use of Federal funds.
consolidated financial statements, and not to match public and in-
tragovernmental revenue with costs that are incurred to produce      E. FUNDS WITH THE U.S. TREASURY AND CASH
public and intragovernmental revenue.                                DOT does not generally maintain cash in commercial bank
                                                                     accounts. Cash receipts and disbursements are processed by the
DOT accounts for earmarked funds separately from other funds.        U.S. Treasury. The funds with the U.S. Treasury are appropriated,
                                                                     revolving, and trust funds that are available to pay liabilities and
C. BUDGETS AND BUDGETARY ACCOUNTING                                  finance authorized purchases. Lockboxes have been established
DOT follows standard Federal budgetary accounting policies           with financial institutions to collect certain payments, and these
and practices in accordance with OMB Circular A-11. Budgetary        funds are transferred directly to the U.S. Treasury on a daily
accounting facilitates compliance with legal constraints and         (business day) basis. DOT does not maintain any balances of
controls over the use of Federal funds. Each year, the U.S.          foreign currencies.
Congress (Congress) provides budget authority, primarily in the
form of appropriations, to the DOT Operating Administrations to      F. INVESTMENTS IN U.S. GOVERNMENT SECURITIES
incur obligations in support of agency programs. For fiscal year     Investments that consist of U.S. Government Securities are
FY 2012 and FY 2011, the Department was accountable for trust        reported at cost, and adjusted for amortized cost net of premiums
fund appropriations, general fund appropriations, revolving fund     or discounts. Premiums or discounts are amortized into interest
activity, borrowing authority, and contract authority. DOT recog-    income over the term of the investment using the interest method.
nizes budgetary resources as assets when cash (funds held by the     The Department also has the intent to hold investments to matu-
U.S. Treasury) is made available through warrants and trust fund     rity. Investments, redemptions, and reinvestments are controlled
transfers.                                                           and processed by the U.S. Treasury. The market value is calculat-
                                                                     ed by multiplying the total number of shares by the market price
Programs are financed from authorizations enacted in authorizing     on the last day of the fiscal year.
legislation and codified in Title 23 of the United States Code
(U.S.C.). The DOT receives its budget authority in the form of       G. RECEIVABLES
direct appropriations, borrowing authority, contract authority,      ACCOUNTS RECEIVABLE
and spending authority from offsetting collections. Contract         Accounts receivable consist of amounts owed to the Department
authority permits programs to incur obligations in advance of an     by other Federal agencies and the public. Federal accounts
appropriation, offsetting collections or receipts. Subsequently,     receivable are generally the result of the provision of goods and
Congress provides an appropriation for the liquidation of the        services to other Federal agencies and, with the exception of
contract authority to allow payments to be made for the obliga-      occasional billing disputes, are considered to be fully collectible.
tions incurred. Funds apportioned by statute under Titles 23 and     Public accounts receivable are generally the result of the provi-
49 of the U.S.C., Subtitle III, by the Secretary of Transportation   sion of goods and services or the levy of fines and penalties from
for activities in advance of the liquidation of appropriations are   the Department’s regulatory activities. Amounts due from the
available for a specific time period.                                public are presented, net of an allowance for loss on uncollect-
                                                                     ible accounts, which is based on historical collection experience
                                                                     and/or an analysis of the individual receivables.


60   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
LOANS RECEIVABLE                                                       K. LIABILITIES
Loans are accounted for as receivables after funds have been           Liabilities represent amounts expected to be paid as the result
disbursed. For loans obligated prior to October 1, 1991, loan          of a transaction or event that has already occurred. Liabilities
principal, interest, and penalties receivable are reduced by an        covered by budgetary resources are liabilities incurred, which are
allowance for estimated uncollectible amounts. The allowance           covered by realized budgetary resources as of the balance sheet
is estimated based on past experience, present market conditions,      date. Available budgetary resources include new budget authority,
and an analysis of outstanding balances. Loans obligated after         spending authority from offsetting collections, recoveries of un-
September 30, 1991, are reduced by an allowance equal to the           expired budget authority through downward adjustments of prior
present value of the subsidy costs (resulting from the interest rate   year obligations, unobligated balances of budgetary resources at
differential between the loans and U.S. Treasury borrowing,            the beginning of the year or net transfers of prior year balanc-
the estimated delinquencies and defaults net of recoveries, the        es during the year, and permanent indefinite appropriations or
offset from fees, and other estimated cash flows) associated           borrowing authority. Unfunded liabilities are not considered to
with these loans.                                                      be covered by such budgetary resources. An example of an un-
                                                                       funded liability is actuarial liabilities for future Federal Employ-
H. INVENTORY AND RELATED OPERATING MATERIALS                           ees’ Compensation Act payments. The Government, acting in
AND SUPPLIES                                                           its sovereign capacity, can abrogate liabilities arising from other
Inventory primarily consists of supplies that are for sale or used     than contracts.
in the production of goods for sale. Operating materials and sup-
plies primarily consist of unissued supplies that will be consumed     L. CONTINGENCIES
in future operations. Valuation methods for supplies on hand at        The criteria for recognizing contingencies for claims are (1) a
year-end include historical cost, last acquisition price, standard     past event or exchange transaction has occurred as of the date of
price/specific identification, standard repair cost, weighted aver-    the statements; (2) a future outflow or other sacrifice of resources
age, and moving weighted average. Expenditures or expenses are         is probable; and (3) the future outflow or sacrifice of resources
recorded when the materials and supplies are consumed or sold.         is measurable (reasonably estimable). DOT recognizes material
Adjustments for the proper valuation of reparable, excess, obso-       contingent liabilities in the form of claims, legal actions, admin-
lete, and unserviceable items are made to appropriate allowance        istrative proceedings, and environmental suits that have been
accounts.                                                              brought to the attention of legal counsel, some of which will be
                                                                       paid from the Judgment Fund administered by the U.S. Depart-
I. PROPERTY AND EQUIPMENT                                              ment of the Treasury (Treasury).
DOT organizations have varying methods of determining the
value of general purpose property and equipment and how it             M. ANNUAL, SICK, AND OTHER LEAVE
is depreciated. DOT currently has a capitalization threshold           Annual leave is accrued as it is earned, and the accrual is reduced
of $200,000 for structures and facilities and for internal use         as leave is taken. The balance in the accrued annual leave ac-
software, and $25,000 for other property, plant and equipment.         count is adjusted to reflect the latest pay rates and unused hours
Capitalization at lesser amounts is permitted.                         of leave. Liabilities associated with other types of vested leave,
Construction in progress is valued at direct (actual) costs plus       including compensatory, credit hours, restored leave, and sick
applied overhead and other indirect costs as accumulated by the        leave in certain circumstances, are accrued based on latest pay
regional project material system. The system accumulates costs         rates and unused hours of leave. Sick leave is generally nonvest-
by project number assigned to the equipment or facility being          ed, except for sick leave balances at retirement under the terms
constructed. The straight line method is generally used to             of certain union agreements, including the National Air Traffic
depreciate capitalized assets.                                         Controllers Association (NATCA) agreement, Article 25, Section
                                                                       13. Funding will be obtained from future financing sources to the
DOT’s heritage assets, consisting of Union Station in Washing-         extent that current or prior year appropriations are not available
ton, DC, the Nuclear Ship Savannah, and collections of maritime        to fund annual and other types of vested leave earned and not
artifacts, are considered priceless and are not capitalized in the     taken. Nonvested leave is expensed when used.
Consolidated Balance Sheets (see Note 9).
                                                                       N. RETIREMENT PLAN
J. ADVANCES AND PREPAYMENTS                                            For DOT employees who participate in the Civil Service Retire-
Payments in advance of the receipt of goods and services are           ment System (CSRS), DOT contributes a matching contribution
recorded as prepaid charges at the time of prepayment and recog-       equal to 7 percent of pay. On January 1, 1987, Federal Employee
nized as expenses or capitalized, as appropriate, when the related     Retirement System (FERS) went into effect pursuant to Public
goods and services are received.                                       Law (P.L.) 99-335. Most employees hired after December 31,
                                                                       1983, are automatically covered by FERS and Social Security.
                                                                       Employees hired prior to January 1, 1984, could elect to either
                                                                       join FERS and Social Security or remain in CSRS. A primary



61   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
feature of FERS is that it offers a savings plan to which DOT          ance with applicable environmental standards. The asset disposal
automatically contributes 1 percent of pay and matches any em-         liability includes both the cost to remove and dismantle an asset
ployee contribution up to an additional 4 percent of pay. For most     when that asset is no longer in service and the estimated cost that
employees hired since December 31, 1983, DOT also contributes          will be incurred to remove, contain, and/or dispose of hazardous
the employer’s matching share for Social Security.                     materials. DOT estimates the environmental remediation and
                                                                       asset disposal costs at the time a DOT-owned asset is placed
Employing agencies are required to recognize pensions and other        in service.
post-retirement benefits during the employees’ active years of
service. Reporting the assets and liabilities associated with such     Estimating the Department’s environmental remediation liability
benefit plans is the responsibility of the administering agency, the   requires making assumptions about future activities and is
Office of Personnel Management (OPM). Therefore, DOT does              inherently uncertain. Costs for estimates of environmental and
not report CSRS or FERS assets, accumulated plan benefits, or          disposal liabilities are not adjusted for inflation and are subject to
unfunded liabilities, if any, applicable to employees.                 revision as a result of changes in technology and environmental
                                                                       laws and regulations.
O. FEDERAL EMPLOYEES HEALTH BENEFIT
(FEHB) PROGRAM                                                         S. USE OF ESTIMATES
Most Department employees are enrolled in the FEHB Program,            The preparation of the principal financial statements in confor-
which provides current and post-retirement health benefits. OPM        mity with GAAP requires management to make certain esti-
administers this program and is responsible for the reporting of       mates and assumptions that affect the reported amount of assets,
liabilities. OPM contributes the ‘employer’ share for retirees via     liabilities, and contingent liability disclosures as of the date of
an appropriation and the retirees contribute their portion of the      the financial statements and the reported amounts of revenue and
benefit directly to OPM. OPM calculates the U.S. Government’s          expenses during the reporting period. Actual results may differ
service cost for covered employees each fiscal year. The Depart-       from these estimates.
ment has recognized the employer cost of these post-retirement
benefits for covered employees as an imputed cost.                     Significant estimates underlying the accompanying financial
                                                                       statements include the allocation of trust fund receipts by Trea-
P. FEDERAL EMPLOYEES GROUP LIFE INSURANCE                              sury’s Office of Tax Analysis (OTA), accruals of accounts and
(FEGLI) PROGRAM                                                        grants payable (including American Recovery and Reinvestment
Most Department employees are entitled to participate in the           Act funds), accrued workers’ compensation, and accrued legal,
FEGLI Program. Participating employees can obtain basic term           contingent, environmental, and disposal liabilities. Additionally,
life insurance where the employee pays two-thirds of the cost          the Federal Credit Reform Act of 1990 (FCRA) requires the De-
and the Department pays one-third of the cost. OPM administers         partment to use estimates in determining the reported amount of
this program and is responsible for the reporting of liabilities.      direct loan and loan guarantees, the loan guarantee liability, and
OPM calculates the U.S. Government’s service cost for the              the loan subsidy costs associated with future loan performance.
post-retirement portion of the basic life coverage each fiscal year.
Because OPM fully allocates the Department’s contributions for         T. ALLOCATION TRANSFERS
basic life coverage to the pre-retirement portion of coverage, the     DOT is a party to allocation transfers with other Federal agencies
Department has recognized the entire service cost of the post-re-      as both a transferring (parent) entity and a recipient (child) entity.
tirement portion of basic life coverage as an imputed cost.            Allocation transfers are legal delegations by one Federal agency
                                                                       of its authority to obligate budget authority and outlay funds
Q. FEDERAL EMPLOYEE COMPENSATION ACT BENEFITS                          to another Federal agency. A separate fund account (allocation
A liability is recorded for actual and estimated future payments to    account) is created in the U.S. Treasury as a subset of the parent
be made for workers’ compensation pursuant to the Federal Em-          fund account for tracking and reporting purposes. All allocation
ployees’ Compensation Act (FECA). The actual costs incurred            transfers of balances are credited to this account, and subsequent
are reflected as a liability because DOT will reimburse the U.S.       obligations and outlays incurred by the receiving entity (child)
Department of Labor (DOL) two years after the actual payment           are charged to this allocation account as the delegated activity
of expenses. Future revenues will be used to reimburse DOL.            is executed on the parent entity’s behalf. Generally, all financial
The liability consists of (1) the net present value of estimated fu-   activity related to these allocation transfers (e.g., budget authori-
ture payments calculated by the DOL, and (2) the unreimbursed          ty, obligations, outlays) is reported in the financial statements of
cost paid by DOL for compensation to recipients under FECA.            the parent entity, from which the underlying legislative authority,
                                                                       appropriations, and budget apportionments are derived.
R. ENVIRONMENTAL AND DISPOSAL LIABILITIES
DOT recognizes two types of environmental liabilities: unfunded        DOT allocates funds, as the parent agency, to the following non-
environmental remediation and unfunded asset disposal liability.       DOT Federal agencies in accordance with applicable public laws
The liability for environmental remediation is an estimate of          and statutes: U.S. Bureau of Indian Affairs, U.S. Bureau of Rec-
costs necessary to bring a known contaminated site into compli-        lamation, U.S. Forest Service, U.S. National Park Service, U.S.


62   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
Bureau of Land Management, U.S. Fish and Wildlife Service,                On July 22, 2011, FAA’s authorization to collect excise taxes
U.S. Department of the Army, Appalachian Regional Commis-                 expired as Congress did not approve an extension to the existing
sion, Tennessee Valley Authority, U.S. Army Corps of Engineers,           authorization or pass a longer term reauthorization bill. This
Internal Revenue Service, U.S. Department of Housing and                  resulted in a loss of revenues for the AATF in the approximate
Urban Development, Denali Commission, U.S. Department of                  amount of $419 million. A new short-term extension was passed
Navy, and the U.S. Department of Energy.                                  by Congress and signed by the U.S. President (President) on
                                                                          August 5, 2011, reauthorizing FAA to again collect excise tax
DOT receives allocations of funds, as the child agency, from the          revenue through September 15, 2011.
following non-DOT Federal agencies in accordance with appli-
cable laws and statutes: U.S. Department of Agriculture, U.S.             On September 16, 2011, the President signed the U.S. House
Department of the Interior, U.S. Department of the Navy, U.S.             of Representatives (H.R.) 2887, P.L. 112-30, the Surface and
Department of the Army, U.S. Department of the Air Force, and             Air Transportation Extension Act of 2011, provided the HTF
the U.S. Department of Defense.                                           with a temporary extension of authority to collect excise taxes
                                                                          and to make expenditures through March 31, 2012 and provid-
U. REVENUES AND OTHER FINANCING SOURCES                                   ed the AATF with a temporary extension of authority through
EARMARKED EXCISE TAX REVENUES (NON-EXCHANGE)                              January 31, 2012. The Surface Transportation Extension Act of
DOT receives funding needed to support its programs through               2012 granted the HTF another temporary extension of authority
non-exchange earmarked excise tax revenues related to the                 through June 30, 2012. Effective February 18, 2012, the FAA
Highway Trust Fund (HTF) and the Airport and Airway Trust                 Modernization and Reform Act of 2012, P.L. 112-95, extended
Fund (AATF).                                                              AATF authority to collect excise taxes and make expenditures
                                                                          through September 30, 2015.
Excise taxes collected are initially deposited to the general
fund of the U.S. Treasury. The Internal Revenue Service (IRS)             On July 6, 2012, the President signed into law P.L. 112-141,
does not receive sufficient information at the time the taxes are         Moving Ahead for Progress in the 21st Century (MAP-21),
collected to determine how these payments should be distributed           which extended the preceding law, the Safe, Accountable, Flex-
to specific earmarked funds. Therefore, the U.S. Treasury makes           ible, Efficient Transportation Equity Act: A Legacy for Users,
initial semi-monthly distributions to earmarked funds based on            through September 30, 2012, and provided new authorization for
estimates prepared by Treasury OTA. These estimates are based             surface transportation from October 1, 2012, through September
on historical excise tax data applied to current excise tax receipts.     30, 2014. The law infused $2.4 billion into the HTF from the
When actual tax receipt amounts are certified by the IRS, gen-            Leaking Underground Storage Tank (LUST) trust fund in FY
erally four months after each quarter-end, adjustments are made           2012, and provides another $6.2 billion in FY 2013 and $12.6
to the estimated receipt/revenue amounts previously provided              billion in FY 2014 from the general fund. The new and existing
by OTA, at which time the difference is transferred by the U.S.           programs in MAP-21 create a streamlined, performance-based,
Treasury to the HTF and AATF accounts.                                    and multimodal program to address the many challenges facing
                                                                          the U.S. transportation system.
The DOT September 30, 2012 financial statements reflect excise
taxes certified by the IRS through June 30, 2012 and excise taxes         On September 28, 2012, the President signed the Continuing
estimated by OTA for the period July 1, 2012 to September 30,             Appropriations Resolution, 2013, P.L. 112-175, to continue
2012 as specified by FASAB Statement of Federal Financial                 government operations through March 27, 2013, predominantly
Accounting Standard (SFFAS) Number 7, Accounting for                      at FY 2012 spending levels.
Revenue and Other Financing Sources. Actual tax collections
data for the quarter ended September 30, 2012 will not be                 AMERICAN RECOVERY AND REINVESTMENT ACT
available from the IRS until January 2013.                                On February 17, 2009, the President signed into law the American
                                                                          Recovery and Reinvestment Act (ARRA), which designated over
APPROPRIATIONS (FINANCING SOURCE)                                         $48 billion to the DOT operating administrations. The funding
DOT receives annual, multi-year, and no-year appropriations.              was provided to FHWA, FAA, FTA, FRA, OST, and MARAD.
Appropriations are recognized as revenues when related program            These funds were designated to invest in transportation
and administrative expenses are incurred. Additional amounts are          infrastructure, including transit capital assistance, high speed
obtained from offsetting collections and user fees (e.g., overflight      rail, pavement improvements, and bridge repair, as well as to
fees and registry certification fees) and through reimbursable agree-     preserve and create jobs, and promote economic recovery that
ments for services performed for domestic and foreign governmental        will provide long-term economic benefits. In the final stages
entities. Additional revenue is received from gifts of donors, sales of   of the program as of September 30, 2012, the Department had
goods and services to other agencies and the public, the collection of    obligated $47.6 billion and disbursed $37 billion.
fees and fines, interest/dividends on invested funds, loans, and cash
disbursements to banks. Interest income is recognized as revenue on
the accrual basis rather than when received.


63   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
V. FIDUCIARY ACTIVITIES                                                  United States Government or the Department. The nine members
Fiduciary assets and liabilities are not assets and liabilities of the   of Amtrak’s Board of Directors are appointed by the President of
Department and, as such are not recognized on the balance sheet.         the United States and are subject to confirmation by the United
In accordance with the provisions of FASAB SFFAS Number 31,              States Senate. Once appointed, Board Members, as a whole, act
Accounting for Fiduciary Activities, this activity is reported sepa-     independently without the consent of the United States Govern-
rately in a note disclosure. The Maritime Administration Title XI        ment or any of its officers to set Amtrak policy, determine its
Escrow Fund contains fiduciary activity as detailed in Note 24 to        budget and decide operational issues. The Secretary of Trans-
the Consolidated Financial Statements.                                   portation is statutorily appointed to the nine-member Board.
                                                                         Traditionally, the Secretary of Transportation has designated the
W. RELATED PARTIES                                                       FRA Administrator to represent the Secretary at Board meetings
The Secretary of Transportation has possession of two long-term          (See Note 17).
notes with the National Railroad Passenger Service Corporation
(more commonly referred to as Amtrak). The first note is for $4          X. RECLASSIFICATIONS
billion and matures in 2975 and; the second note is for $1.1 bil-        In FY 2012, changes to the presentation of the Combined
lion and matures in 2082 with renewable 99 year terms. Interest          Statements of Budgetary Resources were made in accordance
is not accruing on these notes as long as the current financial          with guidance provided in OMB Circular A-136 and as such,
structure of Amtrak remains unchanged. If the financial structure        activity and balances reported on the FY 2011 Combined Statement
of Amtrak changes, both principal and accrued interest are due           of Budgetary Resources have been reclassified to conform to
and payable. The Department does not record the notes in its             the presentation in the current year. Certain other prior year
financial statements since the present value of the notes, dis-          amounts have also been reclassified to conform with the
counted according to rates published in OMB M-11-12 Appendix             current year presentation.
C, Discount Rates for Cost-Effectiveness, Lease Purchase, and
Related Analyses, with maturity dates of 2975 and 2082, was
immaterial at September 30, 2012.

In addition, the Secretary of Transportation has possession of all
the preferred stock shares (109,396,994) of Amtrak. Congress,
through the Department, has continued to fund Amtrak since
approximately 1972; originally through grants, then, beginning in
1981, through the purchase of preferred stock, and then, through
grants again after 1997. The Amtrak Reform and Accountabil-
ity Act of 1997 changed the structure of the preferred stock by
rescinding the voting rights with respect to the election of the
Board of Directors and by eliminating the preferred stock’s
liquidation preference over the common stock. The Act also
eliminated further issuance of preferred stock to the Department.
The Department does not record the Amtrak preferred stock in
its financial statements because, under the Corporation’s current
financial structure, the preferred shares do not have a liquidation
preference over the common shares, the preferred shares do not
have any voting rights, and dividends are neither declared
nor in arrears.

Amtrak is not a department, agency, or instrumentality of the




64   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 2. FUND BALANCE WITH TREASURY 

                Fund Balances with Treasury at September 30
                                            2012             2011

 FUND BALANCES
Trust Funds                             $6,243,944       $7,142,146
Revolving Funds                          1,116,895          747,954
General Funds                           25,635,140      31,455,847
Other Fund Types                          360,295           415,678
Total                                  $33,356,274     $39,761,625


 STATUS OF FUND BALANCE
 WITH TREASURY
Unobligated balance:
  Available                            $14,384,053      $16,979,464
  Unavailable                            2,750,400        2,313,572
Obligated balance not yet disbursed     15,608,159      20,360,093
Non-Budgetary Fund Balance with            613,662         108,496
Treasury
Total                                  $33,356,274     $39,761,625



Fund Balances with Treasury are the aggregate amounts of the
Department’s accounts with Treasury for which the Depart-
ment is authorized to make expenditures and pay liabilities.
Other Fund Types include uncleared suspense accounts, which
temporarily hold collections pending clearance to the applica-
ble account, and deposit funds, which are established to record
amounts held temporarily until ownership is determined.

The U.S. Treasury processes cash receipts and disbursements.
DOT receives appropriations as budget authority, which permits
it to incur obligations and make outlays (payments). In addition,
DOT also receives contract authority to permit the incurrence of
obligations in advance of an appropriation. The contract authority
is subsequently replaced with the appropriation or the spend-
ing authority from offsetting collections to first cover and then
liquidate the obligations. As a result, DOT does not have typical
Fund Balance with Treasury amounts as funds remain invested
in securities until needed to make payments. These investments
and contract authority amounts offset the Obligated balance not
yet disbursed, therefore the unobligated and obligated balances
presented above may not equal related amounts reported on the
Combined Statements of Budgetary Resources.




65      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 3. INVESTMENTS:
�
                                                       COST      AMORTIZED DISCOUNT          INVESTMENTS (NET)          MARKET VALUE


 INTRAGOVERNMENTAL SECURITIES:                                                              Investments as of September 30, 2012
Marketable                                            $28,735                        $179                     $28,914              $28,950
Non-Marketable Par Value                            20,395,163                          -                  20,395,163           20,395,163
Non-Marketable Market-Based                          1,818,209                     28,377                   1,846,586            1,860,331
Subtotal                                            22,242,107                     28,556                  22,270,663           22,284,444
Accrued Interest Receivable                             59,989                          -                      59,989
Total Intragovernmental Securities                 $22,302,096                    $28,556                 $22,330,652          $22,284,444


 INTRAGOVERNMENTAL SECURITIES:                                                              Investments as of September 30, 2011
Marketable                                            $44,121                        $116                     $44,237              $44,359
Non-Marketable Par Value                            24,942,797                          -                  24,942,797           24,942,797
Non-Marketable Market-Based                          1,630,564                     11,685                   1,642,249            1,669,632
Subtotal                                            26,617,482                     11,801                  26,629,283           26,656,788
Accrued Interest Receivable                            52,775                           -                      52,775
Total Intragovernmental Securities                 $26,670,257                    $11,801                 $26,682,058          $26,656,788




Investments include non-marketable par value and market-based        Treasury securities are an asset of DOT and a liability of the
Treasury securities and marketable securities issued by the          U.S. Treasury. Because the DOT and the U.S. Treasury are both
Treasury and other Federal entities. Non-marketable par value        a part of the Government, these assets and liabilities offset each
Treasury securities are issued by the Bureau of Public Debt to       other from the standpoint of the Government as a whole. For
Federal accounts and are purchased and redeemed at par exclu-        this reason, they do not represent an asset or liability in the U.S.
sively through Treasury’s Federal Investment Branch. Non-mar-        Government-wide financial statements.
ketable market-based Treasury securities are also issued by the
Bureau of Public Debt to Federal accounts. They are not traded
on any securities exchange, but mirror the prices of particular
Treasury securities trading in the Government securities market.
Marketable Federal securities can be bought and sold on the open
market. The premiums and discounts are amortized over the life
of the non-marketable market-based and marketable securities
using the interest method.

The Federal Government does not set aside assets to pay future
benefits or other expenditures associated with earmarked funds.
The cash receipts collected from the public for an earmarked fund
are deposited in the U.S. Treasury, which uses the cash for Gov-
ernment purposes. Non-Marketable par value Treasury securities
are issued to DOT as evidence of these receipts. These securities
provide DOT with authority to draw upon the U.S. Treasury to
make future expenditures. When DOT requires redemption of
these securities to make expenditures, the Government finances
those expenditures out of accumulated cash balances by raising
taxes or other receipts, by borrowing from the public or repaying
less debt, or by curtailing other expenditures. This is the same
way that the Government finances all other expenditures.




66    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L R E P O R T 2012
NOTE 4. ACCOUNTS RECEIVABLE
�
                                                                                      ALLOWANCE FOR
                                                   GROSS AMOUNT DUE            UNCOLLECTIBLE AMOUNTS                       NET AMOUNT DUE
                                                                                       Accounts Receivable at September 30, 2012
 INTRAGOVERNMENTAL
Accounts Receivable                                               $116,545                                      $-                 $116,545

Accrued Interest                                                           5                                      -                       5

Total Intragovernmental                                            116,550                                        -                 116,550


 PUBLIC
Accounts Receivable                                                174,794                                 (22,205)                 152,589

Accrued Interest                                                     2,395                                     (77)                   2,318

Total Public                                                       177,189                                 (22,282)                 154,907


Total Receivables                                                 $293,739                                $(22,282)                $271,457


                                                                                       Accounts Receivable at September 30, 2011

 INTRAGOVERNMENTAL
Accounts Receivable                                                $97,511                                      $-                  $97,511

Accrued Interest                                                           5                                      -                       5

Total Intragovernmental                                             97,516                                        -                  97,516


 PUBLIC
Accounts Receivable                                                193,439                                 (24,745)                 168,694

Accrued Interest                                                      444                                     (266)                     178

Total Public                                                       193,883                                 (25,011)                 168,872
Total Receivables                                                 $291,399                                $(25,011)                $266,388




                                                                           Other assets consist of the following at September 30
NOTE 5. OTHER ASSETS                                                                                                   2012           2011
Intragovernmental Other Assets are comprised of advance             INTRAGOVERNMENTAL
payments to other Federal Government entities for agency           Advances and Prepayments                       $164,634          $123,152
expenses not yet incurred and for goods and services not yet       Total Intragovernmental other assets           $164,634         $123,152
received and undistributed assets and payments for which DOT
is awaiting documentation. Public Other Assets are comprised        PUBLIC
of advances to States, employees, and contractors.                 Advances to States for Right of Way                $19,363       $43,956
                                                                   Other Advances and Prepayments                     54,784         46,031
                                                                   Other                                                 559            100
                                                                   Total Public other assets                          $74,706       $90,087




67    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 6. DIRECT LOANS AND                                                DOT administers the following direct loan and/or loan
LOAN GUARANTEES, NON-FEDERAL                                            guarantee programs:
BORROWERS
                                                                          ▶	 The Railroad Rehabilitation Improvement Program is used
The Federal Credit Reform Act of 1990 divides direct loans and                   to acquire, improve, or rehabilitate intermodal or rail equip-
loan guarantees into two groups:                                                 ment or facilities, including track, components of tract,
                                                                                 bridges, yards, buildings, and shops; refinance outstanding
  ▶	 Pre-1992 - Direct loan obligations or loan guarantee com-                   debt incurred; and develop or establish new intermodal or
         mitments made prior to FY 1992 and the resulting direct                 railroad facilities.
         loans or loan guarantees; and
                                                                          ▶	 The Transportation Infrastructure Finance and Innova-
  ▶	 Post-1991 - Direct loan obligations or loan guarantee com-                  tion Act (TIFIA) Loan Program provides Federal credit
         mitments made after FY 1991 and the resulting direct loans              assistance for major transportation investments of critical
         or loan guarantees.                                                     national importance such as highway, transit, passenger
                                                                                 rail, certain freight facilities, and certain port projects with
The Act, as amended, governs direct loan obligations and loan
                                                                                 regional and national benefits. The TIFIA credit program
guarantee commitments made after FY 1991, and the resulting
                                                                                 is designed to fill market gaps and leverages substantial
direct loans and loan guarantees. Consistent with the Act, State-
                                                                                 private co-investment by providing supplemental and sub-
ment of Federal Financial Accounting Standards 2, Accounting
                                                                                 ordinate capital.
for Direct Loans and Loan Guarantees, requires Federal agencies
to recognize the present value of the subsidy costs (which arises         ▶	 The Federal Ship Financing Fund (Title XI) offers loan
from interest rate differentials, interest supplements, defaults [net            guarantees to qualified ship owners and shipyards. Approved
of recoveries], fee offsets, and other cash flows) as a cost in the              applicants are provided the benefit of long-term financing
year the direct or guaranteed loan is disbursed. Direct loans are                at stable interest rates.
reported net of an allowance for subsidy at present value, and
                                                                          ▶	 The OST Minority Business Resource Center Guaranteed
loan guarantee liabilities are reported at present value. Foreclosed
                                                                                 Loan Program helps small businesses gain access to the
property is valued at the net realizable value. The value of assets
                                                                                 financing needed to participate in transportation-related
for direct loans and defaulted guaranteed loans is not the same as
                                                                                 contracts.
the proceeds that would be expected from the sale of the loans.
DOT has calculated the allowance for pre-1992 loans using the           An analysis of loans receivable, allowance for subsidy costs,
allowance for loss method.                                              liability for loan guarantees, foreclosed property, modifications,
                                                                        and re-estimates associated with direct loans and loan guarantees
Interest on the loans is accrued based on the terms of the loan         is provided in the following sections:
agreement. DOT does not accrue interest on non-performing
loans that have filed for bankruptcy protection. DOT manage-
ment considers administrative costs to be insignificant.

DIRECT LOANS
              OBLIGATED
        PRIOR TO FY 1992
        (ALLOWANCE FOR               2012 LOANS                 INTEREST              ALLOWANCE FOR            VALUE OF ASSETS RELATED
           LOSS METHOD)       RECEIVABLE, GROSS               RECEIVABLE                 LOAN LOSSES               TO DIRECT LOANS, NET

 DIRECT LOAN PROGRAMS
                                               $151                        $-                            $-	                                $151
(1) Railroad Rehabilitation
    Improvement Program

                                                                                      ALLOWANCE FOR
     OBLIGATED AFTER                 2012 LOANS                 INTEREST                SUBSIDY COST           VALUE OF ASSETS RELATED
              FY 1991         RECEIVABLE, GROSS               RECEIVABLE             (PRESENT VALUE)               TO DIRECT LOANS, NET

 DIRECT LOAN PROGRAMS
(1) Railroad Rehabilitation                 $710,932                    $1,512                     $(47,219)                            $665,225
    Improvement Program
(2) TIFIA Loans                            4,696,784                         -                    (350,654)                            4,346,130
Total                                     $5,407,716                    $1,512                   $(397,873)                           $5,011,355




68      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L R E P O R T 2012
NOTE 6, CONT’D


DIRECT LOANS
              OBLIGATED
        PRIOR TO FY 1992
        (ALLOWANCE FOR               2011 LOANS               INTEREST            ALLOWANCE FOR             VALUE OF ASSETS RELATED
           LOSS METHOD)       RECEIVABLE, GROSS             RECEIVABLE               LOAN LOSSES                TO DIRECT LOANS, NET
 DIRECT LOAN PROGRAMS
                                              $265                          $-                        $-                          $265
(1) Railroad Rehabilitation
    Improvement Program

                                                                                  ALLOWANCE FOR
     OBLIGATED AFTER                 2011 LOANS               INTEREST             SUBSIDY COSTS            VALUE OF ASSETS RELATED
              FY 1991         RECEIVABLE, GROSS             RECEIVABLE           (PRESENT VALUE)                TO DIRECT LOANS, NET
 DIRECT LOAN PROGRAMS
(1) Railroad Rehabilitation                $506,159                   $696                 $(12,271)                          $494,584
    Improvement Program
(2) TIFIA Loans                           3,931,737                          -             (310,086)                         3,621,651
Total                                    $4,437,896                   $696                $(322,357)                        $4,116,235




TOTAL AMOUNT OF DIRECT LOANS DISBURSED (POST-1991)
                                             2012                    2011
 DIRECT LOAN PROGRAMS
(1) Railroad Rehabilitation               $285,694                 $108,031
    Improvement Program
(2) TIFIA Loans                            643,609                1,309,906
Total                                     $929,303               $1,417,937




SUBSIDY EXPENSE FOR DIRECT LOANS BY PROGRAM AND COMPONENT
�
SUBSIDY EXPENSE FOR NEW DIRECT LOANS DISBURSED

                                        2012 INTEREST                            FEES AND OTHER            OTHER SUBSIDY
                                        DIFFERENTIAL         DEFAULTS               COLLECTIONS                    COSTS     TOTAL

 DIRECT LOAN PROGRAMS

(1) Railroad Rehabilitation                           $-          $13,969                $(13,969)                     $-          $-
    Improvement Program

(2) TIFIA Loans                                        -           68,491                         -                     -      68,491

Total                                                 $-          $82,460                $(13,969)                    $-     $ 68,491


                                        2011 INTEREST                            FEES AND OTHER            OTHER SUBSIDY
                                        DIFFERENTIAL         DEFAULTS               COLLECTIONS                    COSTS     TOTAL
 DIRECT LOAN PROGRAMS

(1) Railroad Rehabilitation                           $-           $8,625                 $(8,625)                     $-          $-
    Improvement Program

(2) TIFIA Loans                                        -           98,913                         -                     -      98,913

Total                                                 $-         $107,538                 $(8,625)                    $-     $ 98,913




69      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 6, CONT’D


MODIFICATIONS AND RE-ESTIMATES
                                                                 INTEREST
                                          2012 TOTAL                 RATE            TECHNICAL                 TOTAL
                                       MODIFICATIONS         RE-ESTIMATES         RE-ESTIMATES          RE-ESTIMATES
 DIRECT LOAN PROGRAMS

(1) Railroad Rehabilitation                             $-          $27,177                 $(6,198)                $20,979
    Improvement Program

(2) TIFIA Loans                                          -                -                 (36,886)                (36,886)
Total                                                   $-          $27,177                $(43,084)               $(15,907)

                                                                 INTEREST
                                          2011 TOTAL                 RATE            TECHNICAL                 TOTAL
                                       MODIFICATIONS         RE-ESTIMATES         RE-ESTIMATES          RE-ESTIMATES
 DIRECT LOAN PROGRAMS

(1) Railroad Rehabilitation                             $-               $-                   $1,128                  $1,128
    Improvement Program

(2) TIFIA Loans                                          -                -                   1,004                   1,004

Total                                                   $-               $-                  $2,132                  $2,132



TOTAL DIRECT LOAN SUBSIDY EXPENSE
                                             2012                    2011
 DIRECT LOAN PROGRAMS
(1) Railroad Rehabilitation                $20,979                   $1,128
    Improvement Program
(2) TIFIA Loans                             31,605                   99,917
Total                                      $52,584                 $101,045



BUDGET SUBSIDY RATES FOR DIRECT LOANS FOR THE CURRENT YEAR COHORT

                                        2012 INTEREST                         FEES AND OTHER
                                        DIFFERENTIAL            DEFAULTS         COLLECTIONS            OTHER                  TOTAL
 DIRECT LOAN PROGRAMS

(1) Railroad Rehabilitation                          0.00%           0.89%                 -0.89%          0.00%                 0.00%
    Improvement Program

(2) TIFIA Loans                                      0.07%           8.76%                  0.00%          0.00%                 8.83%
Total                                                0.07%           9.65%                 -0.89%          0.00%                 8.83%



The subsidy rates disclosed pertain only to the current year’s cohorts. These rates cannot be applied to the direct loans disbursed
during the current reporting year to yield the subsidy expense. The subsidy expense for new loans reported in the current year could
result from disbursements of loans from both current year cohorts and prior year(s) cohorts. The subsidy expense reported in the cur-
rent year also includes modifications and re-estimates.




70      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 6, CONT’D


SCHEDULE FOR RECONCILING SUBSIDY COST ALLOWANCE BALANCES (POST 1991 DIRECT LOANS)
                                                                                                               2012                            2011

 BEGINNING BALANCE, CHANGES, AND ENDING BALANCE
Beginning balance of the subsidy cost allowance                                                             $322,357                         $222,072
Add: subsidy expense for direct loans disbursed during the reporting years by component:
  Default costs (net of recoveries)                                                                            82,460                         107,538
  Fees and other collections                                                                                  (13,969)                         (8,625)
Total of the above subsidy expense components                                                                 $68,491                         $98,913
Adjustments:
     Subsidy allowance amortization                                                                             8,963                          (9,385)
     Other                                                                                                     13,969                           8,625
Ending balance of the subsidy cost allowance before re-estimates                                              413,780                         320,225
Add or subtract subsidy re-estimates by component:
     Interest rate re-estimate                                                                                 27,177                                  -
     Technical/default re-estimate                                                                           (43,084)                           2,132
     Total of the above reestimate components                                                                 (15,907)                          2,132
Ending balance of the subsidy cost allowance                                                                 $397,873                        $322,357


The economic assumptions of the TIFIA upward and downward                         The Railroad Rehabilitation Improvement Program’s upward
re-estimates were the result of a reassessment of risk levels as                  reestimate was a result of an update for change in the discount
well as estimated changes in future cash flows on loans.                          rate between time of loan obligation and disbursement and an
                                                                                  update for actual cash flows and changes in technical assumptions.



DEFAULTED GUARANTEED LOANS FROM POST-1991 GUARANTEES
                                     2012 DEFAULTED                                                                             VALUE OF ASSETS
                                        GUARANTEED                                                                           RELATED TO DEFAULT
                                              LOANS                                                                                GUARANTEED
                                        RECEIVABLE,           INTEREST             FORECLOSED        ALLOWANCE FOR            LOANS RECEIVABLE,
                                              GROSS         RECEIVABLE               PROPERTY              SUBSIDY                          NET

LOAN GUARANTEE PROGRAMS
(3) Federal Ship Financing                        $97,312           $2,061                  $6,500             $(94,572)                       $11,301
    Fund (Title XI)

                                 2011 DEFAULTED                                                                                VALUE OF ASSETS
                                    GUARANTEED                                                                              RELATED TO DEFAULT
                                          LOANS                                                                                   GUARANTEED
                                    RECEIVABLE,               INTEREST            FORECLOSED         ALLOWANCE FOR           LOANS RECEIVABLE,
                                          GROSS             RECEIVABLE              PROPERTY               SUBSIDY                         NET

LOAN GUARANTEE PROGRAMS
(3) Federal Ship Financing
                                                $212,071            $8,797                 $60,100            $(209,833)                       $71,135
    Fund (Title XI)




71      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 6, CONT’D

GUARANTEED LOANS OUTSTANDING
                                2012 OUTSTANDING              AMOUNT OF
                                     PRINCIPAL OF           OUTSTANDING
                                     GUARANTEED                PRINCIPAL
                                LOANS, FACE VALUE           GUARANTEED
 LOAN GUARANTEE PROGRAMS
(3) Federal Ship Financing                 $1,966,363              $1,966,363
    Fund (Title XI)
(4) OST Minority Business                       5,749                   4,312
    Resource Center
Total	                                    $1,972,112               $1,970,675


                                2012 OUTSTANDING              AMOUNT OF
                                     PRINCIPAL OF           OUTSTANDING
                                     GUARANTEED                PRINCIPAL
                                LOANS, FACE VALUE           GUARANTEED

NEW GUARANTEED LOANS DISBURSED

 LOAN GUARANTEE PROGRAMS

(3) Fed Ship Financing Fund                 $593,976                $593,976
    (Title XI)
(4) OST Minority Business                      3,449                   2,586
    Resource Center
Total	                                      $597,425                $596,562



                                2011 OUTSTANDING              AMOUNT OF
                                     PRINCIPAL OF           OUTSTANDING
                                     GUARANTEED                PRINCIPAL
                                LOANS, FACE VALUE           GUARANTEED
 LOAN GUARANTEE PROGRAMS
(3) Fed Ship Financing Fund                       $-                      $-
    (Title XI)
(4) OST Minority Business                       3,130                  2,348
    Resource Center
Total	                                        $3,130                  $2,348




                                         2012 LIABILITIES FOR POST-1991
                                           GUARANTEES, PRESENT VALUE

 LIABILITY FOR LOAN GUARANTEES 

 (PRESENT VALUE METHOD POST-1991 GUARANTEES):
�
(3) F	 ed Ship Financing Fund                                        $192,382
     (Title XI)
(4) 	OST Minority Business                                                447
     Resource Center
Total	                                                               $192,829




72       U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 6, CONT’D
SUBSIDY EXPENSE FOR LOAN GUARANTEES BY PROGRAM AND COMPONENT

SUBSIDY EXPENSE FOR NEW LOAN GUARANTEES DISBURSED

                                                2012 INTEREST                                FEES AND OTHER
                                                SUPPLEMENTS                     DEFAULTS        COLLECTIONS       OTHER        TOTAL
 LOAN GUARANTEE PROGRAMS
                                                                  $-               $48,520           $(34,732)         $-      $13,788
(3) Federal Ship Financing Fund (Title XI)

(4) OST Minority Business Resource Center                          -                   77                    -          -           77

Total                                                             $-               $48,597           $(34,732)         $-      $13,865


                                                2011 INTEREST                                FEES AND OTHER
                                                SUPPLEMENTS                     DEFAULTS        COLLECTIONS       OTHER        TOTAL
 LOAN GUARANTEE PROGRAMS
(4) OST Minority Business Resource Center                         $-                  $86                  $-          $-          $86
Total                                                             $-                  $86                  $-          $-          $86



MODIFICATIONS AND RE-ESTIMATES
                                               2012 TOTAL                INTEREST RATE            TECHNICAL
                                             MODIFICATIONS                RE-ESTIMATES         RE-ESTIMATES       TOTAL RE-ESTIMATES
 LOAN GUARANTEE PROGRAMS
(3) Federal Ship Financing Fund (Title XI)                   $-                         $-            $(38,769)               $(38,769)
(4) OST Minority Business Resource Center                     -                          -                 278                     278

Total                                                        $-                         $-            $(38,491)               $(38,491)


                                               2011 TOTAL                INTEREST RATE            TECHNICAL
                                             MODIFICATIONS                RE-ESTIMATES         RE-ESTIMATES       TOTAL RE-ESTIMATES

 LOAN GUARANTEE PROGRAMS
(3) Federal Ship Financing Fund (Title XI)                   $-                         $-               $2,318                 $2,318
(4) OST Minority Business Resource Center                     -                          -                 (87)                    (87)
Total                                                        $-                         $-              $2,231                  $2,231



TOTAL LOAN GUARANTEE SUBSIDY EXPENSE
                                                    2012               2011

 LOAN GUARANTEE PROGRAMS
(3) Federal Ship Financing Fund (Title XI)       $(24,981)             $2,318
(4) OST Minority Business Resource Center             355                 (1)
Total                                            $(24,626)             $2,317




73      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L R E P O R T 2012
NOTE 6, CONT’D


BUDGET SUBSIDY RATES FOR LOAN GUARANTEES FOR THE CURRENT YEAR COHORT
                                                 2012 INTEREST                      FEES AND OTHER
                                                 SUPPLEMENTS         DEFAULTS          COLLECTIONS                     OTHER         TOTAL
 LOAN GUARANTEE PROGRAMS
(3) Federal Ship Financing                                   0.00%       12.15%                  -4.89%                 0.00%           7.26%
    Fund (Title XI)
(4) OST Minority Business                                    0.00%        1.79%                   0.00%                 0.00%           1.79%
    Resource Center
Total                                                        0.00%       13.94%                  -4.89%                 0.00%          9.05%



The subsidy rates disclosed pertain only to the current year’s cohorts. These rates cannot be applied to the guarantees of loans dis-
bursed during the current reporting year to yield the subsidy expense. The subsidy expense for new loan guarantees reported in the
current year could result from disbursements of loans from both current year cohorts and prior year(s) cohorts. The subsidy expense
reported in the current year also includes modifications and re-estimates.



SCHEDULE FOR RECONCILING LOAN GUARANTEE LIABILITY BALANCES (POST-1991 LOAN GUARANTEES)
                                                                                                             2012                        2011

 BEGINNING BALANCE, CHANGES, AND ENDING BALANCE
Beginning Balance of the loan guarantee liability                                                          $158,425                    $237,739
Add: subsidy expense for guaranteed loans disbursed during the
reporting years by component:
  Default costs (net of recoveries)                                                                          48,597                          86
  Fees and other collections                                                                                (34,732)                            -
     Total of the above subsidy expense components                                                           13,865                          86
Adjustments:
     Fees Received                                                                                           53,418                       1,035
     Foreclosed Property and Loans Acquired                                                                  39,456                    (212,214)
     Interest accumulation on the liability balance                                                          (6,756)                    125,494
  Other                                                                                                     (27,088)                      4,054
Ending balance of the loan guarantee liability before re-estimates                                          231,320                     156,194
Add or subtract subsidy re-estimates by component:
  Technical/default reestimate                                                                              (38,491)                      2,231
     Total of the above reestimate components                                                               (38,491)                      2,231
Ending balance of the loan guarantee liability                                                             $192,829                   $158,425


In January 2012, MARAD transferred two vessels prevously acquired through foreclosure proceedings to the U.S. Department of the
Navy for $35 million. MARAD retains one vessel in its inventory of foreclosed property.

The lingering downturn in the economy has led to volatility in financial markets which could affect loan repayments under direct and
loan guarantee programs. Under the Federal Credit Reform Act, upward re-estimates are automatically covered by permanent indefinite
budget authority, which ensures DOT will have sufficient resources to cover any losses incurred in its existing portfolio without further
action by Congress. DOT continues to evaluate the risks to affected markets in light of evolving economic conditions, but the impact
of such risks on DOT’s loan and loan guarantee portfolio reserves, if any, cannot be fully known at this time. The sufficiency of DOT’s
portfolio reserves at September 30, 2012, will largely depend on future economic and market conditions and could differ from current estimates.




74      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 7. INVENTORY AND RELATED PROPERTY
�
                                                                      Inventory and Related Property as of September 30, 2012
                                                                                                  ALLOWANCE
                                                                                   COST             FOR LOSS                      NET
 INVENTORY
Inventory Held for Current Sale                                                    $93,855                     $-               $93,855
Excess, Obsolete, and Unserviceable Inventory                                        8,956                 (8,956)                      -
Inventory Held for Repair                                                          582,567              (135,234)               447,333
Other                                                                               51,030                (10,591)               40,439
Total Inventory                                                                    $736,408             $(154,781)              $581,627


 OPERATING MATERIALS AND SUPPLIES
Items Held for Use                                                                $233,293               $(1,075)              $232,218
Items Held in Reserve for Future Use                                                29,664                      -                29,664
Excess, Obsolete and Unserviceable Items                                             1,888                 (1,043)                 845
Items Held for Repair                                                               25,730                (12,193)               13,537
Total Operating Materials & Supplies                                              $290,575              $(14,311)              $276,264
Total Inventory and Related Property                                                                                           $857,891


                                                                      Inventory and Related Property as of September 30, 2011
                                                                                                  ALLOWANCE
                                                                                   COST             FOR LOSS                      NET
 INVENTORY
Inventory Held for Current Sale                                                   $101,934                     $-              $101,934
Excess, Obsolete, and Unserviceable Inventory                                       13,766                (13,766)                      -
Inventory Held for Repair                                                          550,604               (119,266)              431,338
Other                                                                               40,712               (10,590)                30,122
Total Inventory                                                                   $707,016             $(143,622)              $563,394


 OPERATING MATERIALS AND SUPPLIES
Items Held for Use                                                                $238,612               $(1,840)              $236,772
Items Held in Reserve for Future Use                                                30,212                      -                30,212
Excess, Obsolete, and Unserviceable Items                                             325                   (325)                       -
Items Held for Repair                                                               28,492               (13,037)                15,455
Total Operating Materials & Supplies                                              $297,641              $(15,202)              $282,439
Total Inventory and Related Property                                                                                           $845,833

Inventory consists of supplies and materials used to support FAA National Airspace System (NAS) located at the Mike Monroney
Aeronautical Center in Oklahoma City.

Primarily, operating supplies and materials consist of unissued materials and supplies that will be used in repair and maintenance of
various activities within FAA and to support the training vessels and day-to-day operations at the U.S. Merchant Marine Academy.




75      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 8. GENERAL PROPERTY, PLANT AND EQUIPMENT, NET
�
                                                                General Property, Plant and Equipment at September 30, 2012
                                                                                                       ACCUMULATED
                                                                                    ACQUISITION        DEPRECIATION
 MAJOR CLASSES                                                    SERVICE LIFE           VALUE         AMORTIZATION         BOOK VALUE
Land and Improvements                                                       10-40           $102,717            $(2,251)        $100,466
Buildings and Structures                                                    20-40          6,213,974         (3,418,667)        2,795,307
Furniture and Fixtures                                                       7-10              3,199              (1,619)           1,580
Equipment                                                                    5-15         17,460,914        (10,712,215)        6,748,699
ADP Software                                                                 3-10           722,683            (539,726)         182,957
Assets Under Capital Lease                                                   6-10            127,661            (49,902)           77,759
Leasehold Improvements                                                          3            147,821            (84,400)          63,421
Aircraft                                                                       20           407,579            (327,059)          80,520
Ships and Vessels                                                           15-25          1,945,001         (1,753,241)          191,760
Small Boats                                                                 10-18             27,701             (22,131)           5,570
Construction-in-Progress                                                      NA           3,780,846                   -        3,780,846
Other Miscellaneous Property                                                  NA               7,202              (5,721)           1,481
Total                                                                                    $30,947,298       $(16,916,932)      $14,030,366


                                                                General Property, Plant and Equipment at September 30, 2011
                                                                                                       ACCUMULATED
                                                                                    ACQUISITION        DEPRECIATION
 MAJOR CLASSES                                                    SERVICE LIFE           VALUE         AMORTIZATION         BOOK VALUE
Land and Improvements                                                       10-40          $102,630             $(1,997)        $100,633
Buildings and Structures                                                    20-40          5,844,963          (3,167,777)       2,677,186
Furniture and Fixtures                                                       7-10             71,881            (68,900)            2,981
Equipment                                                                    5-15         16,848,561         (9,979,207)        6,869,354
ADP Software                                                                 3-10            649,129           (412,916)         236,213
Assets Under Capital Lease                                                   6-10           184,777             (90,139)          94,638
Leasehold Improvements                                                          3           135,623              (71,136)         64,487
Aircraft                                                                       20           407,579            (314,378)          93,201
Ships and Vessels                                                           15-25          1,949,078         (1,716,857)         232,221
Small Boats                                                                 10-18            23,980             (17,082)            6,898
Construction-in-Progress                                                      NA           3,361,052                   -        3,361,052
Other Miscellaneous Property                                                  NA              8,664               (7,021)           1,643
Total                                                                                    $29,587,917       $(15,847,410)      $13,740,507

The FAA is currently developing and testing the En Route Automation Modernization (ERAM) system to upgrade the management
of air traffic in the en route airspace and to enable the implementation of certain NextGen capabilities. As of September 30, 2012,
construction in progress includes $2.11 billion related to the ERAM system.

While the deployment schedule for ERAM is not finalized and will depend upon results of continued testing of the system, FAA ex-
pects to deploy the ERAM system at 20 air route traffic control centers over the next several years. When fully deployed and
operational, the ERAM system will replace three legacy air traffic systems currently being depreciated over service lives ranging
from 5 to 20 years.

The net acquisition cost of the three air traffic legacy systems in use at September 30, 2012, and September 30, 2011, was unchanged
at $2.14 billion with a net book value of $634 million and $745 million, respectively. Depreciation on these air traffic legacy systems
was $111 million and $121 million in FY 2012 and 2011, respectively. As the ERAM deployment schedule becomes more certain,
FAA will re-evaluate the remaining service lives of the legacy air traffic systems and their estimated value at disposal. Adjustments
will then be made to the DOT accounting records in accordance with applicable accounting standards.



76      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 9. STEWARDSHIP PROPERTY,                                         Washington’s Union Station is an elegant and unique turn-of-the-
PLANT AND EQUIPMENT                                                   century rail station in which a wide variety of elaborate, artistic
                                                                      workmanship characteristic of the period is found. Union Station
PERSONAL PROPERTY HERITAGE ASSETS                                     is listed on the National Register of Historic Places. The station
Implied within the Maritime Administration’s mission is the           consists of the renovated original building and a parking garage,
promotion of the nation’s rich maritime heritage. One aspect          which was added by the National Park Service.
of this entails the collection, maintenance, and distribution of
maritime artifacts removed from agency-owned ships prior to           The Nuclear Ship Savannah is the world’s first nuclear-powered
their disposal. As ships are assigned to a non-retention status,      merchant ship. It was constructed as a joint project of the Mari-
artifact items are collected, inventoried, photographed, and          time Administration and the Atomic Energy Commission (AEC)
relocated to secure shore-side storage facilities. This resulting     as a signature element of President Eisenhower’s “Atoms for
inventory is made available on a long-term loan basis to qualified    Peace” program. In 1965, the AEC issued a commercial operat-
organizations for public display purposes.                            ing license and ended its participation in the joint program. The
                                                                      ship remains licensed and regulated by the U.S. Nuclear Regu-
MARAD artifacts and other collections are generally on loan           latory Commission (NRC) (successor to the AEC). The Nuclear
to single purpose memorialization and remembrance groups,             Ship Savannah is listed on the National Register of Historic
such as AMVets and preservation societies. MARAD maintains            Places. The ship is a boldly-styled passenger/cargo vessel
a web-based inventory system that manages the artifact loan           powered by a nuclear reactor.
process. The program also supports required National Historical
Preservation Act processing prior to vessel disposal. Funding for     Actions taken by the Maritime Administration since FY 2006
the maintenance of heritage items is typically the responsibility     have stabilized the ship and rehabilitated portions of its interior
of the organization requesting the loan of a heritage asset. The      for work-day occupancy by staff and crew. The ship is currently
artifacts and other collections are composed of ships’ operating      located in Baltimore, MD, where it is being prepared for
equipment obtained from obsolete ships. The ships are inoper-         continued “SAFSTOR” (the NRC method of preparing nuclear
ative and in need of preservation and restoration. As all items       facilities for storage and decontamination) retention under the
are durable and restorable, disposal is not a consideration. The      provisions of its NRC license.
artifacts and other collections are removed from inventory when
destroyed while on loan. The table below shows the number             The Maritme Administration also has twelve buildings that
of physical units added and withdrawn at September 30, 2012.          encircle the central quadrangle of the U.S. Merchant Marine
                                                                      Academy and the William S. Barstow house, which are eligible
REAL PROPERTY HERITAGE ASSETS                                         for listing on the National Register of Historic Places.
Washington’s Union Station support DOT’s mobility mission,
facilitating the movement of intercity and commuter rail passengers
through the Washington DC metropolitan area. The Federal
Railroad Administration (FRA) has an oversight role in the
management of Washington’s Union Station. FRA received title
through legislation, and sublets the property to Union Station
Venture Limited which manages the property.


HERITAGE ASSETS
                                        UNITS AS OF 9/30/2011            ADDITIONS            WITHDRAWALS          UNITS AS OF 9/30/12

 PERSONAL PROPERTY
Artifacts                                                      584                131                       (15)                       700
Other Collections                                            11,091              2,037                   (6,288)                     6,840



 TOTAL PERSONAL PROPERTY
Heritage Assets                                              11,675              2,168                   (6,303)                      7,540




77    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
                                                                                                             Liabilities Not Covered by
NOTE 10. LIABILITIES NOT COVERED BY                                                              Budgetary Resources at September 30
BUDGETARY RESOURCES
                                                                                                                      2012              2011
Liabilities Not Covered by Budgetary Resources are those              INTRAGOVERNMENTAL
liabilities that Congressional action is needed before budgetary     Other Liabilities                             $628,524          $545,975
resources can be provided. Intragovernmental Liabilities are           Total Intragovernmental                      628,524           545,975
those liabilities that are with other governmental entities.
                                                                     Federal Employee Benefits Payable             1,019,076           978,918
                                                                     Environmental and Disposal                    1,010,818         1,068,076
                                                                     Liabilities (Note 13)

                                                                     Other Liabilities                              752,946
           811,775
                                                                       Total Liabilities Not Covered by            3,411,364         3,404,744
                                                                       Budgetary Resources

                                                                       Total Liabilities Covered by               14,624,761
       14,964,228
                                                                       Budgetary Resources
                                                                       Total Liabilities                         $18,036,125       $18,368,972




NOTE 11. DEBT
�
                                                                           Debt activities during fiscal year ended September 30
                                                         2011
                                                    BEGINNING         2011 NET             2011 ENDING          2012 NET        2012 ENDING
                                                     BALANCE        BORROWING                 BALANCE         BORROWING            BALANCE

 INTRAGOVERNMENTAL DEBT
  Debt to the Treasury                                 $3,075,730       $1,265,899                4,341,629        $851,033         $5,192,662
  Debt to the Federal Financing Bank                        1,709             (472)                   1,237            (301)              936
Total Intragovernmental Debt                           $3,077,439      $1,265,427                $4,342,866        $850,732         $5,193,598


In accordance with Credit Reform Accounting, DOT borrows from the U.S. Treasury when cash is needed in its financing accounts.
Borrowings are needed to transfer the credit subsidy related to downward re-estimates from the financing account to the receipt
account or when available cash is less than claim payments.

During fiscal year 2012, DOT’s U.S. Treasury borrowings carried interest rates ranging from .13 percent to 7.19 percent. The maturity
dates for these borrowings occur from October 2012 to September 2051. Loans may be repaid in whole or in part without penalty at
any time. The borrowing from the Federal Financing Bank has an interest rate of 6.4% and matures in May 2015. Borrowings from
the U.S. Treasury and the Federal Financing Bank are considered covered by budgetary resources as no congressional action is
necessary to pay the debt.




78    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 12. FEDERAL EMPLOYEE                                              NOTE 13. ENVIRONMENTAL AND
BENEFITS PAYABLE                                                       DISPOSAL LIABILITIES
                                            2012              2011                                                 2012              2011
Expected Future Liability for FECA      $1,019,076         $978,918     PUBLIC
                                                                       Environmental Remediation                $613,448          $597,629
FEDERAL EMPLOYEES COMPENSATION ACT (FECA)
                                                                       Asset Disposal                            397,370           470,447
The FECA provides income and medical cost protection to
                                                                       Total Public                            $1,010,818        $1,068,076
covered Federal civilian employees injured on the job, to
employees who have incurred work-related occupational
diseases, and to beneficiaries of employees whose deaths are           ENVIRONMENTAL REMEDIATION
attributable to job-related injuries or occupational diseases. The     Environmental remediation generally occurs under the Resource
FECA program is administered by the U.S. Department of Labor           Conservation and Recovery Act of 1976 (RCRA), the Compre-
(DOL), which pays valid claims and subsequently seeks                  hensive Environmental Response, Compensation and Liability
reimbursement from DOT for these paid claims.                          Act of 1980 (CERCLA or Superfund), or the Toxic Substances
The FECA liability consists of two components. The first               Control Act (TSCA). Environmental remediation includes the
component is based on actual claims paid by DOL but not yet            fuel storage tank program, fuels, solvents, industrial, and chem-
reimbursed by DOT. DOT reimburses DOL for the amount of the            icals, and other environmental cleanup activities associated with
actual claims as funds are appropriated for this purpose. There        normal operations or the result of an accident. Estimating the
is generally a two-year lag between payment by DOL and reim-           Department’s cost estimates for environmental cleanup and asset
bursement by DOT. As a result, DOT recognizes a liability for          disposal liabilities requires making assumptions about future
the actual claims paid by DOL and to be reimbursed by DOT.             activities and is inherently uncertain. These liabilities are
                                                                       not adjusted for inflation and are subject to revision as a result
The second component is the estimated liability for future benefit     of changes in technology and environmental laws and regulations.
payments as a result of past events. This liability includes death,
disability, medical, and miscellaneous costs. DOL determines           As of September 30, 2012 and 2011, DOT’s environmental
this component annually, as of September 30, using a method            remediation liability primarily includes the removal of contaminants
that considers historical benefit payment patterns, wage infla-        on the Nuclear Ship Savannah and remediation at various sites
tion factors, medical inflation factors, and other variables. DOT      managed by the FAA and MARAD. In addition to the amount
recognizes an unfunded liability to DOL for these estimated            recorded and disclosed, there is a foreseeable environmental
future payments. The projected annual benefit payments are             liability related to a site with MARAD and numerous other
discounted to present value using OMB’s economic assumptions           external parties, where the loss is probable and the estimate
for 10-year Treasury notes and bonds. To provide for the effects       cannot be determined. There were no amounts recorded
of inflation on the liability, wage inflation factors (i.e., cost of   related to the MARAD site.
living adjustments) and medical inflation factors (i.e., consumer
price index medical adjustments) are applied to the calculation        ASSET DISPOSAL
of projected future benefit payments. These factors are also used      The National Maritime Heritage Act requires that MARAD
to adjust historical benefit payments to current-year constant         dispose of certain merchant vessels owned by the U.S. Government,
dollars. A discounting formula is used to recognize the timing of      including non-retention ships in the Fleet. Residual fuel, asbes-
benefit payments as 13 payments per year rather than an annual         tos, and solid polychlorinated biphenyls (PCB) sometimes exist
lump sum.                                                              onboard MARAD’s non-retention ships. Non-retention ships are
                                                                       those MARAD vessels that no longer have a useful application and
In addition, Other Liabilities (Note 15) includes $221,841             are pending disposition. The asset disposal liability at September
and $223,842 at September 30, 2012 and 2011, respectively, for         30, 2012, includes the estimated cost of disposing 121 ships. In
intragovernmental FECA liabilities representing amounts billed         addition, FAA records an asset disposal liability upon the decom-
to DOT by the DOL for FECA payments made on DOT’s behalf.              missioning of an asset to cover preparatory costs required to meet
                                                                       regulatory standards allowing for the safe disposition of the asset.




79    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 14. GRANT ACCRUAL
The grant accrual consists of an estimate of grantee expenses
incurred but not yet paid by DOT. Grantees primarily include
state and local governments and transit authorities.

               Grant accruals by DOT Operating Administrations
                                              at September 30
                                              2012            2011
Federal Highway Administration            $4,193,169      $4,456,561
Federal Transit Administration             1,297,590       1,331,012
Federal Aviation Administration             640,646         653,432
Other                                       184,284          119,750
Total Grant Accrual                       $6,315,689      $6,560,755



NOTE 15. OTHER LIABILITIES
�
                                                                                           Other Liabilities as of September 30, 2012
                                                                           NON-CURRENT                   CURRENT                     TOTAL
 INTRAGOVERNMENTAL
Advances and Prepayments                                                             $256,725              $1,296,796              $1,553,521
Accrued Pay and Benefits                                                                    -                135,401                 135,401
FECA Billings (Note 12)                                                               123,890                  97,951                221,841
Uncleared Disbursements and Collections                                                     -                  2,868                   2,868
Other Accrued Liabilities                                                              24,410                349,295                 373,705
Total Intragovernmental                                                              $405,025              $1,882,311             $2,287,336


 PUBLIC
Other Accrued Unbilled Payments                                                            $-                 $27,815                $27,815
Advances and Prepayments                                                                    -                138,837                 138,837
Accrued Pay and Benefits                                                               65,264                 951,914               1,017,178
Deferred Credits                                                                            -                  47,821                  47,821
Legal Claims (Note17)                                                                       -                 34,634                  34,634
Capital Leases (Note 16)                                                               73,452                   9,490                 82,942
Other Custodial Liability                                                                   -                   1,179                   1,179
Other Accrued Liabilities                                                                   -                  22,376                 22,376
Total Public                                                                         $138,716              $1,234,066             $1,372,782


The Federal Transit Administration (FTA) received $2.75 billion from Federal Emergency Management Agency (FEMA) in FY 2003
to rebuild parts of the transit system that were destroyed during the World Trade Center attacks on September 11, 2001. The $257
million of Non Current Intragovernmental Governmental Advances and Prepayments is the remaining portion and expected to be
paid out as the project progresses. The current portion of the advances and prepayments for this same project is approximately $914 million.




80      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 15, CONT’D

                                                                                    Other Liabilities as of September 30, 2011
                                                                           NON-CURRENT            CURRENT               TOTAL
 INTRAGOVERNMENTAL
Advances and Prepayments                                                           $1,165,850        $740,608         $1,906,458
Accrued Pay and Benefits                                                                    -          101,372           101,372
FECA Billings (Note 12)                                                              124,687            99,155          223,842
Uncleared Disbursements and Collections                                                     -             119               119
Other Accrued Liabilities                                                             43,754          285,756            329,510
Total Intragovernmental                                                           $1,334,291        $1,227,010        $2,561,301


 PUBLIC
Other Accrued Unbilled Payments                                                           $-          $53,487           $53,487
Advances and Prepayments                                                                    -         144,630           144,630
Accrued Pay and Benefits                                                             115,706          884,199           999,905
Deferred Credits                                                                            -            2,221             2,221
Legal Claims (Note 17)                                                                      -          66,537            66,537
Capital Leases (Note 16)                                                              84,933            21,379           106,312
Other Custodial Liability                                                                   -           40,144            40,144
Other Accrued Liabilities                                                              13,769          63,381             77,150
Total Public                                                                        $214,408        $1,275,978        $1,490,386




81    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 16. LEASES                                                         NOTE 17. COMMITMENTS AND
                                                                        CONTINGENCIES
ENTITY AS LESSEE:                Capital Leases at September 30
                                            2012             2011       LEGAL CLAIMS
                                                                        As of September 30, 2012 and 2011, DOT’s contingent liabil-
SUMMARY OF ASSETS UNDER CAPITAL                                         ities, in excess of amounts accrued (Note 15), for asserted and
LEASE BY CATEGORY                                                       pending legal claims with a reasonably possible of loss were
Land, Buildings & Machinery               $126,629        $184,777      estimated at $117.7 million and $86.6 million, respectively. DOT
Software                                     1,032                  -   does not have material amounts of known unasserted claims. As
Accumulated Amortization                   (49,902)         (90,139)    of September 30, 2012 and 2011, DOT’s contingent liabilities
Net Assets Under Capital Lease            $77,759          $94,638      for asserted and pending legal claims with a probable loss were
                                                                        estimated at $35 million and $67 million, respectively.
FUTURE PAYMENTS DUE
                                                                        GRANT PROGRAMS
 FISCAL YEAR
                                                                        FHWA pre-authorizes states to establish construction budgets
2013                                                         $9,046     without having received appropriations from Congress for such
2014                                                          8,906     projects. FHWA does not guarantee the ultimate funding to the
2015                                                          8,867     states for these “Advance Construction” projects and, accordingly,
2016                                                          8,639     does not obligate any funds for these projects. When funding
                                                                        becomes available to FHWA, the states can then apply for
2017                                                          8,640
                                                                        reimbursement of costs that they have incurred on such projects,
2018+                                                        70,601
                                                                        at which time FHWA can accept or reject such requests. For
Total Future Lease Payments                               $114,699      the fiscal year ended September 30, 2012 and 2011, FHWA has
                                                                        pre-authorized $44.3 billion and $41.4 billion, respectively, under
Less: Imputed Interest                                       31,757     these arrangements. These commitments have not been recognized
Net Capital Lease Liability                                $82,942      in the DOT consolidated financial statements at September 30,
                                                                        2012 and 2011.
The capital lease payments disclosed above primarily relate to
FAA and are authorized to be funded annually as codified in             FTA executes Full Funding Grant Agreements (FFGAs) under
the United States Code - Title 49 - Section 40110(c)(1) which           its Capital Investment Program (New Starts) authorizing transit
addresses general procurement authority. The remaining principal        authorities to establish project budgets and incur costs with their
payments are recorded as unfunded lease liabilities. The imputed        own funds in advance of Congress appropriating New Starts
interest is funded and expensed annually.                               funds to the project. As of September 30, 2012, and September
                                                                        30, 2011, FTA had approximately $1.96 billion and $1.6 billion
OPERATING LEASES: FUTURE PAYMENTS DUE                                   respectively, in funding commitments under FFGAs, which
                                                                        Congress had not yet appropriated. Congress must first provide
                                                           LAND,
                                                      BUILDINGS,        the budget authority (appropriations) to allow FTA to incur
                                                      MACHINERY         obligations for these programs. Until Congress appropriates
 FISCAL YEAR                                            & OTHER
                                                                        funds, FTA is not liable to grantees for any costs incurred.
2013                                                      $278,773      There is no liability related to these commitments reflected in
2014                                                        216,915     the DOT consolidated financial statements at September 30,
2015                                                        195,301     2012 and 2011.
2016                                                       173,854
2017                                                        160,182
                                                                        FAA’s Airport Improvement Program provides grants for the
                                                                        planning and development of public-use airports that are included
2018+                                                      585,643
                                                                        in the National Plan of Integrated Airport Systems. Eligible proj-
Total Future Lease Payments                              $1,610,668     ects generally include improvements related to enhancing airport
                                                                        safety, capacity, security, and environmental concerns. FAA’s
Operating lease expenses incurred were $325.2 million and
                                                                        share of eligible costs for large and medium primary hub airports
$294.9 million for the years ended September 30, 2012 and
                                                                        is 75 percent with the exception of noise program implemen-
2011, respectively, including General Services Administration
                                                                        tation, which is 80 percent of the eligible costs. For remaining
(GSA) leases that have a short termination privilege; however,
                                                                        airports (small primary, reliever, and general aviation airports)
DOT intends to remain in the leases. Estimates of the lease ter-
                                                                        FAA’s share is 95 percent of the eligible costs.
mination dates are subjective, and any projection of future lease
payments would be arbitrary.




82      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
FAA has authority under 49 U.S.C. 47110(e) to issue letters           liability and vessel’s crew. The Department of Defense has fully
of intent to enter into Airport Improvement Program grant             indemnified MARAD for any losses arising out of the non-pre-
agreements. FAA records an obligation when a grant is awarded.        mium insurance. There have been no losses and no claims are
As of September 30, 2012, FAA had letters of intent extending         outstanding for this non-premium insurance. There is approximately
through FY 2028 totaling $7.4 billion. As of September 30, 2012,      $47 million in the Marine War Risk Insurance fund to reimburse
FAA had obligated $5.8 billion of this total amount, leaving $1.6     operators that may be covered by premium insurance in future
billion unobligated. As of September 30, 2011, FAA had letters        periods. MARAD has not issued premium War Risk Insurance
of intent extending through FY 2026 totaling $7.5 billion. As of      in approximately 20 years. MARAD would have to request
September 30, 2011, FAA had obligated $5.5 billion of this total      Presidential authority to write any premium insurance, and no
amount, leaving $2 billion unobligated.                               such request is pending at this time.

AVIATION INSURANCE PROGRAM                                            ENVIRONMENTAL LIABILITIES
FAA is authorized to issue hull and liability insurance under the     As of September 30, 2012, FAA has estimated contingent liabili-
Aviation Insurance Program for air carrier operations for which       ties, categorized as reasonably possible of $190.2 million related
commercial insurance is not available on reasonable terms and         to environmental remediation. Contingency costs are defined
when continuation of U.S. flag commercial air service is necessary    for environmental liabilities as those costs that may result from
in the interest of air commerce, national security, and the foreign   incomplete design, unforeseen and unpredictable conditions, or
policy of the United States. FAA may issue non-premium insurance      uncertainties within a defined project scope.
and premium insurance for which a risk-based premium is
charged to the air carrier, to the extent practical.                  NATIONAL RAILROAD PASSENGER SERVICE
                                                                      CORPORATION (AMTRAK)
During FY 2012, FAA provided premium war-risk insurance               The United States and the Department are not at risk if Amtrak
to 53 airlines. For these airlines, combined hull and liability       fails and they do not guarantee the indebtedness of Amtrak,
per occurrence coverage limits range from $100 million to $4          whose debt is secured primarily by assets of the corporation.
billion. FAA also provided non-premium war-risk insurance to          Amtrak has been operating with an accumulated deficit and is
37 carriers with 2,387 aircraft for Department of Defense charter     dependent upon appropriations from Congress to continue opera-
operations for Central Command.                                       tions. Amtrak has been receiving federal funds from Congress
                                                                      through the Department since approximately 1972. For FY 2012
As of September 30, 2012, there are pending aviation insurance        and FY 2011, the Department issued grants to Amtrak for $1.7
claims in the amount of $10 million. There is approximately $1.8      billion and $2 billion, respectively. These grants were for both
billion available in the Aviation Insurance Revolving Fund to pay     operating and capital improvements. Refer to Note 1W
claims to carriers covered by premium insurance. If premium           (Significant Accounting Policies) for additional information.
insurance claims should exceed that amount, additional funding
could be appropriated from the General Fund. The Department of        HURRICANE SANDY DISASTER RELIEF
Defense and State Department have agreed to pay claims to the         In October 2012, Hurricane Sandy significantly impacted certain
carriers covered by non-premium insurance.                            areas within the northeastern United States. Currently, DOT, in
                                                                      conjunction with other federal entities, is assessing the estimated
MARINE WAR RISK INSURANCE PROGRAM                                     financial impact of the affected areas. DOT is expecting states
MARAD is authorized to issue hull and liability insurance under       impacted by Hurricane Sandy to apply for emergency relief in the
the Marine War Risk Insurance Program for vessel operations for       near future, however; the amounts are unknown as of the date of
which commercial insurance is not available on reasonable terms       this report.
and conditions, when the vessel is considered to be in the interest
of national defense or national economy of the United States.         Additional commitments are discussed in Note 6,
MARAD may issue (1) premium based insurance for which a               Direct Loans and Loan Guarantees, Non-Federal
risk based premium is charged and (2) non-premium insurance           Borrowers, and Note 16, Leases.
for vessels under charter operations for the Military Sealift
Command.

During FY 2012, MARAD wrote non-premium war risk insurance
with a total coverage of $448.5 million for six companies on
six vessels and the coverage ranges from $64 million to $83
million to cover hull liability and vessel’s crew. During FY 2011,
MARAD wrote non-premium war risk insurance with a total cov-
erage of $448.5 million for six companies on six vessels and the
coverage ranges from $52 million to $84.5 million to cover hull



83   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 18. EARMARKED FUNDS	�                                               OTHER EARMARKS:
DOT administers certain earmarked funds, which are specifically           ▶	 Aviation Insurance Revolving Fund
identified revenues, often supplemented by other financing sourc-
                                                                          ▶	 Pipeline Safety
es, that remain available over time. Descriptions of the significant
earmarked funds are as follows:                                           ▶	 Emergency Preparedness Grant

                                                                          ▶	 Aviation User Fees
HIGHWAY TRUST FUND
The Highway Trust Fund (HTF) comprises the Highway Corpus                 ▶	 Aviation Operations
Trust Fund and certain accounts of the Federal Highway Admin-
                                                                          ▶	 Grants-in-Aid for Airports
istration, Federal Motor Carrier Safety Administration, Federal
Transit Administration, Federal Railroad Administration, and the          ▶	 Aviation Facilities and Equipment
National Highway Traffic Safety Administration. The HTF was
                                                                          ▶	 Aviation Research, Engineering and Development
created in 1956 by the Highway Revenue Act of 1956 with the
main objective of funding the construction of the Dwight D.               ▶	 Essential Air Service and Rural Airport Improvement Fund
Eisenhower System of Interstate and Defense Highways. Over
                                                                          ▶	 University Transportation Centers
the years, the use of the fund has been expanded to include mass
transit and other surface transportation programs such as high-           ▶	 Contributions for Highway Research Program
way safety and motor carrier safety programs.
                                                                          ▶	 Cooperative Work, Forest Highways
Overall, there are 76 separate treasury symbols in the HTF.
                                                                          ▶	 Safety of Cross-Border Trucking Between the United States
HTF’s programs and activities are primarily financed from excise              and Mexico
taxes collected on specific motor fuels, truck taxes, and fines and
                                                                          ▶	 Payment to Air Carriers
penalties. The Highway Revenue Act of 1982 established two
accounts within the HTF, the Highway Account and the Mass                 ▶	 Right of Way Revolving Fund Program Account
Transit Account.
                                                                          ▶	 Alaska Pipeline Task Force, Oil Spill Liability Trust Fund

AIRPORT AND AIRWAY TRUST FUND                                             ▶	 Right-of-Way Revolving Fund Trust Fund
The Airport and Airway Trust Fund (AATF) was authorized by
                                                                          ▶	 Technical Assistance, United States Dollars Advanced from
the Airport and Airway Revenue Act of 1970 to provide funding
                                                                              Foreign Governments
for the Federal commitment to the nation’s aviation system.
                                                                          ▶	 Gifts and Bequests, Maritime Administration
Funding currently comes from several aviation, related excise
                                                                          ▶	 Special Studies, Services and Projects
tax collections from passenger tickets, passenger flight segments,
international arrivals/departures, cargo waybills, and aviation fuels.    ▶	 Gifts and Bequests, DOT Office of the Secretary

                                                                          ▶	 Equipment, Supplies, etc., for Cooperating Countries
MASS TRANSIT ACCOUNT
In FY 2005 and prior, FTA’s formula and bus grant programs
were funded 80 percent by certain excise tax revenues and 20
percent from the Treasury general receipts account. These funds          For the years ended September 30, 2012 and 2011, respectively,
are considered earmarks but not reported as part of the HTF.             earmarked funds are summarized in the following charts.
                                                                         Intra-agency transactions have not been eliminated in the
Safe, Accountable, Flexible, Efficient Transportation Equity             amounts presented.
Act: A Legacy for Users (SAFETEA-LU) legislation (PL 109-
59) changed the way FTA programs are funded. Beginning in
FY 2006, the FTA formula and bus grant programs are funded
100 percent by the HTF. On July 6, 2012, the President signed
PL112-141 Moving Ahead Progress in the 21st Century (MAP-21),
which provides current SAFETEA-LU programs and funding
through September 30, 2012.

The following is a list of other earmarked funds for which the
DOT has program management responsibility:




84   U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 18, CONT’D


                                                                                             Balance Sheet as of September 30, 2012
                                                                                                                                 FY 2012
                                                                               AIRPORT                           OTHER             TOTAL
                                                            HIGHWAY           & AIRWAY           MASS        EARMARKED       EARMARKED
                                                         TRUST FUND         TRUST FUND         TRANSIT           FUNDS            FUNDS
 ASSETS
Fund Balance with Treasury                                    $4,954,662        $442,965         $546,897       $2,596,036      $8,540,560
Investments, Net                                                9,970,201      10,473,786               -        1,886,665       22,330,652
Accounts Receivable, Net                                           17,391               -             809        4,660,338        4,678,538
Property, Plant & Equipment                                      162,686                -               -        3,721,693        3,884,379
Other                                                            271,608                -             766          285,616          557,990
Total Assets                                                 $15,376,548      $10,916,751        $548,472      $13,150,348      $39,992,119


 LIABILITIES AND NET POSITION
Accounts Payable                                                 $88,441       $4,532,545              $-        $416,722        $5,037,708
FECA Liabilities                                                  27,943                -               -        1,152,896        1,180,839
Grants Accrual                                                  4,976,013               -          20,067         640,646         5,636,726
Other Liabilities                                                 215,117               -           1,445        1,042,875        1,259,437
Unexpended Appropriations                                               -               -          38,446        1,070,483        1,108,929
Cumulative Results of Operations                              10,069,034        6,384,206         488,514        8,826,726       25,768,480
Total Liabilities and Net Position                           $15,376,548      $10,916,751        $548,472      $13,150,348      $39,992,119


 STATEMENT OF NET COST                                                                      FOR THE PERIOD ENDED SEPTEMBER 30, 2012
Program Costs                                                 $49,731,576             $-         $164,208      $15,327,141      $65,222,925
Less: Earned Revenue                                              131,146               -               -         638,791           769,937
Net Program Costs                                             49,600,430                -         164,208       14,688,350       64,452,988

Costs Not Attributable to Programs                                      -               -               -         196,345           196,345

Net Cost of Operations                                       $49,600,430              $-         $164,208      $14,884,695      $64,649,333


 STATEMENT OF CHANGES IN NET POSITION                                                       FOR THE PERIOD ENDED SEPTEMBER 30, 2012
Beginning Net Position                                       $16,964,550       $5,092,201        $690,431       $9,213,093      $31,960,275
Budgetary Financing Sources                                   42,646,717        1,292,005             737       16,029,630       59,969,089
Other Financing Sources                                           58,197                -               -        (460,819)        (402,622)
Net Cost of Operations                                        49,600,430                -         164,208       14,884,695       64,649,333
Change in Net Position                                        (6,895,516)       1,292,005        (163,471)         684,116      (5,082,866)
Net Position End of Period                                   $10,069,034       $6,384,206        $526,960       $9,897,209      $26,877,409




85      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 18, CONT’D


                                                                                          Balance Sheet as of September 30, 2011
                                                                                                                              FY 2011
                                                                      AIRPORT                                 OTHER             TOTAL
                                                           HIGHWAY   & AIRWAY                MASS         EARMARKED       EARMARKED
                                                        TRUST FUND TRUST FUND              TRANSIT            FUNDS            FUNDS
 ASSETS
Fund Balance with Treasury                                   $5,335,210       $921,692       $717,292        $2,729,655       $9,703,849
Investments, Net                                             16,301,908      8,685,715                -       1,694,435       26,682,058
Accounts Receivable, Net                                         31,287              -            1,593       4,616,109        4,648,989
Property, Plant & Equipment                                     154,188              -                -      3,244,084         3,398,272
Other                                                           313,046              -             883          309,701          623,630
Total Assets                                                $22,135,639     $9,607,407       $719,768       $12,593,984      $45,056,798


 LIABILITIES AND NET POSITION
Accounts Payable                                               $207,813     $4,515,206         $1,444         $520,215         5,244,678
FECA Liabilities                                                 25,761              -                -       1,122,378        1,148,139
Grants Accrual                                                4,747,416              -         27,893          663,812         5,439,121
Other Liabilities                                               190,099              -                -       1,074,486        1,264,585
Unexpended Appropriation                                              -              -         45,100         1,082,500        1,127,600
Cumulative Results of Operations                             16,964,550      5,092,201        645,331         8,130,593       30,832,675
Total Liabilities and Net Position                          $22,135,639     $9,607,407       $719,768       $12,593,984      $45,056,798


 STATEMENT OF NET COST                                                                   FOR THE PERIOD ENDED SEPTEMBER 30, 2011
Program Costs                                              $45,216,344             $-        $194,847       $15,748,110      $61,159,301

Less Earned Revenue                                             121,766              -                -        574,584           696,350

Net Program Costs                                            45,094,578              -        194,847        15,173,526       60,462,951

Costs Not Attributable to Programs                                    -              -                -        201,448           201,448

Net Cost of Operations                                      $45,094,578            $-        $194,847       $15,374,974      $60,664,399


 STATEMENT OF CHANGES IN NET POSITION                                                    FOR THE PERIOD ENDED SEPTEMBER 30, 2011
Beginning Net Position                                      $25,088,216     $4,473,264       $885,278        $8,587,051      $39,033,809
Budgetary Financing Sources                                  36,949,333        618,937                -      16,137,237       53,705,507
Other Financing Sources                                          21,579              -                -       (136,221)        (114,642)
Net Cost of Operations                                       45,094,578              -        194,847        15,374,974      60,664,399
Change in Net Position                                       (8,123,666)       618,937       (194,847)         626,042        (7,073,534)
Net Position End of Period                                  $16,964,550     $5,092,201       $690,431        $9,213,093      $31,960,275




86      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 19. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUES
�
                                                                                       For the period ended September 30, 2012
                                                   INTRA-GOVERNMENTAL               WITH THE PUBLIC                     TOTAL

SURFACE TRANSPORTATION
Federal-Aid Highway Program:
  Gross Costs                                                      $159,178                  $39,992,665             $40,151,843
  Less: Earned Revenue                                              35,555                          50,769               86,324
     Net Program Costs                                             123,623                    39,941,896              40,065,519
Mass Transit Program
  Gross Costs                                                        37,034                   12,032,237              12,069,271
  Less: Earned Revenue                                             366,209                             640              366,849
     Net Program Costs                                            (329,175)                   12,031,597              11,702,422
Other Surface Transportation Programs:
  Gross Costs                                                      402,540                        8,365,153            8,767,693
  Less: Earned Revenue                                             376,458                         396,478              772,936
  Net Program Costs                                                 26,082                        7,968,675            7,994,757
Total Surface Transportation Program Costs                        (179,470)                   59,942,168              59,762,698


AIR TRANSPORTATION
Gross Costs                                                       2,605,520                   14,026,980              16,632,500
Less: Earned Revenue                                               258,871                         369,296               628,167
Net Program Costs                                                 2,346,649                   13,657,684              16,004,333

MARITIME TRANSPORTATION
Gross Costs                                                         174,211                         711,907              886,118
Less: Earned Revenue                                               352,093                          40,506              392,599
Net Program Costs                                                 (177,882)                        671,401              493,519

CROSS-CUTTING PROGRAMS
Gross Costs                                                          56,674                        590,653               647,327
Less: Earned Revenue                                               251,386                           4,483              255,869
Net Program Costs                                                 (194,712)                        586,170              391,458


Costs not assigned to programs                                       49,566                        346,492              396,058
Less: Earned Revenues not attributed to programs                     15,755                         (4,242)               11,513
Net Cost of Operations                                           $1,828,396                  $75,208,157             $77,036,553




87      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 19, CONT’D


                                                                                         For the Period Ended September 30, 2011
                                                   INTRA-GOVERNMENTAL                WITH THE PUBLIC                      TOTAL

SURFACE TRANSPORTATION
Federal-Aid Highway Program
  Gross Costs                                                       $205,979                   $36,529,322             $36,735,301
  Less: Earned Revenue                                                33,814                         49,587                 83,401
     Net Program Costs                                               172,165                    36,479,735              36,651,900
Mass Transit Program
  Gross Costs                                                         54,811                    11,998,065              12,052,876
  Less: Earned Revenue                                               331,763                         44,372                376,135
     Net Program Costs                                             (276,952)                    11,953,693              11,676,741
Other Surface Transportation Programs
  Gross Costs                                                        348,097                    11,989,847              12,337,944
  Less: Earned Revenue                                               170,455                        177,013                347,468
  Net Program Costs                                                  177,642                    11,812,834              11,990,476
Total Surface Transportation Program Costs                            72,855                    60,246,262              60,319,117

AIR TRANSPORTATION
Gross Costs                                                        2,736,750                    14,477,391
              17,214,141
Less: Earned Revenue                                                 253,538                        415,941
               669,479
Net Program Costs                                                  2,483,212                    14,061,450              16,544,662

MARITIME TRANSPORTATION
Gross Costs                                                           91,010                        772,347
               863,357
Less: Earned Revenue                                                 353,465                         25,499
               378,964
Net Program Costs                                                  (262,455)                        746,848                484,393

CROSS-CUTTING PROGRAMS
Gross Costs                                                           45,001                        693,476
               738,477
Less: Earned Revenue                                                 383,278                          7,926
               391,204
Net Program Costs                                                  (338,277)                        685,550                347,273


Cost not assigned to a program                                        77,477                        343,957                421,434
Less: Earned Revenues not attributed to programs                           -                          3,876                  3,876
Net Cost of Operations                                            $2,032,812                   $76,080,191             $78,113,003




88      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L R E P O R T 2012
                                                                       NON-EXCHANGE REVENUE
NOTE 20. EXCISE TAXES AND OTHER
                                                                                                                          2012          2011
NON-EXCHANGE REVENUE
                                                                       HIGHWAY TRUST FUND
The Internal Revenue Service (IRS) collects various excise taxes       Excise Taxes and Other Non-Exchange
that are deposited in the Highway Trust Fund (HTF) and Airport         Revenue
and Airway Trust Fund (AATF). Treasury’s Office of Tax Analysis          Gasoline                                    $25,529,900   $24,986,425
(OTA) estimates the amount collected/revenue recognized                  Diesel and Special Motor Fuels                9,796,891     9,801,522
monthly, and adjusts the estimates to reflect actual collections
                                                                         Trucks                                        5,994,309     3,226,317
quarterly. The IRS submits certificates of actual tax collections
to DOT three months after the quarter-end and, accordingly,              Investment Income                                 7,228        15,812
the DOT financial statements include actual excise tax revenue           Fines and Penalties                              22,103        18,170
certified through June 30, 2012, and excise tax revenue estimates        Total Taxes                                  41,350,431    38,048,246
for the quarter ended September 30, 2012. As a result, total taxes
recognized in the DOT FY 2012 financial statement include the          Less: Transfers                               (1,174,706)   (1,125,811)
OTA estimate of $13.3 billion for the quarter ended September
                                                                       Net Highway Trust Fund Excise Taxes            40,175,725    36,922,435
30, 2012, and the actual amounts certified through June 30, 2012
of $37.4 billion. The total taxes recognized for the fiscal years
ended September 30, 2011 and 2010 include OTA estimates                Other Non-Exchange Revenue                            97           173
which are certified by the IRS in January of the subsequent            Net Highway Trust Fund Excise Taxes & Other    40,175,822    36,922,608
fiscal years, as follows:                                              Non-Exchange Revenue

                         SEPT 30, 2011       SEPT 30, 2010              FEDERAL AVIATION ADMINISTRATION
Actual                         $12,923,016         $13,067,434         Excise Taxes and Other Non-Exchange Revenue
Estimate                        11,618,526          11,578,829           Passenger Ticket                              8,711,445     8,084,593
Under (Over) accrual           $1,304,490           $1,488,605           International Departure                       2,728,594     2,508,289
                                                                         Fuel (Air)                                     622,794       530,572
For the years ended September 30, 2012 and 2011,                         Waybill                                        491,845       426,703
respectively, excise taxes and associated nonexchange                    Investment Income                              244,912        223,011
revenue, which are reported on the Statement of Changes                  Tax Refunds and Credits                        (22,464)       (8,432)
in Net Position, were as follows:                                        Other                                           24,460         21,917

                                                                       Net Federal Aviation Administration Excise     12,801,586    11,786,653
                                                                       Taxes & Other Non-Exchange Revenue
                                                                       Other Miscellaneous Net Non Exchange
                                                                                                                          79,168        91,981
                                                                       Revenue

                                                                       Total Non-Exchange Revenue                    $53,056,576   $48,801,242




89       U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 21. COMBINED STATEMENT OF BUDGETARY RESOURCES
The amount of direct and reimbursable obligations incurred against amounts apportioned under Category A, B, and Exempt From
Apportionment, as defined in OMB Circular A-11, Part 4, Instructions on Budget Execution, are as follows:

                                                                                    2012                                                  2011
                                            DIRECT       REIMBURSABLE             TOTAL             DIRECT      REIMBURSABLE            TOTAL
Category A                                 $6,706,233           $800,786        $7,507,019         $6,111,514           $496,567      $6,608,081
Category B                                 76,800,423           1,923,743       78,724,166         82,022,600           1,341,001     83,363,601
Exempt from apportionment                     48,735              274,826         323,561             78,797             263,058        341,855
Total                                  $83,555,391             $2,999,355      $86,554,746        $88,212,911          $2,100,626    $90,313,537




                                                        2012         2011     EXISTENCE, PURPOSE, AND AVAILABILITY OF
                                                                              PERMANENT INDEFINITE APPROPRIATIONS
Available Contract Authority at year-end         $23,391,628   $26,852,717
                                                                              DOT has permanent indefinite budgetary authority for use in
Available Borrowing Authority at year-end         $1,734,768    $1,356,282
                                                                              their credit programs, that is provided from and more details are
Undelivered Orders at year-end                  $108,814,519   $109,518,183   available in the Federal Credit Reform Act of 1990. This funding
                                                                              is available for re-estimates and interest on re-estimates. DOT’s
The amounts reported for undelivered orders only include                      credit programs are explained in detail in Note 6.
balances obligated for goods and services not delivered and
does not include prepayments.                                                 UNOBLIGATED BUDGETARY RESOURCES
                                                                              Unobligated balances of budgetary resources for unexpired
TERMS OF BORROWING AUTHORITY USED                                             accounts are available in subsequent years until expiration, upon
Under the provisions of the Federal Credit Reform Act of 1990,                receipt of an apportionment from OMB. Unobligated balances
DOT direct loan and loan guarantee programs are authorized to                 of expired accounts are not available. Unobligated balances of
borrow funds from Treasury to support its credit programs. All                budgetary resources that are unapportioned primarily represent
loan drawdowns are dated October 1 of the applicable fiscal year.             contract authority which has no limitation and are not available
Interest is payable at the end of each fiscal year based on activity          for obligation.
for that fiscal year. Principal can be repaid at any time funds
become available. Repayment is effectuated by a combination
of loan recoveries and upward re-estimates.




90      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 21, CONT’D


STATEMENT OF BUDGETARY RESOURCES VS BUDGET OF THE UNITED STATES GOVERNMENT
The reconciliation for the year ended September 30, 2011, is presented below. The reconciliation for the fiscal year ended September
30, 2012, is not presented, because the submission of the Budget of the United States (Budget) for FY 2014, which presents the exe-
cution of the FY 2012 budget, occurs after publication of these financial statements. The U.S. Department of Transportation Budget
Appendix can be found on the OMB website (http://www.gpoaccess.gov/usbudget) and will be available in early February 2013.


                                                                                              DISTRIBUTED
                                                 BUDGETARY             OBLIGATIONS             OFFSETTING
 DOLLARS IN MILLIONS                             RESOURCES               INCURRED                RECEIPTS           NET OUTLAYS
Combined Statement of Budgetary Resources             $140,801                 $90,314                 $(283)                $78,551
  Funds not Reported in the Budget
  Expired Funds                                           (511)                      -                      -                      -
  Undelivered Orders Adjustment                         (1,500)                  (100)
Distributed Offsetting Receipts                              -                       -                   283                    279
Other                                                       (5)                    (6)                      -                      2
Budget of the United States Government                $138,785                 $90,208                    $-                 $78,832



Other differences represent financial statement adjustments, timing differences and other immaterial differences between amounts
reported in the Department’s Statement of Budgetary Resources and the Budget of the United States.

The Undelivered Orders Adjustment of $1.5 billion is caused by a reversal of an adjustment recorded at the end of FY 2010.




91      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 22. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
The objective of this information is to provide an explanation of the differences between budgetary and financial (proprietary)
accounting. This is accomplished by means of a reconciliation of budgetary obligations and non-budgetary resources available to the
reporting entity with its net cost of operations.


                                                                                                     2012                      2011

RESOURCES USED TO FINANCE ACTIVITIES
Budgetary Resources Obligated
  Obligations Incurred                                                                          $86,554,746               $90,313,537
  Less: Spending Authority from Offsetting Collections, Recoveries and Other Changes to
                                                                                                  9,200,514                 8,436,394
  Obligated Balances
  Obligations Net of Offsetting Collections and Recoveries
©                                     77,354,232                81,877,143
  Less: Distributed Offsetting Receipts
©                                                        (2,738,974)                (282,618)
  Net Obligations                                                                                74,615,258                81,594,525
Other Resources
  Donations and Forfeitures of Property                                                             158,117                           -
  Transfers In/Out Without Reimbursement                                                             96,186                   (8,872)
  Imputed Financing From Costs Absorbed by Others                                                   641,782                   818,781
  Other                                                                                           (152,944)                 (277,814)
  Net Other Resources Used to Finance Activities                                                    743,141                  532,095
Total Resources Used to Finance Activities                                                      $75,358,399               $82,126,620

RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF OPERATIONS
Change in Budgetary Resources Obligated for Goods, Services and Benefits Ordered but not yet
                                                                                                 $(735,543)                $2,694,348
Provided
Resources That Fund Expenses Recognized in Prior Periods                                            263,392                  188,689
Credit Program Collections That Increase Liabilities for Loan Guarantees or Allowances for
                                                                                                  (466,944)                 (395,673)
Subsidy
Other/Change in Unfilled Customer Orders                                                            508,098                    23,189
Special Transfers from the U. S. Treasury                                                        (2,471,408)                          -
Anticipated Resources not yet realized                                                                    -                  135,321
Resources That Finance the Acquisition of Assets                                                  3,059,374                 2,984,042
Other Resources or Adjustments to Net Obligated Resources That Do Not Affect Net Cost of
                                                                                                   (168,516)                 (28,227)
Operations
Total Resources Used to Finance Items Not Part of the Net Cost Of Operations                       (11,547)                 5,601,689
                                                                                                $75,369,946               $76,524,931




92    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 22, CONT’D



NOTE 22 (CONT.)
                                                                                                       2012          2011

 COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR GENERATE RESOURCES
 IN THE CURRENT PERIOD
Components Requiring or Generating Resources in Future Periods:
     Increase in Annual Leave Liability                                                               $99,959      $36,563
     Increase in Environment and Disposal Liability                                                    53,010         3,332
     Upward/Downward Re-estimates of Credit Subsidy Expense                                             6,257      (83,330)
     Change in exchange revenue receivable from the public                                            (1,005)      (96,607)
     Change in Other Liabilities                                                                      160,217      166,462
Total Components of Net Cost of Operations That Will                                                 318,438        26,420
Require or Generate Resources in Future Periods
 COMPONENTS NOT REQUIRING OR GENERATING RESOURCES
Depreciation and Amortization                                                                       1,217,178     1,122,529
Revaluation of Assets or Liabilities                                                                    7,907       62,585
Other Expenses and Adjustments not Otherwise Classified Above                                        123,085       376,538
Total Components of Net Cost of Operations That Will Not Require or Generate Resources              1,348,170     1,561,652
Total Components of Net Cost of Operations That Will Not Require or Generate Resources in the
                                                                                                    1,666,608     1,588,072
Current Period
Net Cost of Operations                                                                            $77,036,553   $78,113,003




93      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 23. REPORTING ON DOT AFFILIATED                                 MARAD NON-APPROPRIATED FUND
ACTIVITIES                                                           INSTRUMENTALITY (NAFI)
                                                                     The Non-Appropriated Fund Instrumentalities (NAFI) operate
SAINT LAWRENCE SEAWAY DEVELOPMENT                                    using their own funds generated from the proceeds received
CORPORATION                                                          from various non-governmental sources, rather than appropriated
The U.S. Saint Lawrence Seaway Development Corporation               funds. At DOT, NAFI’s operate as a separate fiscal entity under
(SLSDC), a wholly owned Government corporation and operating         MARAD to provide or assist the U.S. Merchant Marine Academy
administration of the Department, is responsible for the operation   in providing programs and services for students, personnel, and
and maintenance of the U.S. portion of the St. Lawrence Seaway.      authorized civilians from sources other than Congressional
This responsibility includes maintaining and operating two U.S.      appropriations. Although considered Governmental, NAFI cash
locks, controlling vessel traffic, and promoting trade develop-      balances and operating expenses are separate and distinct from
ment activities on the seaway.                                       those recorded in the books of the Federal Government. For the
                                                                     fiscal years September 30, 2012, and September 30, 2011, NAFI
NOTE 23 CONDENSED INFORMATION                                        operating revenues and proceeds from midshipmen fees included
                                               2012         2011     $6.7 million and $7.6 million, respectively.
Cash and Short-Term Time Deposits             $37,410     $33,164
Long-Term Time Deposits                         2,036       1,836
Accounts Receivable                              172          459
Inventories                                      277          274
Other Current Assets                               11          26
Property, Plant and Equipment                  90,734      84,784
Deferred Charges                                4,588       4,242
Other Assets                                     727          514
Total Assets                                 $135,955    $125,299


Current Liabilities                           $4,628       $6,904
Actuarial Liabilities                           4,588       4,242
Total Liabilities                              $9,216     $11,146


Invested Capital                             $105,879     $99,921
Cumulative Results of Operations               20,860      14,232
Total Net Position                            126,739     114,153
Total Liabilities and Net Position           $135,955    $125,299


Operating Revenues                            $25,249     $22,319
Operating Expenses                             21,552      29,987
Operating Income (loss)                         3,697      (7,668)
Other Financing Sources                         2,931       2,781
Operating revenues and other financing
                                                6,628      (4,887)
sources over (under) operating expenses
Beginning cumulative results of operations
                                               14,232       19,119
(deficit)
Ending cumulative results of operations
                                              $20,860     $14,232
(deficit)




94     U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
NOTE 24. FIDUCIARY ACTIVITIES
The Title XI Escrow Fund was authorized pursuant to the Merchant Marine Act of 1936, as amended. The fund was originally 

established to hold guaranteed loan proceeds pending construction of MARAD approved and financed vessels.
	

The Act was recently amended to allow the deposit of additional cash security items such as reserve funds or debt reserve funds. 

Individual shipowners provide funds to serve as security on MARAD guaranteed loans. Funds deposited and invested by MARAD 

remain the property of individual shipowners. In the event of default, MARAD will use the escrow funds to offset 

the shipowners’ debt to the Government.
	

Fund investments are limited to U.S. Government securities purchased by MARAD through the Treasury.
	


SCHEDULE OF FIDUCIARY ACTIVITY                                                                  For the year ended September 30
                                                                                  2012                                        2011
Fiduciary Net Assets, beginning of year                                          $18,845                                     $28,194
Contributions                                                                    596,976                                             -
Investment earnings                                                                 242                                           60
Disbursements to and on behalf of beneficiaries                                (258,957)                                      (9,409)
Increases/(Decreases) in fiduciary net assets                                    338,261                                      (9,349)
Fiduciary net assets, end of year                                               $357,106                                     $18,845


FIDUCIARY NET ASSETS                                                                                          As of September 30
                                                                                  2012                                        2011
Fiduciary Fund Balance with Treasury                                               $291                                        $286
Investments in Treasury Securities                                               353,815                                      18,559
Total Fiduciary Net Assets                                                      $354,106                                     $18,845




95    U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
REQUIRED SUPPLEMENTARY INFORMATION (RSI)
�

DEFERRED MAINTENANCE (Unaudited)
                                                                                                                   2012 COST TO              2011 COST TO
                                                                                                                     RETURN TO                 RETURN TO
 DOT                                                          METHOD OF                           ASSET            ACCEPTABLE                ACCEPTABLE
 ENTITY        MAJOR CLASS OF ASSET                           MEASUREMENT                     CONDITION*           CONDITION**               CONDITION**
FAA           Buildings                                     Condition Assessment Survey                   4&5                $56,166                   $61,607
              Other Structures and Facilities               Condition Assessment Survey                   4&5                243,295                   229,240
              Vessels, Ready Reserve Force (Various
MARAD                                                       Condition Assessment Survey                        2              12,521                      9,753
              Locations)
              Real Property, Buildings (Anchorage)          Condition Assessment Survey                        3                    -                      150
              Real Property, Structure U.S. Merchant
                                                            Condition Assessment Survey                    2&3                 16,110                   20,062
              Marine Academy, NY
              Real Property, Structure U.S. Merchant
                                                            Condition Assessment Survey                    4&5                64,750                    60,750
              Marine Academy, NY
              Other (Fleet Craft)                           Condition Assessment Survey                        3              11,350                     3,254
Total                                                                                                                       $404,192                  $384,816



 *ASSET CONDITION RATING SCALE                         **ACCEPTABLE CONDITION IS
1 Excellent                                          FAA Buildings                         3 Fair
2 Good                                               FAA Other Structures and Facilities   3 Fair
3 Fair                                               MARAD Vessels, Ready Reserve Force    1 Excellent Ships are seaworthy and ready for mission
                                                                                               assignments within prescribed time limits.
4 Poor
                                                     MARAD Real Property, Buildings        3 Fair Buildings are safe and habitable.
5 Very Poor

                                                     MARAD Real Property, Structures       3 Fair Adequate water depth, shore power, and mooring
                                                                                               capabilities.


                                                                                           4 Poor Structure needs major repairs. The majority of the
                                                                                               components are marginally functional or jeopardized.


                                                                                           5 Very Poor Age and/or condition is such that the item should
                                                                                               be replaced or undergo major renovation. Structure is not safe
                                                                                               and is inhabitable.



Deferred Maintenance is maintenance that was not performed when it should have been or was scheduled to be performed and delayed
until a future period. Maintenance is keeping fixed assets in acceptable condition, and includes preventative maintenance, normal
repairs, replacement of parts and structural components, and other activities needed to preserve assets in a condition to provide
acceptable service and to achieve expected useful lives.




96      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
RSI, CONT’D



                                                                                                               For the Period Ended
Combining Statements of Budgetary Resources By Major Account (Unaudited)                                        September 30, 2012
                                                 FEDERAL-
 Dollars in Thousands                                 AID             FAA            FTA       MARAD         ALL OTHER           TOTAL

 BUDGETARY RESOURCES
Unobligated balance brought forward, Oct. 1      $30,728,090     $3,556,211    $10,777,895     $640,840        $4,784,173     $50,487,209
Recoveries of prior year unpaid obligations                -        413,890       205,555          57,652        522,669        1,199,766
Other changes in unobligated balance                       -       (116,841)        (7,127)        (1,427)       (30,699)       (156,094)
Unobligated balance from prior year budget         30,728,090      3,853,260     10,976,323        697,065       5,276,143      51,530,881
authority, net
Appropriations                                         7,382     12,552,370      2,179,126      362,520         4,642,415      19,743,813
Borrowing authority                                        -               -              -        18,000       1,716,768       1,734,768
Contract authority                                38,657,065      3,350,000      9,889,067               -      1,212,831      53,108,963
Spending authority from offsetting collections       192,112      5,969,879         21,118      493,685         1,312,060       7,988,854
Total budgetary resources                        $69,584,649    $25,725,509    $23,065,634    $1,571,270      $14,160,217    $134,107,279



 STATUS OF BUDGETARY RESOURCES
Obligations incurred                             $39,566,993    $22,205,831    $13,010,518     $984,588       $10,786,816     $86,554,746
Unobligated balance, end of year:
     Apportioned                                  14,877,106      1,430,914     10,011,591      304,785         2,547,933      29,172,329
     Exempt from apportionment                             -               -              -         3,812        348,759          352,571
     Unapportioned                                15,140,550      2,088,764        43,525       278,085           476,709      18,027,633
Total unobligated balance, end of year            30,017,656      3,519,678     10,055,116      586,682         3,373,401      47,552,533
Total budgetary resources                        $69,584,649    $25,725,509    $23,065,634    $1,571,270      $14,160,217    $134,107,279




97     U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L R E P O R T 2012
RSI, CONT’D

REQUIRED SUPPLEMENTARY INFORMATION COMBINING STATEMENTS OF BUDGETARY                                                For the Period Ended 

RESOURCES BY MAJOR ACCOUNT (Unaudited)                                                                               September 30, 2012
�
                                                         FEDERAL-
 DOLLARS IN THOUSANDS                                         AID             FAA             FTA     MARAD       ALL OTHER           TOTAL

 CHANGE IN OBLIGATED BALANCES
Unpaid obligations, brought forward, October 1 (gross)   $68,014,555     $9,243,110    $18,716,473    $383,813      $21,547,111   $117,905,062
Uncollected customer payments from Federal sources,
                                                           (430,928)      (288,053)       (58,900)    (155,567)       (497,962)     (1,431,410)
brought forward, October 1
Obligated balance, start of year (net)                    67,583,627      8,955,057     18,657,573     228,246      21,049,149     116,473,652
Obligations incurred                                      39,566,993     22,205,831     13,010,518     984,588      10,786,816      86,554,746
Outlays (gross)                                          (40,119,771)   (21,766,301)   (12,291,099)   (932,409)    (11,796,442)   (86,906,022)
Change in uncollected customer payments from
                                                            (90,231)       (42,652)            737      31,885          59,843         (40,418)
Federal sources
Actual transfers, unpaid obligations (net) (+ or -)                 -              -              -           -         10,000          10,000
Recoveries of prior year unpaid obligations                         -     (413,890)      (205,555)     (57,652)      (522,669)      (1,199,766)
Obligated balance, end of year
     Unpaid obligations, end of year (gross)              67,461,777      9,268,750     19,230,337     378,340      20,024,816     116,364,020
     Uncollected customer payments from Federal
                                                            (521,159)     (330,705)        (58,163)   (123,682)       (438,119)     (1,471,828)
     sources, end of year
Obligated balance, end of year (net)                     $66,940,618     $8,938,045    $19,172,174    $254,658     $19,586,697    $114,892,192


 BUDGET AND AUTHORITY AND OUTLAYS, NET
Budget authority, gross                                  $38,856,559    $21,872,249    $12,089,311    $874,205      $8,884,074     $82,576,398
Actual offsetting collections                              (101,881)     (5,927,228)       (21,854)   (610,572)     (1,531,692)     (8,193,227)
Change in uncollected customer payments from
                                                            (90,231)       (42,652)            737      31,885          59,843         (40,418)
Federal sources
Budget authority, net                                    $38,664,447    $15,902,369    $12,068,194    $295,518      $7,412,225     $74,342,753


Outlays, gross                                           $40,119,771    $21,766,301    $12,291,099    $932,409     $11,796,442     $86,906,022
Actual offsetting collections                              (101,881)     (5,927,228)       (21,854)   (610,572)     (1,531,692)     (8,193,227)
Outlays, net                                              40,017,890     15,839,073     12,269,245     321,837      10,264,750      78,712,795

Distributed offsetting receipts                                     -       (11,559)         (773)     (54,533)     (2,672,109)     (2,738,974)

Agency outlays, net                                      $40,017,890    $15,827,514    $12,268,472    $267,304      $7,592,641     $75,973,821




98      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
RSI, CONT’D


REQUIRED SUPPLEMENTARY INFORMATION COMBINING STATEMENTS OF BUDGETARY RE-                                              For the Period Ended 

SOURCES BY MAJOR ACCOUNT (Unaudited)                                                                                   September 30, 2011
�
                                                            FEDERAL-
 DOLLARS IN THOUSANDS                                            AID             FAA           FTA      MARAD        ALL OTHER          TOTAL


 BUDGETARY RESOURCES
Unobligated balance brought forward, October 1              $32,525,358     $3,321,905   $10,500,855    $477,984      $13,872,333   $60,698,435
Recoveries of prior year unpaid obligations                           -       486,422        85,560        31,774         401,926      1,005,682
Other changes in unobligated balance                             12,368       (66,041)       (2,443)       (1,915)       (67,886)      (125,917)
Unobligated balance from prior year budget authority, net    32,537,726      3,742,286    10,583,972     507,843       14,206,373     61,578,200
Appropriations                                               (1,178,819)    12,416,672     2,860,387     471,490        2,753,360     17,323,090
Borrowing authority                                                   -              -             -     195,000        1,161,282      1,356,282
Contract authority                                           40,217,002      3,515,000     8,360,565            -       1,213,832     53,306,399
Spending authority from offsetting collections                 202,546       5,427,894         3,324      499,512       1,103,499      7,236,775
Total budgetary resources                                   $71,778,455    $25,101,852   $21,808,248   $1,673,845      20,438,346    140,800,746


 STATUS OF BUDGETARY RESOURCES
Obligations incurred                                        $41,050,365    $21,545,641   $11,030,353   $1,033,005     $15,654,173    $90,313,537
Unobligated balance, end of year:
     Apportioned                                             16,655,280      1,670,513    10,752,663     372,656        4,140,474     33,591,586
     Exempt from apportionment                                        -              -             -      15,435         302,278         317,713
     Unapportioned                                           14,072,810      1,885,698       25,232      252,749          341,421     16,577,910
Total unobligated balance, end of year                       30,728,090      3,556,211    10,777,895     640,840        4,784,173     50,487,209
Total budgetary resources                                   $71,778,455    $25,101,852   $21,808,248   $1,673,845     $20,438,346   $140,800,746




99      U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L R E P O R T 2012
RSI, CONT’D



REQUIRED SUPPLEMENTARY INFORMATION COMBINING STATEMENTS OF BUDGETARY                                                 For the Period Ended 

RESOURCES BY MAJOR ACCOUNT (Unaudited)                                                                                September 30, 2011
�
                                                         FEDERAL-
 DOLLARS IN THOUSANDS                                         AID             FAA            FTA      MARAD        ALL OTHER           TOTAL

 CHANGE IN OBLIGATED BALANCES
Unpaid obligations, brought forward, October 1 (gross)   $63,206,294     $9,285,955    $19,715,003     $369,261     $22,258,404    $114,834,917
Uncollected customer payments from Federal sources,        (334,747)      (342,944)        (66,614)     (73,274)       (609,876)     (1,427,455)
brought forward, October 1
Obligated balance, start of year (net)                    62,871,547      8,943,011     19,648,389      295,987      21,648,528     113,407,462
Obligations incurred                                      41,050,365     21,545,641     11,030,353    1,033,005      15,654,173      90,313,537
Outlays (gross)                                          (36,242,104)   (21,102,064)   (11,943,323)    (986,679)    (15,985,754)    (86,259,924)
Change in uncollected customer payments from Federal         (96,181)        54,891          7,714      (82,293)        111,914          (3,955)
sources
Actual transfers, unpaid obligations (net) (+ or -)                 -             -              -             -         22,214          22,214
Recoveries of prior year unpaid obligations                         -     (486,422)       (85,560)      (31,774)       (401,926)     (1,005,682)
Obligated balance, end of year
   Unpaid obligations, end of year (gross)                68,014,555      9,243,110     18,716,473      383,813       21,547,111    117,905,062
   Uncollected customer payments from Federal sources,     (430,928)      (288,053)       (58,900)    (155,567)       (497,962)     (1,431,410)
   end of year
Obligated balance, end of year (net)                     $67,583,627     $8,955,057    $18,657,573     $228,246     $21,049,149    $116,473,652


 BUDGET AND AUTHORITY AND OUTLAYS, NET
Budget authority, gross                                  $39,240,728    $21,359,566    $11,224,275    $1,166,003     $6,231,974     $79,222,546
Actual offsetting collections                              (106,364)    (5,482,785)        (11,037)    (501,611)     (1,324,350)     (7,426,147)
Change in uncollected customer payments from Federal         (96,181)        54,891          7,714      (82,293)        111,914          (3,955)
sources
Anticipated offsetting collections                                 -              -              -             -              -                -
Budget authority, net                                    $39,038,183    $15,931,672    $11,220,952     $582,099      $5,019,538     $71,792,444


Outlays, gross                                           $36,242,104    $21,102,064    $11,943,323     $986,679     $15,985,754     $86,259,924
Actual offsetting collections                              (106,364)    (5,482,785)        (11,037)    (501,611)     (1,324,350)     (7,426,147)
Outlays, net                                              36,135,740     15,619,279     11,932,286      485,068      14,661,404      78,833,777
Distributed offsetting receipts                                    -        (10,742)        43,322      (41,841)      (273,357)        (282,618)
Agency outlays, net                                      $36,135,740    $15,608,537    $11,975,608     $443,227     $14,388,047     $78,551,159




100 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION (RSSI)
�
NON-FEDERAL PHYSICAL PROPERTY: ANNUAL STEWARDSHIP INFORMATION
Transportation Investments (Unaudited)                                                                           As of September 30
 DOLLARS IN THOUSANDS                               FY 2008           FY 2009           FY 2010            FY 2011            FY 2012
 SURFACE TRANSPORTATION
Federal Highway Administration
  Federal Aid Highways (HTF)                       $34,470,595       $37,860,105       $29,649,943       $34,556,573         $39,048,865
  Other Highway Trust Fund Programs                    481,762          216,263            155,061           148,271              99,127
  General Fund Programs                                 31,740         3,228,009        11,616,036          7,906,180          3,203,055
  Appalachian Development System                       185,316          321,480             90,091           243,853            288,473
  Federal Motor Carrier                               144,455               837                  -                  -           (15,998)
  Total Federal Highway Administration             $35,313,868       $41,626,694       $41,511,131        $42,854,877        $42,623,522
Federal Transit Administration
  Discretionary Grants                                 $27,174          $16,424            $17,171           $25,068             $12,682
  Formula Grants                                     1,329,811          743,604           428,696            220,047             171,134
  Capital Investment Grants                          2,473,141         2,175,758         1,930,185          1,924,741          2,439,812
  Washington Metro Area Transit Authority                  46                33                  -            110,321             91,153
  Interstate Transfer Grants                              360               316                  -                  -                   -
  Formula and Bus Grants                             5,968,651         7,264,278         7,345,804          7,182,145          8,197,321
Total Federal Transit Administration                 9,799,183        10,200,413         9,721,856          9,462,322         10,912,102
Total Surface Transportation Nonfederal Physical   $45,113,051       $51,827,107       $51,232,987        $52,317,199        $53,535,624
Property Investments


 AIR TRANSPORTATION                                 FY 2008           FY 2009           FY 2010            FY 2011            FY 2012
Federal Aviation Administration
  Airport Improvement Program                       $3,753,840       $4,034,970         $4,015,463         $3,388,712         $3,139,685
Total Air Transportation Nonfederal Physical
                                                    $3,753,840       $4,034,970         $4,015,463         $3,388,712         $3,139,685
Property Investments
Total Nonfederal Physical Property Investments     $48,866,891       $55,862,077       $55,248,450        $55,705,911        $56,675,309



The Federal Highway Administration reimburses States for con-         Capital investment grants, which replaced discretionary grants
struction costs on projects related to the Federal Highway System     in FY 1999, provide capital assistance to finance acquisition,
of roads. The main programs in which the States participate           construction, reconstruction, and improvement of facilities and
are the National Highway System, Interstate Systems, Surface          equipment. Capital investment grants fund the categories of new
Transportation, and Congestion Mitigation/Air Quality Improve-        starts, fixed guideway modernization, and bus and bus-related
ment programs. The States’ contribution is 10 percent for the         facilities.
Interstate System and 20 percent for most other programs.
                                                                      The Washington Metropolitan Area Transit Authority provides
The Federal Transit Administration provides grants to State and       funding to support the construction of the Washington Metrorail
local transit authorities and agencies.                               System.

Formula grants provide capital assistance to urban and nonurban       Interstate Transfer Grants provided Federal financing from FY
areas and may be used for a wide variety of mass transit purposes,    1976 through FY 1995 to allow States and localities to fund tran-
including planning, construction of facilities, and purchases         sit capital projects substituted for previously withdrawn segments
of buses and railcars. Funding also includes providing trans-         of the Interstate Highway System.
portation to meet the special needs of elderly individuals and
individuals with disabilities.                                        The Federal Aviation Administration (FAA) makes project 

                                                                      grants for airport planning and development under the Airport 





101 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
RSSI, CONT’D

Improvement Program (AIP) to maintain a safe and efficient
nationwide system of public-use airports that meet both present
and future needs of civil aeronautics. FAA works to improve the
infrastructure of the nation’s airports, in cooperation with airport
authorities, local and State governments, and metropolitan
planning authorities.


HUMAN CAPITAL INVESTMENT EXPENSES
ANNUAL STEWARDSHIP INFORMATION (Unaudited)                                                                                                                   As of September 30
 DOLLARS IN THOUSANDS                                           FY 2008                     FY 2009                     FY 2010                     FY 2011                     FY 2012

SURFACE TRANSPORTATION
Federal Highway Administration
   National Highway Institute Training                              $1,205                        $375                         $109                        $133                       $508
Federal Motor Carrier Safety Administration
   California Highway Patrol                                            722                             -                           -                           -                            -
   Safety Grants                                                        426                       1,230                         845                         636                       1,342
   Idaho Video                                                          302                         399                            9                            -                            -
   Kentucky IT Conference                                                   -                           -                           -                           -                            -
   Massachusetts Training Academy                                           -                           -                           -                           -                            -
   Minnesota Crash Investigation                                            -                           -                           -                           -                            -
   New York Crash Reconstruction                                        180                             -                           -                           -                            -
   Tennessee Crash Investigation                                        167                             -                           -                           -                            -
Federal Transit Administration
   National Transit Institute Training                                4,577                      3,440                        3,886                       3,246                       3,550
National Highway Safety Administration
   Section 403 Highway Safety Programs                             171,836                     143,639                     138,221                     123,340                      118,169
   Highway Traffic Safety Grants                                   485,721                     566,790                     565,787                     576,063                     514,816
Pipeline and Hazardous Materials Safety Administration
   Hazardous Materials (Hazmat) Training                            13,263                      13,263                       13,153                      16,974                      17,808
Total Surface Transportation Human                                 678,399                     729,136                     722,010                     720,392                     656,193
Capital Investments

MARITIME TRANSPORTATION
Maritime Administration
   State Maritime Academies Training(1)                               9,406                      11,041                      10,810                      11,459                      13,746
   Additional Maritime Training                                         800                       1,751                       2,365                       2,146                              -
Total Maritime Transportation Human
                                                                    10,206                      12,792                      13,175                      13,605                      13,746
Capital Investments
Total Human Capital Investments                                   $688,605                    $741,928                    $735,185                    $733,997                    $669,939

(1) Does not include funding for the Student Incentive Payment (SIP) program which produces graduates who are obligated to serve in a reserve component of the United States armed forces.
Does not include funding for maintenance and repair (M&R).




102 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
RSSI, CONT’D

The National Highway Institute develops and conducts various            The National Transit Institute of the Federal Transit Administration
training courses for all aspects of Federal Highway Administration.     develops and offers training courses to improve transit planning
Students are typically from the State and local police, State           and operations. Technology courses cover such topics as alternative
highway departments, public safety and motor vehicle employees,         fuels, turnkey project delivery systems, communications-based train
and U.S. citizens and foreign nationals engaged in highway work         controls, and integration of advanced technologies.
of interest to the Federal Government. Types of courses given
and developed are modern developments, technique, management,           The National Highway Traffic Safety Administration (NHTSA)
planning, environmental factors, engineering, safety, construction,     programs authorized under the Highway Trust Fund provide
and maintenance.                                                        resources to State and local governments, private partners, and
                                                                        the public, to effect changes in driving behavior on the nation’s
The California Highway Patrol educates the trucking industry for        highways to increase safety belt usage and reduce impaired
the Federal Motor Carrier Safety Administration about Federal           driving. NHTSA provides technical assistance to all States on the
and State commercial motor vehicle/carrier inspection procedures, and   full range of components of the impaired driving system as well as
to increase CMV driver awareness. The Idaho Video Program               conducting demonstrations, training, and public information/edu-
develops video training material utilized by the FMCSA National         cation on safety belt usage.
Training Center for the purpose of training State and local law
enforcement personnel. The Massachusetts Training Academy               The Pipeline and Hazardous Materials Safety Administration
provides training to State law enforcement personnel located            administers Hazardous Material Training (Hazmat). The purpose
in the northeast region of Massachusetts. The Minnesota Crash           of Hazmat Training is to train State and local emergency
Investigation program provides training and develops processes          personnel on the handling of hazardous materials in the
and protocols for commercial motor vehicle crash investigations.        event of a hazardous material spill or storage problem.




103 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
RSSI, CONT’D


RESEARCH AND DEVELOPMENT INVESTMENTS
ANNUAL STEWARDSHIP INFORMATION (Unaudited)                                                                     As of September 30
 DOLLARS IN THOUSANDS                                     FY 2008       FY 2009       FY 2010     FY 2011              FY 2012

SURFACE TRANSPORTATION
Federal Highway Administration
   Intelligent Transportation Systems                      $128,931      $111,219      $129,993    $98,694               $100,467
   Other Applied Research and Development                    63,906        28,259       159,389    244,156                 12,042
Federal Railroad Administration
   Railroad Research and Development Program                  2,259         3,349         5,647      6,027                 13,742
Federal Transit Administration
   Applied Research and Development
   Transit Planning and Research                              6,076         6,914         7,228     13,751                 21,700
Pipeline and Hazardous Materials Safety Administration
Applied Research and Development
  Development Research and Development
  Pipeline Safety
   Applied Research and Development Pipeline Safety          12,762         9,198         7,362      2,365                  8,073
   Applied Research and Development
                                                              1,084         1,593         1,622      2,855                  1,636
   Hazardous Materials
Research and Innovative Technology Administration
Applied Research and Development

   Research and Technology                                    1,036         1,936         6,137      6,134                  5,792
Total Surface Transportation Research                      $216,054      $162,468      $317,378   $373,982               $163,452
and Development Investments

 AIR TRANSPORTATION
Federal Aviation Administration
   R
   Research
     esearc
        arch aan
              and
               nd Dev
                  Deve
                  Development
                      elopme
                         pmennt PPl
                                 Plant
                                  lant                       $3,498        $3,381        $5,590     $5,848                $18,974
   Applied Research                                          88,114        95,764       103,042    129,954                133,932
   Development                                                 814          1,102         2,008      2,238                  1,311
   Administration                                            33,519        35,055
                                                                           35,05
                                                                            5,055        36,723     335,875
                                                                                                      5,8875
                                                                                                      5,                   37,482
Total Air Transportation Research
                                                            125,945       135,302       147,363    173,915                191,699
and Development Investments
Total Research and Development Investments                 $341,999      $297,770      $464,741   $547,897               $355,151




104 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
RSSI, CONT’D

The Federal Highway Administration’s research and development        in the transportation of freight, intercity passengers, commuters,
programs are earmarks in the appropriations bills for the fiscal     and to railroad employees and their labor organizations. FRA-
year. Typically, these programs are related to safety, pavements,    owned facilities provide the infrastructure necessary to conduct
structures, and environment. Intelligent Transportation Systems      experiments and test theories, concepts, and new technologies in
were created to promote automated highways and vehicles to           support of the R&D program.
enhance the national highway system. The output is in accordance
with the specifications within the appropriations act.               The Pipeline and Hazardous Materials Safety Administration
                                                                     funds research and development activities for the following
The Federal Transit Administration supports research and             organizations and activities.
development in the following program areas:
                                                                     The Office of Pipeline Safety is involved in research and
Research and development in Transit Planning and Research            development in information systems, risk assessment, mapping,
supports two major areas: the National Research Program and          and non-destructive evaluation.
the Transit Cooperative Research Program. The National
Research Program funds the research and development of               The Office of Hazardous Materials is involved in research,
innovative transit technologies such as safety-enhancing commuter    development, and analysis in regulation compliance, safety,
rail control systems, hybrid electric buses, and fuel cell and       and information systems.
battery-powered propulsion systems. The Transit Cooperative
Research Program focuses on issues significant to the transit        The Research and Innovative Technology Administration’s key
industry with emphasis on local problem-solving research.            mandate is to coordinate research across DOT to maximize
                                                                     and leverage the taxpayers’ $1.2 billion annual investment in
Transit University Transportation Centers, combined with funds       research, development, and technology (RD&T) activities.
from the Highway Trust Fund, provide continued support for
research, education, and technology transfer.                        The Federal Aviation Administration (FAA) conducts research
                                                                     and provides the essential air traffic control infrastructure to meet
Capital investment grants, which replaced discretionary grants       increasing demands for higher levels of system safety, security,
in FY 1999, provide capital assistance to finance acquisition,       capacity, and efficiency. Research priorities include aircraft
construction, reconstruction, and improvement of facilities and      structures and materials; fire and cabin safety; crash injury-
equipment. Capital investment grants fund the categories of          protection; explosive detection systems; improved ground and
new starts, fixed guideway modernization, and bus and bus-           in-flight de-icing operations; better tools to predict and warn of
related activities.                                                  weather hazards, turbulence, and wake vortices; aviation medicine,
                                                                     and human factors.
The Federal Railroad Administration (FRA) research and
development projects contribute vital inputs to its safety
regulatory processes, to railroad suppliers, to railroads involved




105 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
OTHER ACCOMPANYING
INFORMATION
SCHEDULE OF SPENDING (Unaudited)
                                                                          For the Period Ended
SCHEDULE OF SPENDING                                                       September 30, 2012
                                                                        NON-BUDGETARY CREDIT
 DOLLARS IN THOUSANDS                              BUDGETARY       REFORM FINANCING ACCOUNTS

WHAT MONEY IS AVAILABLE TO SPEND?
Total Resources                                     $131,895,361                      $2,211,918
Less Amount Available but Not Agreed to be Spent      29,419,507                        105,393
Less Amount Not Available to be Spent                 17,847,996                         179,637
Total Amounts Agreed to be Spent                     $84,627,858                      $1,926,888


HOW WAS THE MONEY SPENT?
Surface Transportation
  1. Personnel Compensation and Benefits                $932,121                              $-
  2. Contractual Services and Supplies                 2,321,876                               -
  3. Acquisition of Assets                               123,219                       1,224,077
  4. Grants and Fixed Charges                         57,595,464                         35,622
  5. Other                                                52,965                               -
Air Transportation
  1. Personnel Compensation and Benefits               7,534,257                               -
  2. Contractual Services and Supplies                 5,639,734                               -
  3. Acquisition of Assets                               479,138                               -
  4. Grants and Fixed Charges                          3,053,590                               -
  5. Other                                             5,059,582                               -
Maritime Transportation
  1. Personnel Compensation and Benefits                 98,429                              50
  2. Contractual Services and Supplies                  470,488                            1,494
  3. Acquisition of Assets                                11,662                               -
  4. Grants and Fixed Charges                            291,514                          59,533
  5. Other                                                 (760)                               -
Cross-Cut Transportation
  1. Personnel Compensation and Benefits                153,075                                -
  2. Contractual Services and Supplies                  570,045                                -
  3. Acquisition of Assets                                18,787                               -
  4. Grants and Fixed Charges                                 2                                -
  5. Other                                              (46,516)                               -
Not Assigned
  1. Personnel Compensation and Benefits                140,425                                -
  2. Contractual Services and Supplies                    82,978                               -
  3. Acquisition of Assets                                6,048                                -
  4. Grants and Fixed Charges                           203,905                               71
  5. Other                                               793,147                               -
Total Spending                                       $85,585,176                      $1,320,846
Amounts Remaining to be Spent                         $(957,318)                       $606,042
Total Amounts Agreed to Be Spent                     $84,627,858                      $1,926,888




107 U. S. DEP AR TME NT OF TR A NS P OR TATIO N
NET COST BY DOT GOAL
The Schedule of Net Cost by Strategic Goal reports the DOT operational net cost to reflect the net cost of operations by each of the
Department’s six goals in its FY 2012 Budget submission to provide the linkage between cost and performance as related to each
goal. DOT programs are generally complex and incorporate significant projects within multiple Operating Administrations (OA)
and organizations within the OAs. These projects are linked to multiple organizational and department–wide strategic goals. This
complexity makes it difficult to track the costs related to the department-wide strategic goals. Additionally, in order to determine
the costs by strategic goals, OAs would need to analyze each project and determine allocation of costs to appropriate strategic goals.


                                                                                                                   For the Year Ended
SCHEDULE OF NET COST BY STRATEGIC GOAL (DOLLARS IN THOUSANDS) Unaudited                                           September 30, 2012
                                            STATE
 STRATEGIC                                OF GOOD          LIVABLE     ENVIRONMENTAL             ECONOMIC      ORGANIZATION
 GOAL AREAS                  SAFETY        REPAIR      COMMUNITIES      SUSTAINABILITY     COMPETITIVENESS      EXCELLENCE          TOTAL

SURFACE TRANSPORTATION
Federal Highway
                           $12,501,186   $17,190,423      $4,318,248          $5,617,651          $5,051,364         $16,097    $44,694,969
Administration
Federal Transit
                              122,320      5,627,770       2,025,648             68,489            3,819,324          70,279     11,733,831
Administration
Federal Railroad
                              273,344       283,593         403,060             353,128              599,014          85,284      1,997,423
Administration
Federal Motor Carrier
                              502,431              -               -                   -               2,963           14,743       520,137
Safety Administration
National Highway Safety
                              705,512              -               -             61,349                    -            6,728      773,589
Administration
Pipeline and Hazardous
Materials Safety                  112              -               -                   -                   -                -            112
Administration
Research and
Innovative Technology           8,518           406             355               1,821                 329             3,014       14,444
Administration
Surface Transportation
                                     -             -               -                   -                   -           28,192        28,192
Board
Subtotal                   14,113,423     23,102,192       6,747,311          6,102,438            9,472,995         224,337     59,762,698



AIR TRANSPORTATION
Federal Aviation
                             7,812,879     1,581,208               -            551,990            4,439,756        1,618,500    16,004,333
Administration
Subtotal                    7,812,879      1,581,208               -            551,990            4,439,756        1,618,500    16,004,333



MARITIME TRANSPORTATION
Maritime Administration              -             -               -             29,527              422,164           41,827       493,519
Subtotal                             -             -               -             29,527             422,164           41,827       493,519



OTHER PROGRAMS:
Office of the Secretary       117,890        117,135         169,846            118,412              123,316          38,452       685,052
Volpe National
Transportation System            2,193          105              91                 469                  85              776          3,718
Center
Office of Inspector
                                     -             -               -                   -                   -           87,234        87,234
General
Subtotal                      120,083        117,240         169,938            118,881             123,400          126,462       776,003
Total Net Cost            $22,046,386    $24,800,640      $6,917,249         $6,802,835          $14,458,315       $2,011,126   $77,036,553




108 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
SUMMARY OF FINANCIAL STATEMENT AUDIT AND MANAGEMENT ASSURANCES
�
TABLE 1. SUMMARY OF FINANCIAL STATEMENT AUDIT

 SUMMARY OF FINANCIAL STATEMENT AUDIT
Audit Opinion                      UNQUALIFIED

Restatement                                NO


                                   BEGINNING                                                                ENDING
 MATERIAL WEAKNESSES                BALANCE         NEW       RESOLVED      CONSOLIDATED      REASSESSED   BALANCE
                                             0                                                                   0
Lack of Sufficient Controls over                        1                                                        1
Undelivered Orders
Total                                        0          1               0                 0            0         1


TABLE 2. SUMMARY OF MANAGEMENT ASSURANCES
�

 EFFECTIVENESS OF INTERNAL CONTROL OVER FINANCIAL REPORTING (FMFIA, SECTION 2)
�
Statement of Assurance               QUALIFIED
                                   BEGINNING                                                                ENDING
 MATERIAL WEAKNESSES                BALANCE         NEW       RESOLVED      CONSOLIDATED      REASSESSED   BALANCE
Lack of Sufficient Controls over             0          1                                                        1
Undelivered Orders
Total Material Weaknesses                    0          1                                                        1



 EFFECTIVENESS OF INTERNAL CONTROL OVER OPERATIONS (FMFIA, SECTION 2)
Statement of Assurance               QUALIFIED
                                   BEGINNING                                                                ENDING
 MATERIAL WEAKNESSES                BALANCE         NEW       RESOLVED      CONSOLIDATED      REASSESSED   BALANCE
FISMA Noncompliance                          1                                                                   1
Total Material Weaknesses                    1                                                                   1



 CONFORMANCE WITH FINANCIAL MANAGEMENT SYSTEM REQUIREMENTS (FMFIA, SECTION 4)
Statement of Assurance               QUALIFIED
                                   BEGINNING                                                                ENDING
 NON-CONFORMANCES                   BALANCE         NEW       RESOLVED      CONSOLIDATED      REASSESSED   BALANCE
Total Non-Conformances                       0          1                                                        1



 CONFORMANCE WITH FEDERAL FINANCIAL MANAGEMENT 

 IMPROVEMENT ACT (FFMIA)
�
                                     AGENCY           AUDITOR
Overall Substantial Compliance             Yes               Yes
1. System Requirements                     Yes               Yes
2. Accounting Standards                     No               No
3. USSGL at Transaction Level              Yes               Yes




109 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
OFFICE OF INSPECTOR GENERAL’S TOP MANAGEMENT CHALLENGES
FOR FISCAL YEAR 2013

MEMORANDUM




OFFICE OF THE SECRETARY
OF TRANSPORTATION

Subject:	�     INFORMATION: DOT’s Fiscal Year 2013                                                     Date:        November 15, 2012
               Top Management Challenges
                                                                                                       Reply to Attn. of: J-1
               Department of Transportation
�
               Report Number PT-2013-011
�

From: 	        Calvin L. Scovel III
               Inspector General

To:	�          The Secretary
               Deputy Secretary



As required by law, we have identified the Department of Transportation’s (DOT) top management
challenges for fiscal year 2013. A safe and well-managed transportation system is key for the U.S.
economy and the quality of life for the traveling public. To maintain and modernize all modes of
transportation, the Department spends over $70 billion annually on a wide range of programs.
Consequently, it is critical for the Department to carry out its mission within a framework of
rigorous stewardship of taxpayer funds, and we continue to support the Department’s efforts
through our audits and investigations.

Global and domestic travel are projected to significantly increase the demand on our transportation
system, and the Department faces considerable challenges in improving the Nation’s surface
infrastructure and airspace. A key issue is the Next Generation Air Transportation System—a
multibillion-dollar effort to modernize the U.S. air traffic control system. The Department is
working diligently to address numerous challenges we have identified over the years with this
highly complex undertaking. However, much work remains to move from planning to implementa-
tion, tighten cost and schedule controls, and better define benefits and an end state for users.

It is also critical that the Department take every opportunity to make efficient use of funds through
improved acquisition and grant management—an ongoing challenge with multi-modal impact. This
past year, our work also highlighted the need for the Department to better safeguard its investments
in key assets to support or expand transportation. These challenges include enforcing reforms to
business practices, closely overseeing financing plans, and protecting critical information systems.

Improving air and surface safety continues to be the Department’s overarching priority. This past
year, the Department has made important progress toward meeting new airline safety regulations to
advance voluntary safety programs at air carriers and improve pilot rest requirements. To maintain
the Nation’s excellent aviation safety record, the Department must address a number of challenges.
These include maximizing existing data to identify trends and root causes of safety issues, enhanc-
ing risk-based oversight at carriers and repair stations, and mitigating air traffic controller fatigue.




110 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
In terms of surface safety, fatalities on the Nation’s highways have generally declined over the last
several years; however, the safety of the Nation’s highways, railroads, and pipelines remains an
ongoing concern. The Department must implement a number of safety requirements enacted in
2012 to identify defective vehicles, better protect motor coach passengers, enhance mass transit
safety, and develop a national tunnel inspection program.

We continue to build a body of work to assist the Department with its critical mission; improve the
management and execution of programs; and protect the Department’s resources from fraud, waste,
abuse, and violations of law. We considered several criteria in identifying the following nine
challenges, including their impact on safety, documented vulnerabilities, large dollar implications,
and the ability of the Department to effect change in these areas:

  ▶ Ensuring the Next Generation Air Transportation System Advances Safety and Air Travel

  ▶ Enhancing FAA’s Oversight and Use of Data To Identify and Mitigate Safety Risks

  ▶ Overseeing Administration of Key Transportation Assets To Ensure Their Success and 

    Sustainability
	

  ▶ Strengthening Existing Surface Safety Programs and Effectively Implementing New Safety
    Requirements

  ▶ Maximizing Surface Infrastructure Investments With Effective Program Oversight and 

    Execution of New Legislative Requirements
	

  ▶ Adequately Overseeing Administration of High Speed Intercity Passenger Rail Grant Funds

  ▶ Strengthening Financial Management Over Grants To Better Use Funds, Create Jobs, and
    Improve Infrastructure

  ▶ Ensuring Effective Management of DOT’s Acquisitions To Maximize Value and Program
    Performance

  ▶ Managing and Securing Information Systems To Efficiently Modernize Technology 

    Infrastructure and Protect Sensitive Data From Compromise
	

We are committed to keeping decision makers informed of issues identified through our audits and
investigations. We appreciate the Department’s commitment to taking prompt corrective action in
response to our findings and recommendations. This report and the Department’s response will be
included in the Department’s Annual Financial Report, as required by law. The Department’s
response is included in its entirety in the appendix to this report. If you have any questions
regarding this report, please contact me at (202) 366-1959. You may also contact Lou E. Dixon,
Principal Assistant Inspector General for Audits and Evaluation, at (202) 366-1427.

                                                  #

                                    cc: DOT Audit Liaison, M-1




111 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
TABLE OF CONTENTS


   113           Ensuring the Next Generation Air Transportation System
                 Advances Safety and Air Travel


   115           Enhancing FAA’s Oversight and Use of Data To Identify
                 and Mitigate Safety Risks


   117           Overseeing Administration of Key Transportation Assets
                 To Ensure Their Success and Sustainability


   119           Strengthening Existing Surface Safety Programs and Effectively
                 Implementing New Safety Requirements


   121           Maximizing Surface Infrastructure Investments With Effective Program
                 Oversight and Execution of New Legislative Requirements


   122           Adequately Overseeing Administration of High Speed Intercity Passenger
                 Rail Grant Funds


   123           Strengthening Financial Management Over Grants To Better Use Funds,
                 Create Jobs, and Improve Infrastructure


   125           Ensuring Effective Management of DOT’s Acquisitions To Maximize Value
                 and Program Performance


   127           Managing and Securing Information Systems To Efficiently Modernize
                 Technology Infrastructure and Protect Sensitive Data From Compromise


   129           Comparison of Fiscal Years 2013 and 2012 Top Management Challenges


   130           Appendix. Department Response




 112 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
                                                                      half of all active commercial aircraft are currently equipped to fly
CHAPTER 1                                                             advanced procedures, and representatives from air carriers who
                                                                      are equipped stated that FAA›s approach offers little operational
ENSURING THE NEXT GENERATION AIR
                                                                      and financial benefits to airlines. In addition, FAA has not yet
TRANSPORTATION SYSTEM ADVANCES SAFETY
                                                                      integrated efforts from other related initiatives, such as better
AND AIR TRAVEL
                                                                      managing airport surface operations, into the metroplex initiative.
The National Airspace System (NAS) handles almost 50,000
                                                                      As a result, airspace users are concerned about the pace and
flights per day and more than 700 million passengers per year.
                                                                      execution of the metroplex effort, as well as the lack of clearly
Air travel is expected to nearly double over the next 2 decades,
                                                                      defined expected benefits, and remain reluctant to equip with new
and the Federal Aviation Administration (FAA) has been working
                                                                      avionics.
for 8 years to develop the Next Generation Air Transportation
System (NextGen). NextGen is intended to modernize aging
                                                                      FAA also has not yet resolved various barriers to its metroplex
equipment, systems, and facilities and improve airspace
                                                                      effort—which have slowed other NextGen initiatives. These
efficiency. While FAA has made some progress toward improved
                                                                      include working across diverse Agency lines of business,
air traffic management, our work continues to find longstanding
                                                                      updating policies, streamlining the process for implementing new
problems with cost increases, schedule slips, and performance
                                                                      flight procedures, applying environmental regulations, upgrading
shortfalls with key FAA modernization projects—challenges that
                                                                      controller automation tools, and training controllers on new
have been exacerbated by the fiscally constrained Federal
                                                                      advanced procedures. FAA is working to address our August
environment.
                                                                      2012 recommendations to effectively implement the task force’s
                                                                      recommendations and resolve these barriers in a timely manner.
KEY CHALLENGES
  ▶ Realizing benefits from NextGen capabilities at congested
                                                                      MITIGATING RISKS THAT DELAYS WITH THE EN ROUTE
    airports in the near term
                                                                      AUTOMATION MODERNIZATION PROGRAM POSE TO
  ▶ Mitigating risks that delays with the En Route Automation         CRITICAL NEXTGEN INITIATIVES Increasing airspace capacity
    Modernization program pose to critical NextGen initiatives        and reducing flight delays depend on the successful implementa-
                                                                      tion of the En Route Automation Modernization program
  ▶ Making decisions on facility consolidation and 

                                                                      (ERAM)—a $2.1 billion system to replace hardware and
    modernization
	
                                                                      software at FAA’s facilities that manage high-altitude traffic. FAA
  ▶ Completing an integrated master schedule for NextGen              originally planned to complete ERAM by the end of 2010.
    transformational programs                                         However, software problems have impacted the system’s ability
                                                                      to safely manage and separate aircraft and raised questions as to
  ▶ Achieving expected outcomes from reorganization to 

                                                                      what capabilities ERAM will ultimately deliver. FAA rebaselined
    improve NextGen management
	
                                                                      the program in 2011, which pushed its expected completion to
  ▶ Integrating Unmanned Aircraft Systems in the National             2014 and increased cost estimates by $330 million. FAA is taking
    Airspace System                                                   steps to get ERAM on track and is using the system on a
                                                                      full-time basis at several sites—a significant step forward given
REALIZING BENEFITS FROM NEXTGEN CAPABILITIES AT                       the extensive software problems during testing at the two initial
CONGESTED AIRPORTS IN THE NEAR TERM In response to                    sites. Recent progress at those two sites has allowed FAA to
recommendations by a Government-industry task force in 2009,          phase out their legacy air traffic control systems. However, other
FAA launched its “metroplex” initiative—a 7-year effort to            facilities continue to identify software problems, and FAA will
improve the flow of traffic and efficiency at congested airports in   likely encounter these and other issues when it implements
13 major metropolitan areas. FAA completed initial studies to         ERAM at some of the Nation’s busiest facilities. If software
identify and recommend airspace and procedure improvements at         problems persist, the program’s cost growth could exceed $500
7 of the 13 metroplex locations and is performing design work at      million, and delays could stretch out to 2016. Prolonged delays
6. However, FAA continues to face challenges with shifting from       with ERAM will directly impact the overall cost and pace of
planning to implementation. The expected completion date for all      NextGen. Without ERAM, the benefits of several other programs,
metroplex sites is now 15 months later than FAA planned.              such as a new satellite-based surveillance system and data
Further, industry representatives are concerned that the effort       communications for controllers and pilots, will not be possible.
may not deliver all desired benefits since FAA has focused on
limited airspace and procedure improvements rather than               MAKING DECISIONS ON FACILITY CONSOLIDATION AND
maximizing new technologies and advanced procedures, as               MODERNIZATION FAA has not made key decisions on the
recommended by the task force. According to FAA officials, the        number and locations of air traffic facilities needed to support
Agency has taken this approach to avoid potentially extensive         NextGen or on the level of automation that can be realistically
environmental reviews and accommodate all airspace users, not         and safely achieved to manage traffic. In November 2011, FAA
just those equipped to fly advanced procedures. However, nearly       formalized an initial plan for consolidating en route centers and




113 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
Terminal Radar Approach Control facilities (TRACON)1 into                               nounced a major reorganization in 2011 to better position
large, integrated facilities in six geographic segments across the                      NextGen for success. FAA elevated the former NextGen
country. Since then, the Agency has focused on plans in the New                         office—creating an Assistant Administrator for NextGen who
York area but has delayed a final decision until May 2013 on                            reports directly to the FAA Deputy Administrator—and estab-
where to build the integrated facility. Ultimately, successfully                        lished a new Program Management Office. This new office will
implementing FAA’s plans will require the Agency to address                             also work to bridge the gap between strategic requirements and
challenges with cost estimates, funding sources, and workforce                          program implementation. FAA is still in the early stages of this
issues.                                                                                 reorganization, and work remains to establish best practices and
                                                                                        institutionalize changes.
Consolidation will likely be a long-term challenge for FAA, as its
NextGen modernization plans were based on the traditional                               INTEGRATING UNMANNED AIRCRAFT SYSTEMS IN THE
facility set-up of en route centers and TRACONs—not integrated                          NATIONAL AIRSPACE SYSTEM The application of Unmanned
facilities. Integrating facilities will also require cost and schedule                  Aircraft Systems (UAS)3 in the United States for research, law
changes to modernization programs that already have established                         enforcement, private sector, and State government needs
baselines. The Terminal Automation Modernization and                                    continues to grow. FAA predicts there will be roughly 10,000
Replacement program alone involves about $1 billion through                             active commercial UAS in 5 years, with industry investing over
2018 to replace aging displays and processors that controllers                          $89.1 billion in UAS technology over the next 10 years. The FAA
rely on to manage takeoffs and landings, the most critical phases                       Modernization and Reform Act of 20124 requires the Secretary of
of flight. FAA recently approved plans to begin transitioning to a                      Transportation to develop a comprehensive plan that will safely
new terminal automation system at 11 large TRACON facilities                            and fully integrate UAS into the NAS no later than September 30,
through 2017. However, the Agency has yet to determine                                  2015. The law also requires FAA to establish a program to
whether its consolidation efforts will impact these facilities.                         integrate UAS into the NAS at six test ranges by late summer
                                                                                        2012, but FAA has not completed this requirement. This will be a
COMPLETING AN INTEGRATED MASTER SCHEDULE FOR                                            challenge for FAA as, historically, UAS have mainly supported
NEXTGEN TRANSFORMATIONAL PROGRAMS FAA has not                                           military and security operations overseas, and FAA has approved
established total program costs, schedules, or performance                              operations in the United States on a limited, case-by-case basis.
baselines for any of the NextGen six transformational programs.2                        Additionally, according to FAA officials, concerns over individu-
Rather, the Agency plans to approve these programs in shorter,                          al privacy (e.g., collecting information for commercial and law
discrete segments to minimize risks in the short term. However,                         enforcement purposes) have contributed to delays in implement-
as requirements continue to evolve, programs are left with no                           ing the law’s requirements, such as issuing a rulemaking to allow
clear end-state, and decision makers lack sufficient information                        use of small UAS. With increased usage of UAS comes increased
to assess progress. Further, FAA has not completed an integrated                        risk to the NAS. While UAS capabilities have improved, their
master schedule for deploying the transformational programs in                          ability to detect, sense, and avoid other air traffic is limited. FAA
response to our April 2012 recommendation. Due to these                                 must continue to work with other Federal agencies and the
programs’ complex interdependencies, it will therefore be                               aerospace industry to address challenges such as certification
difficult to fully address operational, technical, and programmatic                     standards and privacy concerns. Given the growing interest and
challenges without a master schedule. While FAA is beginning to                         unresolved safety issues associated with UAS flights, FAA and
capture the critical activities required to deliver the six programs’                   DOT will need to act quickly to safely integrate them into the
operational capabilities, the Agency is still working to identify                       NAS and align those changes carefully with NextGen implemen-
what type of data it needs, such as key system dependencies, to                         tation.
complete the master schedule.
                                                                                        RELATED PRODUCTS The following related documents can be
ACHIEVING EXPECTED OUTCOMES FROM REORGANIZA-                                            found on the OIG Web site at http://www.oig.dot.gov.
TION TO IMPROVE NEXTGEN MANAGEMENT Many of FAA’s
                                                                                           ▶ Challenges With Implementing Near-Term NextGen
difficulties with implementing NextGen stem from underlying
                                                                                             Capabilities at Congested Airports Could Delay Benefits,
management challenges, such as assigning responsibility,
                                                                                             August 1, 2012
accountability, and authority. In 2011, FAA commissioned an
internal study to examine how the Agency’s internal structure,
processes, and management culture could be improved to support
NextGen. Based on the study’s recommendations, FAA an-

1	   En route centers guide airplanes flying at high altitudes through large sections   3	 An Unmanned Aircraft System (UAS) is comprised of a pilotless aircraft, satellite
     of airspace, while TRACONs guide aircraft as they approach or leave airspace          or radio link, and ground control station where an operator controls the
     within 40 miles of an airport.                                                        movements of the aircraft. UAS aircraft range in size from those with a
2    These six programs are Automatic Dependent Surveillance Broadcast (ADS-B),            wingspan as large as a Boeing 737 to smaller than a radio-controlled model
     System Wide Information Management (SWIM), Data Communications                        airplane. UAS can serve diverse purposes, such as conducting military
     (DataComm), NextGen Network Enabled Weather (NNEW), NAS Voice System                  operations, enhancing border security, and monitoring forest fires.
     (NVS), and Collaborative Air Traffic Management Technologies (CATM-T).             4	 FAA Modernization and Reform Act of 2012, Pub. L. No. 112-95 (2012).




114 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
    ▶ The Success of FAA’s Long-Term Plan for Air Traffic                                  fiscal year 2011 (from 37 to 55, respectively). What remains
      Facility Realignments and Consolidations Depends on                                  unclear is whether reported increases are due to more errors
      Addressing Key Technical, Financial, and Workforce                                   being committed, improved reporting, or both. FAA attributes the
      Challenges, July 17, 2012                                                            increase between fiscal years 2009 and 2010 to increased
                                                                                           reporting through programs such as the Air Traffic Safety Action
    ▶ Status of Transformational Programs and Risks to Achieving
                                                                                           Program (ATSAP)7 and greater use of automated reporting tools.
      NextGen Goals, April 23, 2012
                                                                                           However, FAA facilities that manage high-altitude traffic (Air
    ▶ The Federal Aviation Administration’s Progress and                                   Route Traffic Control Centers) had a 39-percent spike in
      Challenges in Developing and Transitioning to the Next                               operational errors during that time. These centers have had an
      Generation Air Transportation System, October 5, 2011                                automated system8 in place for years to detect and investigate
                                                                                           each reported error, which suggests that at least a portion of the
                                                                                           increase is likely due to actual errors occurring.

FOR MORE INFORMATION ON THE ISSUES IDENTIFIED IN
                                                                                           To identify root causes of safety problems and mitigate their risk,
THIS CHAPTER, PLEASE CONTACT JEFFREY B. GUZZETTI,
                                                                                           FAA needs to fine-tune its approach to how it collects, verifies,
ASSISTANT INSPECTOR GENERAL FOR AVIATION AND
                                                                                           and uses safety data. In July 2012, we identified control and
SPECIAL PROGRAM AUDITS, AT (202) 366-0500.
                                                                                           oversight weaknesses in how FAA reports and investigates
                                                                                           operational errors associated with ATSAP. FAA fully deployed
                                                                                           ATSAP at all air traffic control facilities in 2010. However, to
CHAPTER 2                                                                                  realize ATSAP’s full potential, FAA must close program gaps,
                                                                                           such as a lack of formal processes to review committee decisions
ENHANCING FAA’S OVERSIGHT AND USE OF DATA TO                                               on errors, and enforce key ATSAP guidelines and requirements.
IDENTIFY AND MITIGATE SAFETY RISKS                                                         Failure to address these and other deficiencies not only under-
The U.S. air transportation system continues to be among the                               mines efforts to improve safety in the National Airspace System
safest in the world, due in part to the efforts of the Federal                             but also may lead to the perception that ATSAP is an amnesty
Aviation Administration (FAA) and the aviation industry. To help                           program that automatically accepts reports of serious incidents,
sustain that record, it will be important to constantly improve                            regardless of whether they qualify.
how key data are reported, analyzed, and used to enhance safety,
oversight, and efficiency. Our audit work shows a number of                                In January 2012, FAA issued new policies and procedures for
areas where FAA can make improvements to bolster these and                                 collecting, investigating, and reporting separation losses, but
other oversight efforts.                                                                   their effectiveness is limited by incomplete data and implementa-
                                                                                           tion challenges. Specifically, FAA lacks an accurate baseline on
KEY CHALLENGES                                                                             the number of separation losses due to its limited use and review
    ▶ Identifying trends in operational errors and determining                             of the Traffic Analysis and Review Program9 data, gaps in
      their root causes                                                                    ATSAP reporting,10 and inconsistent classification of separation
                                                                                           losses. Moreover, FAA’s new policies transfer the function of
    ▶ Advancing oversight by implementing the Airline Safety Act
                                                                                           investigating operational errors from the facilities where they
      of 2010
                                                                                           occur to the three Air Traffic Organization Service Areas. Facility
    ▶ Providing more rigorous risk-based oversight of repair 
                             managers raised concerns about whether the Service Areas have
      stations and identifying inspector staffing requirements
	                           enough staff and knowledge of local flight procedures to
                                                                                           successfully carry out this responsibility. Finally, the mitigation
    ▶ Identifying the effects of air traffic controller scheduling on
                                                                                           strategy for operational errors included in the new policies lacks
      safety, cost efficiency, and controller performance
                                                                                           previously identified causal factors, trends, and follow-up actions
                                                                                           to address them—all considered to be key elements for mitigat-
IDENTIFYING TRENDS IN OPERATIONAL ERRORS AND
                                                                                           ing the highest safety risks.
DETERMINING THEIR ROOT CAUSES FAA must make better
use of data on operational errors5 to investigate incidents,
                                                                                           ADVANCING OVERSIGHT BY IMPLEMENTING THE AIRLINE
identify trends, and mitigate their risks. Reported operational
                                                                                           SAFETY ACT OF 2010 The fatal Colgan Air crash in 2009
errors increased by 53 percent (1,234 to 1,887) between fiscal
years 2009 and 2010. This number remained relatively                                       7  ATSAP is a voluntary non-punitive reporting program to encourage FAA air
                                                                                              traffic employees to report safety events and safety concerns, with the intent of
unchanged between fiscal years 2010 and 2011 (rising to 1,895),                               capturing all events that might lead to a breakdown in safety.
but the most serious reported errors6 continued to increase. FAA                           8 The Operational Error Detection Program (OEDP) at air route traffic control
reports that these rose by 49 percent from fiscal year 2009 to                                centers automatically generates an alert when a potential loss of separation is
                                                                                              detected.
5    Losses of standard separation between aircraft due to air traffic controller error.   9 TARP is an automated system that detects losses of separation that occur in
6    Before fiscal year 2011, FAA tracked operational errors in terms of an A, B, C           terminal airspace.
     severity rating─-with A being the highest or “severe” risk and C the lowest. An “A”   10 Due to ATSAP provisions designed to protect controller confidentiality, much of
     rating meant that less than 34 percent of separation standards were met.                 the ATSAP data that FAA collects are not validated.




115 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
highlighted the need for improvements in pilot training, hiring                         IDENTIFYING THE EFFECTS OF AIR TRAFFIC CONTROL-
and qualification programs as well as consistent safety standards                       LER SCHEDULING ON SAFETY, COST EFFICIENCY, AND
between carriers. Congress and FAA took swift action following                          CONTROLLER PERFORMANCE A series of high-profile
the crash to address these issues, culminating in the August 2010                       incidents in early 2011 involving controllers who were sleeping
passage of the Airline Safety and FAA Extension Act.11 FAA has                          on duty sparked public concern about controller fatigue. As a
made important progress on many of the Act’s requirements,                              result, in April 2011, FAA instituted a series of policy changes,
such as advancing voluntary safety programs, improving pilot                            including placing an additional air traffic controller on the
rest requirements, and establishing better processes for managing                       midnight shift at certain facilities and mandating a minimum of 9
safety risks. Despite this progress, FAA has not met the Act’s                          hours off between evening and day shifts. As directed by the FAA
timelines for raising pilot training standards, implementing                            Modernization and Reform Act of 2012,12 we are assessing these
mentoring programs, or providing enhanced leadership skills to                          new controller scheduling practices. The Act mandated that our
captains. FAA also missed the Act’s deadline to substantially                           assessment include an analysis of how air traffic controller sched-
raise airline pilot qualifications by August 2012. Effectively                          ules are determined, how safety was considered when schedules
implementing this new rule will require FAA to ensure carriers                          are developed, the cost effectiveness of scheduling practices, and
are ready to transition to the Act’s enhanced pilot qualification                       how scheduling practices impact air traffic controller perfor-
requirements before August 2013, when they automatically take                           mance. The implementation of this new policy is an important
effect. FAA also faces challenges in establishing a pilot records                       watch item for DOT, FAA, and Congress.
database—an important component to enhance the air carrier
screening process for pilot applicants. In addition, FAA has yet to                     RELATED PRODUCTS The following related documents can be
provide sufficient guidance and assistance to industry—especial-                        found on the OIG Web site at http://www.oig.dot.gov.
ly smaller carriers—in developing and managing new safety
                                                                                             ▶ Long Term Success of ATSAP Will Require Improvements
programs.
                                                                                               in Oversight, Accountability, and Transparency, July 19,
                                                                                               2012
PROVIDING MORE RIGOROUS RISK-BASED OVERSIGHT OF
REPAIR STATIONS AND IDENTIFYING INSPECTOR STAFF-                                             ▶ The State of Aviation Safety and FAA’s Oversight of the
ING REQUIREMENTS Major air carriers increased spending on                                      National Airspace System, April 25, 2012
contracts for aircraft maintenance by more than $1.7 billion over
                                                                                             ▶ Progress and Challenges in Responding to Key Provisions
the past decade. This trend is expected to grow as carriers
                                                                                               of the Airline Safety Act, March 20, 2012
continue to shift away from in-house maintenance to save costs.
In 2007, FAA implemented a risk-based oversight system to help                               ▶ Progress and Challenges With FAA’s Call to Action for 

inspectors target surveillance to repair facilities with higher risks.                         Airline Safety, February 4, 2010
	
However, our ongoing work shows that this system does not
                                                                                             ▶ Air Carriers’ Outsourcing of Aircraft Maintenance, 

include accurate or timely risk assessments of foreign and
                                                                                               September 30, 2008
	
domestic repair stations. In addition, FAA has yet to provide
inspectors with comprehensive data needed for analytical                                     ▶ Review of Air Carriers’ Use of Aircraft Repair Stations, July
reviews of repair station performance. Instead, FAA inspectors                                 8, 2003
typically rely on their personal knowledge of repair stations to
conduct oversight, rather than using comprehensive and
standardized procedures for conducting and communicating the
                                                                                        FOR MORE INFORMATION ON THE ISSUES IDENTIFIED IN
results of inspections. As a result of these weaknesses, FAA’s
                                                                                        THIS CHAPTER, PLEASE CONTACT JEFFREY B. GUZZETTI,
oversight lacks the rigor needed to identify deficiencies and
                                                                                        ASSISTANT INSPECTOR GENERAL FOR AVIATION AND
verify corrective actions.
                                                                                        SPECIAL PROGRAM AUDITS, AT (202) 366-0500.
At the same time, FAA has not developed a reliable process for
placing inspectors where they are most needed. A 2006 National
Research Council study conducted at the direction of Congress
concluded that FAA’s methodology for allocating its 4,300 aviation
safety inspectors was ineffective and recommended that FAA
develop a new approach. In response, FAA completed a new staffing
model in October 2009. Our ongoing work shows that FAA’s model
does not effectively project staffing needs due largely to incomplete
and inaccurate data. While FAA has reported the results of the model
five times since 2009, the Agency has not fully relied on the model
results when requesting additional inspectors during the annual
budget process. FAA must further refine this tool so that it more
effectively allocates inspector resources.
11	 Airline Safety and Federal Aviation Administration Extension Act of 2010, Pub. L.
    No. 111-216 (2010).                                                                 12    FAA Modernization and Reform Act, Pub. L. No. 112-95 (2012).

116 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
                                                                                       Board members and their guests spent $4,800 on meals during a
CHAPTER 3                                                                              trip to Hawaii for a conference.

OVERSEEING ADMINISTRATION OF KEY
                                                                                       Similarly, MWAA’s contracting policies and practices do not
TRANSPORTATION ASSETS TO ENSURE THEIR SUCCESS
                                                                                       ensure compliance with laws and MWAA’s procedures, resulting
AND SUSTAINABILITY
                                                                                       in contracts that are not subject to full and open competition and
The Department owns or invests in several key transportation
                                                                                       may not represent best value. For example, MWAA’s Board of
assets. These include the Metropolitan Washington Airports
                                                                                       Directors authorized categorical exceptions to full and open
Authority (MWAA), which operates the region’s two largest
                                                                                       competition for items such as legal services, urgent need, or
airports13—Ronald Reagan Washington National and Dulles
                                                                                       financial services.15 MWAA awarded almost two-thirds (64
International—and is also responsible for a massive public
                                                                                       percent) of its 190 contracts that exceeded $200,000 with less
transportation expansion; Union Station, the main multi-modal
                                                                                       than full and open competition during the period of our review.16
transportation hub in Washington, DC; and the United States
                                                                                       Of these, 117 contracts were awarded using categorical excep-
Merchant Marine Academy (the Academy) in New York. We
                                                                                       tions, which amounted to more than $220 million.
have recent and ongoing work evaluating DOT’s management
practices for these critical assets due to recent concerns raised by
                                                                                       In response to our letter, the Secretary, the Governors of
Congress or other stakeholders to our office. Our audits highlight
                                                                                       Maryland and Virginia, and the Mayor of the District of
the need for the Department to improve its oversight of these
                                                                                       Columbia issued a letter to MWAA’s Chairman and Board
assets to ensure their success and sustainability.
                                                                                       members17 mandating immediate reform to MWAA’s business
                                                                                       practices. Reforms include tightening Board travel procedures to
KEY CHALLENGES
                                                                                       eliminate wasteful spending, strengthening MWAA’s ethics code
   ▶ Enforcing reforms to MWAA’s operating and contracting
                                                                                       to guard against conflicts of interest and provide annual ethics
     practices
                                                                                       training to Board members and employees, and terminating all
   ▶ Overseeing the management of Washington, DC’s Union                               existing contracts with former Board members that were not
     Station                                                                           competitively bid. In addition, the Secretary appointed an
                                                                                       Accountability Officer to ensure those reforms would be
   ▶ Protecting the Academy’s sensitive information and systems
                                                                                       instituted immediately. As stated in our November 2012 report,
                                                                                       while MWAA has taken positive steps to correct the deficiencies
ENFORCING REFORMS TO MWAA’S OPERATING AND
                                                                                       we identified—including revising its travel and ethics policies
CONTRACTING PRACTICES MWAA operates two major
                                                                                       and suspending contracts with former Board members—signifi-
federally owned airports and is also responsible for designing,
                                                                                       cant weaknesses remain that leave the Authority vulnerable to
constructing, and partially financing the Dulles Corridor
                                                                                       criticism for its contracting practices and management oversight.
Metrorail Project—a two-phased, multibillion-dollar effort to
                                                                                       Our work found, among other things, that the Authority’s
expand DC Metrorail service in Northern Virginia and provide
                                                                                       existing ethics-related procedures18 have been insufficient to
easier access to Dulles Airport.14 Therefore, MWAA’s decisions
                                                                                       detect violations of anti-nepotism and gift provisions. For
greatly impact the DC region and its residents. Since its creation,
                                                                                       example, one senior official indirectly supervised family
MWAA and its Board of Directors have made substantial
                                                                                       members despite the code’s explicit provision prohibiting such
improvements to the region’s airports. Yet, MWAA has recently
                                                                                       relationships. Another senior official regularly accepted
been the subject of controversy and debate regarding its policies,
                                                                                       inappropriate gifts from an MWAA contractor—including Super
contracting practices, and governance issues. In a May 2012
                                                                                       Bowl tickets, travel, and accommodations worth almost $5,000.
letter to Congressmen Wolf and Latham, we raised concerns that
                                                                                       Enhanced policies, strong internal controls, and robust oversight
MWAA’s accountability to Congress, stakeholders, and the
                                                                                       in the areas of procurement,19 ethics, hiring and compensation,
public—as well as compliance with the Act transferring
                                                                                       and transparency will be critical to maintain and improve the
operation of the airports—has been limited by weaknesses in its
internal policies and oversight of those policies. In particular,                      15 The six categorical exceptions established in section 1.2 of MWAA’s Contracting
policies and procedures for Board travel, ethics, and transparency                        Manual include (1) limited competition for urgent needs; legal, financial, audit,
                                                                                          or legislative representation professional services; and local business set
were found to be insufficient to ensure fiduciary and ethical
                                                                                          asides; (2) airport security controlled distribution RFP; (3) utility supplies and
responsibility in the Board’s expenses and activities. For                                services; (4) Government purchasing agreements; (5) airline tenant procured
example, MWAA’s policy does not provide suggested limits or                               projects; and (6) proprietary equipment and software. Use of these exceptions
                                                                                          requires no further Board approval.
thresholds for business-related Board travel expenses, such as
                                                                                       16 We reviewed contracts awarded between January 2009 and June 2011.
food, beverages, and flights. We identified one instance in which                      17 Letter to Michael A. Curto, Chairman and Members of the Board of Directors,
                                                                                          Metropolitan Washington Airports Authority, August 14, 2012.
13 MWAA operates these airports, their access highways, and other related              18 MWAA recently approved a new employee code of ethics that will go into effect
   facilities under the terms of a lease agreement with DOT authorized by the             on January 1, 2013.
   Metropolitan Washington Airports Act of 1986 (Pub. L. No. 99-591) and an            19 Based on FTA’s Procurement System Review, MWAA’s Board of Directors
   interstate compact between the Commonwealth of Virginia and the District of            recently adopted changes to its Procurement Manual to be in line with FTA
   Columbia.                                                                              procurement requirements. However, we have not reviewed MWAA’s
14 This Project entails adding a 23-mile extension to DC’s Metrorail system. This         implementation of these FTA-required changes because they are so recent.
   extension, to be known as the “Silver Line,” will connect the Metrorail system to      Also, our audit review and findings are broader than the FTA grant rules and
   the Washington Dulles International Airport and Loudon County, Virginia.               apply to MWAA contract policies and practices for all of its contracts.


117 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
Authority’s operations and restore public trust in the soundness of                       Federal law and DOT policy require the Academy to implement
its current and future activities. The Department will also need to                       security controls to protect the information and systems.22
consider devising and adopting enforcement mechanisms to
ensure that the remaining weaknesses we identified are addressed.                         In our May 2012 audit, we reported that the Academy’s security
                                                                                          controls were insufficient to protect its Web site and LAN from
OVERSEEING THE MANAGEMENT OF WASHINGTON, DC’S                                             compromise, as the Academy had not implemented Federal and
UNION STATION Washington’s historic Union Station, built over                             DOT security requirements. For example, the Academy’s
a century ago, provides rail, bus, and Metro access into the heart                        databases containing PII had poor user access controls. As a
of the city and is a major tourist destination. In 1983, after years                      result, the Academy ran the risk of intruders gaining unautho-
of neglect, the Department created the non-profit Union Station                           rized access to a large amount of sensitive information stored in
Redevelopment Corporation (USRC) to oversee and complete                                  its system without detection or response from the Academy. We
facility rehabilitation.20 While DOT’s Federal Railroad Adminis-                          also identified a need for increased accountability and culture
tration (FRA) owns the Station, USRC is charged with managing                             change as it pertains to information security. For example, we
and protecting Federal interests in the property. For the past 25                         noted that the Academy did not enforce controls over student
years, USRC has successfully funded basic maintenance and                                 laptops connected to its LAN and did not discipline students for
improvements with revenue from the Station’s parking facilities                           using the LAN in ways that increased security risks, such as
and leased space. However, Union Station and USRC now face                                accessing adult content. The Department will need to increase
financial challenges that may exceed USRC’s ability to self-fi-                           oversight of MARAD and the Academy to protect their informa-
nance and require the Department’s intervention. These challeng-                          tion and systems.
es include projecting expected outlays and developing a
financing plan to ensure payment of the following:                                        RELATED PRODUCTS The following related documents can be
                                                                                          found on the OIG Web site at http://www.oig.dot.gov.
   ▶ DC Possessory Interest Taxes totaling approximately $9
     million in back taxes and almost $1 million annually                                   ▶ MWAA’s Weak Policies and Procedures Have Led to
     thereafter                                                                               Questionable Procurement Practices, Mismanagement, and
                                                                                              a Lack of Overall Accountability, November 1, 2012
   ▶ outstanding debt from financing a garage expansion project
     totaling $29 million                                                                   ▶ The U.S. Merchant Marine Academy’s Security Controls
                                                                                              Were Not Sufficient To Protect Sensitive Data from
   ▶ damages from the August 2011 earthquake currently 

                                                                                              Unauthorized Access, May 30, 2012
     estimated between $10 million and $12 million
	
                                                                                            ▶ Interim Response Letter to Congressmen Wolf and Latham
   ▶	 planned repairs and improvements through 2016 estimated
                                                                                              Regarding MWAA, May 15, 2012
      at $40 million or more

   ▶ other structural issues and safety and security upgrades 

     under consideration
	
                                                                                          FOR MORE INFORMATION ON THE ISSUES IDENTIFIED IN
                                                                                          THIS CHAPTER, PLEASE CONTACT LOUIS C. KING,
USRC and FRA need to take a thorough look at the condition
                                                                                          ASSISTANT INSPECTOR GENERAL FOR FINANCIAL AND
and emerging needs of Union Station; develop a comprehensive
                                                                                          INFORMATION TECHNOLOGY AUDITS, AT (202) 366-1407;
master plan that includes the needed repairs, upgrades, and
                                                                                          JEFFREY B. GUZZETTI, ASSISTANT INSPECTOR GENERAL
improvements; and develop funding streams for these require-
                                                                                          FOR AVIATION AND SPECIAL PROGRAM AUDITS, AT (202)
ments before the facility deteriorates or becomes a safety
                                                                                          366-0500; OR MARY KAY LANGAN-FEIRSON, ASSISTANT
concern.
                                                                                          INSPECTOR GENERAL FOR ACQUISITION AND
                                                                                          PROCUREMENT AUDITS, AT (202) 366-5225.
PROTECTING THE ACADEMY’S SENSITIVE INFORMATION
AND SYSTEMS The Academy—operated by the Department’s
Maritime Administration (MARAD)—is responsible for training
shipboard officers for the U.S. Merchant Marine. As an institu-
tion of higher education, the Academy possesses sensitive
information, including personally identifiable information (PII).21
For example, the Academy uses a local area network (LAN) and
Web site for several purposes, including the acceptance of
student applications and maintenance of student grade records.

20 Total rehabilitation costs were approximately $200 million.

21 PII is any information about an individual maintained by an agency, including, but 

   not limited to, education, financial transactions, medical history, and criminal or
   employment history and information that can be used to distinguish or trace an         22 As required by the Federal Information Security Management Act of 2002 and
   individual’s identity, such as their name, and social security number.                    the Departmental Cybersecurity Policy, DOT Order 1351.37, July 7, 2011.




118 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
                                                                                          manufacturers to affix guidance on passenger motor vehicles on
CHAPTER 4                                                                                 how to submit defect complaints to NHTSA.

STRENGTHENING EXISTING SURFACE SAFETY
                                                                                          ENHANCING MOTOR CARRIER SAFETY OVERSIGHT Large
PROGRAMS AND EFFECTIVELY IMPLEMENTING NEW
                                                                                          truck and bus crashes and fatalities have increased and therefore
SAFETY REQUIREMENTS
                                                                                          remain a key safety issue.25 Over the past year, the Federal Motor
The Department’s top priority is to make our transportation
                                                                                          Carrier Safety Administration (FMCSA) took actions to remove
system safer. While fatalities on the Nation’s highways have
                                                                                          unsafe commercial drivers and carriers, including motor coach
declined by over 25 percent since 2005,23 the safety of highways,
                                                                                          companies. FMCSA also implemented a more stringent safety
railroads, and pipelines remains an ongoing concern. The
                                                                                          assurance process that new entrants must complete. However, it
Department faces a significant challenge to continually improve
                                                                                          has yet to address two action items raised by our office and the
and oversee the Nation’s surface transportation systems that are
                                                                                          National Transportation Safety Board (NTSB): (1) implement
critically important to efficiently move people and energy
                                                                                          promised checks on whether U.S.-based commercial vehicles
sources, promote interstate commerce, and grow the U.S.
                                                                                          display proof of compliance with manufacturing standards and
economy. A key component of departmental oversight will be
                                                                                          (2) issue a new regulation tightening controls over the leasing of
implementation of new safety requirements enacted in the
                                                                                          buses. FMCSA should also collaborate with NHTSA on new
Moving Ahead for Progress in the 21st Century Act of 2012
                                                                                          MAP-21 provisions to strengthen motor coach safety and carry
(MAP-21).24
                                                                                          out MAP-21 provisions on safety reviews, commercial driver’s
                                                                                          license endorsements, and inspections.
KEY CHALLENGES
   ▶ Following through on initiatives to improve the National
                                                                                          MAP-21 also provided FMCSA with a critical new oversight tool
     Highway Traffic Safety Administration’s oversight of
                                                                                          by allowing it to revoke the registration of reincarnated carri-
     vehicle safety defects
                                                                                          ers26—a safety concern we reported in April 2012. FMCSA
   ▶ Enhancing motor carrier safety oversight                                             revised its vetting process to identify reincarnated carriers
                                                                                          applying for authority to transport passengers and household
   ▶ Implementing new rail transit safety oversight requirements
                                                                                          goods. However, before FMCSA expands the vetting process to
   ▶ Developing a new national tunnel safety program                                      all new motor carrier applicants, it will need to implement a
                                                                                          risk-based approach to best target its limited vetting resources.
   ▶ Effectively addressing expanded railroad safety oversight
                                                                                          FMCSA must also effectively implement its newly updated
     responsibilities
                                                                                          policies on placing reincarnated carriers out of service and
   ▶ Providing more rigorous oversight of pipeline safety 
                               reviewing and approving applications for operating authority.
     programs
	
                                                                                          IMPLEMENTING NEW RAIL TRANSIT SAFETY OVERSIGHT
FOLLOWING THROUGH ON INITIATIVES TO IMPROVE THE                                           REQUIREMENTS MAP-21 enhanced the Federal Transit
NATIONAL HIGHWAY TRAFFIC SAFETY                                                           Administration’s (FTA) authority to oversee the safety of the
ADMINISTRATION’S OVERSIGHT OF VEHICLE SAFETY                                              Nation’s public transportation systems. By October 1, 2013, FTA
DEFECTS Vehicle defects, particularly unintended acceleration,                            must initially determine whether to certify that each State that
have brought significant public, media, and congressional                                 has a State Safety Oversight agency has a State safety oversight
attention to the National Highway Traffic Safety Administration’s                         plan in compliance with MAP-21 requirements. This will require
(NHTSA) oversight of vehicle safety. Our 2011 audit work found                            FTA to establish safety performance criteria, vehicle safety
the need for process improvements within NHTSA’s Office of                                performance standards, safety certification training for covered
Defects Investigation, particularly with establishing standard                            personnel, and plans for each transit agency to reduce safety
operating procedures for storing investigative records and                                risks.
documenting evidence. NHTSA also needs to assess its work-
force to determine if it has enough staff and expertise to operate                        FTA will face significant challenges in carrying out these new
effectively. A key component of these efforts should be a formal                          requirements. As our prior work shows, FTA should obtain
training program for investigative staff to keep them apprised of                         sufficient data on attributes such as fatalities, injuries, and transit
defect identification processes and new technologies that could                           assets. It should also work expeditiously to establish rail
impact their work. NHTSA must also take specific steps to meet                            transit-specific goals and performance measures to assess the
MAP-21 requirements, which include publishing motor vehicle                               impact of its new safety efforts. Additionally, FTA should issue
safety recall information and developing regulations that direct                          timely guidance to State Safety Oversight agencies, prioritize the
23	 Based on September 2012 NHTSA data on actual or projected fatalities through          greatest safety risks for any rulemakings, enlist leadership
    2011. NHTSA also reported that its statistical projection of traffic fatalities for
    the first half of 2012 shows an estimated 9-percent increase in fatalities over       25	 From 2009 to 2011, large truck and bus crashes increased by 8.4 percent and
    the number projected to have occurred in the first half of 2011.                          associated fatalities increased by 5.7 percent.
24	 Moving Ahead for Progress in the 21st Century, Pub. L. No. 112-141 (July 2012),       26	 Motor carriers that attempt to operate as a different entity in an effort to evade
    §32701-32711.                                                                             enforcement action, out-of-service orders, or both.




119 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
commitment to expedite these rulemakings, and periodically                  manuals for the new RSIA regulations before its inspectors
review and revise regulations.                                              initiated oversight activities for those regulations.

DEVELOPING A NEW NATIONAL TUNNEL SAFETY PRO-                                PROVIDING MORE RIGOROUS OVERSIGHT OF PIPELINE
GRAM The Federal Highway Administration (FHWA) must meet                    SAFETY PROGRAMS Several tragic pipeline accidents over the
new MAP-21 requirements to establish a national tunnel                      past few years have highlighted the need for the Pipeline and
inspection program and a tunnel inventory. This program would               Hazardous Materials Safety Administration (PHMSA) to
mirror the national bridge inspection program and bridge                    enhance its oversight of pipeline operators. Of particular concern
inventory and would require States to inspect and periodically              are operators’ integrity management programs, intended to
report on the condition of the Nation’s tunnels. FHWA has begun             reduce the likelihood and severity of pipeline accidents in highly
developing tunnel inspection standards, which were included in a            populated or otherwise sensitive areas (known as High Conse-
proposed rule issued in 2010.27 FHWA also developed guidance                quence Areas).29
for tunnel design, construction, rehabilitation, and inspection that
may be adopted as standards.                                                NTSB and our office have reported on weaknesses in this aspect
                                                                            of PHMSA oversight. In its investigation of the 2010 San Bruno,
To fully implement the MAP-21 provisions and promote                        CA, pipeline explosion,30 NTSB questioned the operator’s
consistent application of tunnel safety standards, FHWA must                implementation of its integrity management programs. NTSB
take a number of steps. These include issuing regulations that              raised concerns as to the effectiveness of inspection protocols
clearly specify what constitutes a tunnel, ensuring its baseline            PHMSA used to assess operators’ compliance with their
inventory of highway tunnels is accurate, and establishing a                performance-based safety programs. NTSB recommended that
process to assess inspection data. Finally, tunnel inspections may          the Secretary perform a top-to-bottom review of PHMSA’s
demand specialized engineering skills not readily available in              processes and procedures used to oversee operators’ integrity
FHWA and State DOT offices. Therefore, it will be critical for              management program compliance. In response, the Secretary and
FHWA to develop a training and certification program to help                PHMSA agreed that PHMSA’s Senior Policy Advisor would
FHWA and State DOT offices recruit and train the staff needed to            conduct this review, which is now underway.
implement new tunnel safety standards.
                                                                            In June 2012, we similarly reported vulnerabilities in PHMSA’s
EFFECTIVELY ADDRESSING EXPANDED RAILROAD                                    oversight and enforcement of operators’ compliance with their
SAFETY OVERSIGHT RESPONSIBILITIES The Federal                               integrity management programs, specifically in regard to
Railroad Administration (FRA) faces an ongoing challenge in                 hazardous liquid pipelines. While PHMSA has several efforts
carrying out its expanded regulatory role under the Rail Safety             underway to enhance its integrity management inspection
Improvement Act of 2008 (RSIA).28 Congress passed RSIA after                program, the Agency faces challenges that impact its oversight.
several high-profile railroad accidents between 2002 and 2008               These include managing a growing backlog of inspections,
and projections of rail traffic increases that could result in higher       identifying integrity management weaknesses through field
accident rates over the next 10 years. RSIA was the first                   inspections and onsite accident investigations, and transitioning
reauthorization of the Federal Rail Safety program since 1994.              to a new risk-based inspection program. In addition, PHMSA’s
                                                                            integrity management requirements for operators’ facilities (such
RSIA requires FRA to undertake a variety of actions, ranging                as valves, pump and meter stations, and storage tanks) have not
from development of a long-term safety strategy to completion of            kept pace with recent technological advances that would enhance
scientific studies. The largest subset of these requirements directs        oversight at such facilities. Finally, the Agency has not yet
FRA to develop 17 new safety regulations for the railroad                   resolved key data management deficiencies, such as insufficient
industry. These new regulations govern a wide variety of areas,             quality checks for pipeline data, or established meaningful
such as hours of service requirements for railroad workers,                 performance measures for its integrity management program.
automated collision-prevention technology, standards for track
inspections, and safety at highway-rail grade crossings. As of              RELATED PRODUCTS The following related documents can be
July 1, 2012, FRA had completed 9 of the 17 regulations required            found on the OIG Web site at http://www.oig.dot.gov.
by RSIA. In addition to completing these, FRA faces the
                                                                               ▶ Hazardous Liquid Pipeline Operators’ Integrity 

challenge of developing guidance for its oversight staff to
                                                                                 Management Programs Need More Rigorous PHMSA
	
oversee industry compliance with the new safety regulations.
                                                                                 Oversight, June 18, 2012
	
FRA publishes compliance manuals to provide guidance to its
inspectors and the railroad industry on the application of safety
regulations. However, the Agency failed to finalize compliance              29 High Consequence Areas include unusually sensitive areas (defined as drinking
                                                                               water or ecological resource areas), urbanized and other populated places, and
27 FHWA plans to issue a supplemental proposed rule in 2013 incorporating      commercially navigable waterways.
   MAP-21 changes.                                                          30 On September 9, 2010, a 54-year old gas pipeline exploded in San Bruno, CA,
28 Pub. L. No. 110-432 (2008).                                                 killing 8 people and destroying 38 homes.




120 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
  ▶ Timely and Targeted FMCSA Action Is Needed To Fully            STRENGTHENING EXISTING HIGHWAY AND TRANSIT
    Address National Transportation Safety Board                   PROJECT OVERSIGHT MECHANISMS FHWA and FTA have
    Recommendations for Improving Passenger Carrier                taken actions to improve oversight of highway and transit
    Oversight, April 17, 2012                                      projects. These include adopting processes from FHWA’s
                                                                   National Review Teams—an innovation of the American
  ▶ Challenges to Improving Oversight of Rail Transit Safety
                                                                   Recovery and Reinvestment Act (ARRA)31—for future assess-
    and Implementing an Enhanced Federal Role, January 31,
                                                                   ments across FHWA Division offices and reviewing FTA’s
    2012
                                                                   regional oversight practices. However, both agencies remain
  ▶ Process Improvements Are Needed for Identifying and            challenged to ensure projects meet Federal requirements and
    Addressing Vehicle Safety Defects, October 6, 2011             maximize the return on Federal dollars.

  ▶ Statement for the Record: FMCSA Is Strengthening Motor
                                                                   For highway and bridge investments, States assume much of the
    Carrier Safety Oversight but Further Action and Attention
                                                                   oversight responsibility for about $40 billion in annual Feder-
    Are Needed, July 21, 2011
                                                                   al-aid, but FHWA is ultimately responsible for making sure that
  ▶ Letter to Chairmen Rockefeller and Pryor Regarding             projects meet Federal requirements. However, our work has
    Whether Former NHTSA Employees Exerted Undue                   found a number of areas where FHWA can do more to hold
    Influence on Safety Defect Investigations, April 4, 2011       States accountable. First, FHWA must follow through on
                                                                   promised actions to correct States’ insufficient oversight of local
                                                                   public agency (LPA) programs—federally funded projects
                                                                   managed by cities, counties, and other local entities. For example,
FOR MORE INFORMATION ON THE ISSUES IDENTIFIED IN
                                                                   more uniform FHWA assessments of LPA deficiencies would
THIS CHAPTER, PLEASE CONTACT JOSEPH W. COMÉ,
                                                                   help curb persistent risks, such as noncompliance with Federal
ASSISTANT INSPECTOR GENERAL FOR HIGHWAY AND
                                                                   labor requirements and improper processing of contract changes.
TRANSIT AUDITS, AT (202) 366-5630; JEFFREY B.
                                                                   Second, FHWA’s Division Offices can more clearly define
GUZZETTI, ASSISTANT INSPECTOR GENERAL FOR
                                                                   Federal and State oversight roles and responsibilities and identify
AVIATION AND SPECIAL PROGRAM AUDITS, AT (202)
                                                                   program risks and priorities within the Stewardship and
366-0500; OR MITCH BEHM, ASSISTANT INSPECTOR
                                                                   Oversight Agreements they have with States. Finally, FHWA will
GENERAL FOR RAIL, MARITIME, AND ECONOMIC
                                                                   be challenged to ensure States effectively implement new
ANALYSIS, AT (202) 366-9970.
                                                                   regulations on performing value engineering studies during a
                                                                   project’s planning or design phase to improve project perfor-
                                                                   mance, cost, and quality.
CHAPTER 5
                                                                   FHWA must also continue to exercise proper stewardship of
MAXIMIZING SURFACE INFRASTRUCTURE INVESTMENTS
                                                                   ARRA funds, which provided over $27 billion for highway
WITH EFFECTIVE PROGRAM OVERSIGHT AND EXECUTION
                                                                   infrastructure projects in 2009 and established tight time frames
OF NEW LEGISLATIVE REQUIREMENTS
                                                                   for using these funds. Last year, the Office of Management and
The Federal Highway Administration (FHWA) and the Federal
                                                                   Budget (OMB) directed Federal agencies to expedite use of
Transit Administration (FTA) face challenges in overseeing the
                                                                   ARRA funds to advance ARRA’s major goal of stimulating
billions in Federal funds provided annually to construct and
                                                                   economic activity well before the final deadline of September 30,
maintain the Nation’s vast network of roadways and transit
                                                                   2015. As of July 1, 2012, the bulk of FHWA’s ARRA funds have
systems. In addition, both agencies must implement new
                                                                   been spent, but the remaining portion of the approximately $2
initiatives enacted in the Moving Ahead for Progress in the 21st
                                                                   billion (7.6 percent of ARRA highway funds) may be returned to
Century (MAP-21) Act of 2012—the first surface transportation
                                                                   the Treasury if not spent in time.
authorization since 2005. MAP-21 places priority on accelerating
project delivery and employing performance-based investment
                                                                   FTA has oversight responsibility for approximately $10 billion it
management. Implementing MAP-21 will require FHWA and
                                                                   provides annually to more than 1,300 States and localities,
FTA to make fundamental changes in the way they currently do
                                                                   including a large portfolio of major infrastructure projects across
business.
                                                                   the country. Our work, done at FTA’s request, has identified areas
                                                                   where FTA can improve its oversight tools—which rely heavily
KEY CHALLENGES
                                                                   on contractors—to maximize the return on investment. For exam-
  ▶ Strengthening existing highway and transit project oversight
                                                                   ple, FTA Headquarters must provide its regional offices and
    mechanisms
                                                                   oversight contractors with enhanced guidance to ensure they
  ▶ Expediting and reforming highway and transit project 
         consistently identify and accurately track deficiencies found
    delivery
	                                                     during key audits of FTA grantees. Additionally, after our
                                                                   assessment of the Dulles Corridor Metrorail Project, FTA
  ▶ Transitioning to a system of performance-based and 

    data-driven surface transportation investments
	               31 American Recovery and Reinvestment Act, Pub. L. No. 111-5 (2009).



121 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
recognized that issues we identified merited an internal review of          Strengthening, July 15, 2011
its project management oversight contractor processes. Timely
implementation of these reforms is essential to ensure transit
funds are appropriately spent.
                                                                      FOR MORE INFORMATION ON THE ISSUES IDENTIFIED IN
                                                                      THIS CHAPTER, PLEASE CONTACT JOSEPH W. COMÉ,
EXPEDITING AND REFORMING HIGHWAY AND TRANSIT
                                                                      ASSISTANT INSPECTOR GENERAL FOR HIGHWAY AND
PROJECT DELIVERY A key challenge for DOT is to meet new
                                                                      TRANSIT AUDITS, AT (202) 366-5630.
MAP-21 requirements to expedite and reform highway and
transit projects. Reducing project delivery time has become a
national priority, as a typical highway project takes an average of
13 years to complete. In addition to tying up resources, long
                                                                      CHAPTER 6
project delivery times delay opportunities to reduce highway
                                                                      ADEQUATELY OVERSEEING ADMINISTRATION OF HIGH
congestion and improve traffic safety. MAP-21 incorporates a
                                                                      SPEED INTERCITY PASSENGER RAIL GRANT FUNDS
specific set of initiatives, such as broadening States’ ability to
                                                                      The Passenger Rail Investment and Improvement Act of 200832
acquire or preserve the property needed for a project before
                                                                      (PRIIA) directed the Federal Railroad Administration (FRA) to
completion of lengthy environmental impact reviews. To meet
                                                                      establish a grant program to fund various types of intercity
MAP-21 requirements, it will be essential that DOT build on its
                                                                      passenger rail improvements. FRA has awarded and obligated
agencies’ existing initiatives, such as FHWA’s “Every Day
                                                                      over 95 percent of $10.1 billion in grant funds—$8 billion of
Counts.” This initiative focuses on identifying proven project
                                                                      which was appropriated by the American Recovery and
delivery processes and market-ready technologies, and encourag-
                                                                      Reinvestment Act of 2009 (ARRA)—to develop and implement
ing widespread use among States.
                                                                      the High Speed Intercity Passenger Rail Program (HSIPR).
                                                                      While FRA has developed parameters for funding grants, it has
TRANSITIONING TO A SYSTEM OF PERFORMANCE-BASED
                                                                      only disbursed 8 percent of funds to date due to a number of
AND DATA-DRIVEN SURFACE TRANSPORTATION INVEST-
                                                                      challenges. As more HSIPR grantees move to begin project
MENTS MAP-21 requires DOT to move toward more perfor-
                                                                      construction, FRA will need to provide clear program guidance,
mance-based investment management of its highway and transit
                                                                      comprehensive training, and cohesive program goals and
programs. Accordingly, DOT must establish new rules and
                                                                      performance measures.
performance standards, link performance data collection to
project selection and funding processes, and modify oversight
                                                                      KEY CHALLENGES
mechanisms. DOT will be challenged to put performance
                                                                         ▶ Approving completed stakeholder agreements to disburse
management into actual practice, as demonstrated by its
                                                                           obligated HSIPR funds
difficulties deploying a performance-based program for its
multi-modal Transportation Investment Generating Economic                ▶ Addressing staffing needs to provide effective HSIPR 

Recovery (TIGER) discretionary grant program. Since 2009,                  Program oversight
	
	
DOT has worked to require each TIGER grantee to develop and
                                                                         ▶ Overseeing HSIPR Program progress with comprehensive
report on outcome-based performance measures. However, DOT
                                                                           goals, performance measures, and monitoring
has yet to develop the methods to make meaningful comparisons
across diverse transportation modes and assess project impacts.
                                                                      APPROVING COMPLETED STAKEHOLDER AGREEMENTS
                                                                      TO DISBURSE OBLIGATED HSIPR FUNDS FRA issued interim
RELATED PRODUCTS The following related documents can be
                                                                      HSIPR guidance for grantees and freight companies to outline
found on the OIG Web site at http://www.oig.dot.gov.
                                                                      the terms and conditions they must agree on before receiving any
  ▶ Improvements to Stewardship and Oversight Agreements              Federal funds. These agreements cover passenger rail service
    Are Needed To Enhance Federal-Aid Highway Program                 improvements, construction, and maintenance responsibilities.
    Management, October 1, 2012                                       FRA approved completed agreements related to service improve-
                                                                      ments prior to obligation of project funds. Many agreements
  ▶ DOT Established Timely Controls for the TIGER
                                                                      related to construction and maintenance responsibilities are
    Discretionary Grant Program, but Opportunities Exist To
                                                                      incomplete because stakeholders cannot agree on required terms,
    Strengthen Oversight, September 20, 2012
                                                                      and FRA’s interim guidance does not specify how these terms
  ▶ Improvements Needed in FTA’s Grant Oversight Program,             should be addressed. This has required FRA to be more involved
    August 2, 2012                                                    in negotiating the agreements to clarify its expectations and
                                                                      address disputes among stakeholders, resulting in a more time
  ▶ Actions Needed To Improve FTA’s Oversight of the Dulles
                                                                      consuming process. If delays with projects’ agreements continue,
    Corridor Metrorail Project’s Phase 1, July 26, 2012
                                                                      obligated funds will sit idle instead of being freed up for projects
  ▶ FHWA’s Oversight of Federal-Aid and Recovery Act                  with completed agreements. As the HSIPR Program progresses,
    Projects Administered by Local Public Agencies Needs
                                                                      32 P.L. No. 110-432, Div. B.




122 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
FRA will need finalized guidance that provides clear direction to      found on the OIG Web site at http://www.oig.dot.gov.
grantees on completing required agreements and to applicants on
                                                                          ▶ FRA’s Requirements for High Speed Rail Stakeholder
developing project grant applications to enable proper evalua-
                                                                            Agreements Mitigated Risk but Delayed Some Projects’
tions of project viability. FRA plans to issue a Notice of Proposed
                                                                            Benefits, November 1, 2012
Rulemaking to finalize the guidance within 4 months of receiving
new appropriated funds from Congress for the HSIPR program.               ▶ Completing a Grants Management Framework Can Enhance
                                                                            FRA’s Administration of the HSIPR Program, September 11,
ADDRESSING STAFFING NEEDS TO PROVIDE EFFECTIVE                              2012
HSIPR PROGRAM OVERSIGHT FRA has not fully addressed
                                                                          ▶ FRA Has Made Progress in Implementing PRIIA
	  
	
HSIPR Program staffing and training needs. To date, FRA has
                                                                            Responsibilities, but Challenges for Long-Term HSIPR 

filled 91 percent of the staff positions allocated for its division
                                                                            Remain, March 6, 2012
	 
	
primarily responsible for HSIPR. The Agency recognizes its need
to fill remaining vacancies, but it has experienced difficulty in
recruiting qualified candidates for specialized roles, such as grant
managers. Effective integration of personnel into these key            FOR MORE INFORMATION ON THE ISSUES IDENTIFIED IN
positions is critical to build the Agency’s expertise to adequately    THIS CHAPTER, PLEASE CONTACT MITCH BEHM,
manage the growing HSIPR program. FRA’s recently completed             ASSISTANT INSPECTOR GENERAL FOR RAIL, MARITIME,
Grants Management Manual includes Program policies that will           AND ECONOMIC ANALYSIS, AT (202) 366-9970.
be the basis for a full training curriculum, which will focus on
grant management practices for project-based staff. The Agency
plans to issue the curriculum by December 2012.                        CHAPTER 7
OVERSEEING HSIPR PROGRAM PROGRESS WITH COM-                            STRENGTHENING FINANCIAL MANAGEMENT OVER
PREHENSIVE GOALS, PERFORMANCE MEASURES, AND                            GRANTS TO BETTER USE FUNDS, CREATE JOBS, AND
MONITORING FRA’s HSIPR program lacks clear goals and                   IMPROVE INFRASTRUCTURE
meaningful performance measures needed for decision makers to          Over the past 5 years, the Department has successfully main-
understand FRA’s expectations for the Program and FRA’s                tained a clean opinion on its financial statements—a commend-
progress in achieving them. For example, one HSIPR goal is to          able step towards good financial management. However, DOT
upgrade existing intercity passenger rail corridors to improve         could do more to maximize the return on investment for its
reliability, speed, and frequency of existing services. However,       grants, many of which are used to create jobs and improve
the goal does not include measures that indicate progress, such as     transportation infrastructure. Our audit work has identified
anticipated trip time improvements, additional trains, and             financial management weaknesses that allow available grant
ridership gains. In addition, many goals are inconsistent across       funds to remain committed to projects where they are no longer
FRA’s planning documents, and some cannot be reconciled. It is         needed, permit improper payments, and limit the benefits of
therefore difficult for FRA to effectively set priorities and plan     single audits33 in improving controls over grant spending. Until it
best use of resources. A key step to better define HSIPR program       addresses these weaknesses, DOT will be unable to make the
goals—and what their outcomes should be—is completion of the           most of its increasingly limited grant resources.
congressionally mandated National Rail Plan (NRP). The NRP is
intended to help States determine how to integrate interstate rail     KEY CHALLENGES
planning and address national transportation needs through high           ▶ Identifying idle grant funds that can be used for transporta-
speed rail corridors. Therefore, once complete, the NRP could               tion projects
greatly aid FRA’s efforts to make HSIPR goals more cohesive at
                                                                          ▶ Enhancing controls to reduce and recover improper 

the State and national levels. To date, however, FRA has been
                                                                            payments
	
                                                                                    
	
slow in implementing the NRP due largely to its focus on
obligating funds to grantees.                                             ▶ Making better use of single audit findings to improve 

                                                                            grantees’ financial management practices
	
                                                                                                                     
	
FRA also faces challenges with aspects of HSIPR program
monitoring. In March 2012, FRA finalized its monitoring plan,          IDENTIFYING IDLE GRANT FUNDS THAT CAN BE USED
which defines timeframes and personnel responsibilities for            FOR TRANSPORTATION PROJECTS For the past 4 years, the
completing scheduled reviews of HSIPR grantees’ compliance             Department’s financial statement auditors have recommended
with grant terms. However, FRA still lacks an effective tool to        that DOT strengthen internal controls, de-obligate and close out
help grant managers accurately track and manage grantees’              33 All non-Federal entities that expend $500,000 or more of Federal awards in a
compliance with key documentation requirements, such as those             year are required to obtain an annual audit in accordance with the Single Audit
                                                                          Act Amendments of 1996 and OMB Circular A-133. OIG performs quality control
for ARRA reporting and certification.
                                                                          reviews of selected Single Audits covering expenditures of DOT funds in order to
                                                                          determine (1) the adequacy of the independent auditors’ work, (2) whether the
RELATED PRODUCTS The following related documents can be                   work complied with relevant auditing standards, and (3) the extent to which we
                                                                          can rely on the auditors’ work.



123 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
inactive funds from completed projects in a timely manner, and                             payments. In October 2012, FAA began implementing a
make them available for other priority projects. In particular,                            new risk-based grant oversight process. FAA anticipates this
the financial statement reports and our audit work have identified                         process will take at least 3 years to complete.
a significant deficiency in DOT’s internal controls over
                                                                                        ▶ In 2011, during our audit of FAA’s American Recovery and
Undelivered Orders (UDO).34 For example, our tests of inactive35
                                                                                          Reinvestment Act (ARRA) grants, FAA agreed to recover
grant UDOs on record as of March 31, 2012, disclosed an
                                                                                          $2.1 million from the San Francisco International Airport
estimated $1.2 billion in UDOs that the Department can
                                                                                          for construction that was not authorized in the grant
de-obligate. Most of these obligations were identified within
                                                                                          agreement.
the Federal Highway Administration (FHWA) and Federal
Transit Administration (FTA) grant programs. Further, FHWA
                                                                                     Improvements to DOT’s payment recapture program38 would
and FTA policies and procedures for monitoring grant obligations
                                                                                     help it detect and recover improper payments. In particular, DOT
use thresholds (e.g., age of obligation) that do not enable timely
                                                                                     needs to increase its coverage of payments included in this
identification of unneeded obligations. We also found many
                                                                                     program and implement follow-up actions. To illustrate, in 2011,
cases where personnel did not evaluate obligations that met the
                                                                                     DOT tested only $26 billion of its reported net costs of $78
policy thresholds.
                                                                                     billion. Although the recapture program identified improper
                                                                                     payments totaling $266,000 that year, no changes were made to
On July 11, 2012, the DOT Chief Financial Officer directed all
                                                                                     correct their causes. DOT plans to implement additional
Operating Administrations to immediately begin a 60-day,
                                                                                     procedures to improve its next payment recapture audit.
resource-intensive remediation effort to identify and de-obligate
unneeded UDOs where possible or quantify unneeded UDOs for
                                                                                     MAKING BETTER USE OF SINGLE AUDIT FINDINGS TO
future corrective action. While this is a positive step, it serves
                                                                                     IMPROVE GRANTEES’ FINANCIAL MANAGEMENT PRAC-
only as a short-term solution to correct the financial statements as
                                                                                     TICES DOT faces challenges in making better use of single audit
of September 30, 2012. To create a permanent solution to this
                                                                                     findings to improve its grantees’ financial management practices.
persistent problem, the Department will have to revisit its
                                                                                     One reason is the increased volume of single audit findings
policies and procedures for monitoring grant obligations, identify
                                                                                     associated with the infusion of ARRA funds into the grant
potential training needs for personnel who monitor grants, and
                                                                                     management pool. To illustrate, in fiscal year 2010, we issued 89
enforce compliance with internal controls to enable timelier
                                                                                     action memoranda conveying deficiencies in grantees’ proce-
identification and resolution of unneeded obligations. To avoid
                                                                                     dures or operations to oversee grant funds. In fiscal years 2011
the need for another short-term, resource-intensive remediation
                                                                                     and 2012, this number grew to more than 125 action memoran-
effort, the Department must also continually monitor Operating
                                                                                     da.39 Single audit findings identified in these action memoranda
Administrations’ efforts to reprogram unneeded obligations to
                                                                                     included deficiencies such as improper reporting of ARRA funds
projects that will benefit job creation and infrastructure development.
                                                                                     spent and inadequate monitoring of subrecipients. In addition to
                                                                                     procedure and oversight deficiencies, action memoranda also
ENHANCING CONTROLS TO REDUCE AND RECOVER
                                                                                     contained over $27.7 million in questioned costs during fiscal
IMPROPER PAYMENTS Reduction and recovery of improper
                                                                                     year 2012 alone.
payments are longstanding challenges for DOT. The 2010
Improper Payments and Elimination and Recovery Act (IPER-
                                                                                     Another impediment to DOT’s use of single audit findings is
A)36 encourages the elimination of payment error, waste, fraud,
                                                                                     ineffective tracking systems intended to identify grantees with
and abuse in Federal programs. Annually, DOT programs
                                                                                     unresolved findings and problematic single audit histories. We
provide more than $60 billion in grants to over 3,300 grantees.
                                                                                     found this to be the case at FHWA, FAA, and the National
While DOT has identified significant improper payments37 in
                                                                                     Highway Traffic Safety Administration; the Federal Railroad
FHWA’s Federal-Aid Highway Program totaling an estimated
                                                                                     Administration did not have a tracking system. In addition, DOT
$450 million, we continue to find additional recoverable
                                                                                     policy did not establish criteria for tracking such grantees or
improper payments that DOT did not identify. For example:
                                                                                     prescribing actions when appropriate. As a result, it was difficult
   ▶ In 2010, we reported that the Federal Aviation                                  for DOT to take suitable actions (e.g., withholding payments)
     Administration’s (FAA) risk-based grant oversight for its                       against these grantees, which are necessary to help keep grant
     Airport Improvement Program (AIP) was not sufficient to                         funds out of the wrong hands.
     prevent or detect improper payments. We estimate that there
     are more than $31 million in recoverable improper                               RELATED PRODUCTS The following related documents can be
34 UDOs represent goods or services ordered, which have not been received prior      found on the OIG Web site at http://www.oig.dot.gov.
   to the end of the reporting period. Grant UDOs represent funding obligated
   through grantee agreements that have not been disbursed prior to the end of the      ▶ DOT’s Improper Payment Reporting Generally Complies
   reporting period.                                                                 38 A payment recapture program consists of the review of financial records to
35 Our testing focused on grants that had been inactive for at least a year.
           identify overpayments that can be recovered.
36 Public Law Number 111-204 (2010).
                                                39 For fiscal year 2012, 122 action memoranda have been issued as of July 31, 2012.
37 IPERA’s term ‘significant’ means that improper payments in the program or 
          The National Single Audit Program Office projects at least seven more before
   activity in the preceding fiscal year may have exceeded $100,000,000.                fiscal year-end.




124 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
      with IPERA, March 15, 2012                                                provides limited acquisition oversight, with reviews of only two
                                                                                FAA IT programs over the last 2 years. While FAA’s Joint
   ▶ DOT Needs To Improve Its Tracking and Monitoring of All
                                                                                Resources Council (JRC) is charged with ensuring the Agency’s
     Single Audit Findings in Order To Effectively Manage
                                                                                investments and acquisitions fulfill program priorities and
     Grants, December 28, 2011
                                                                                maximize resources, FAA does not always follow its approval
   ▶ Improper Payments Identified in FAA’s Airport                              and oversight processes. For example, the JRC has not consis-
     Improvement Program, December 1, 2010                                      tently held program offices accountable for submitting critical
                                                                                investment information prior to JRC decisions, which jeopar-
                                                                                dizes the success of billion-dollar investments.

FOR MORE INFORMATION ON THE ISSUES IDENTIFIED IN
                                                                                Another ongoing challenge is that DOT’s acquisition leaders and
THIS CHAPTER, PLEASE CONTACT LOUIS C. KING,
                                                                                contracting officers lack sufficient input and authority into
ASSISTANT INSPECTOR GENERAL FOR FINANCIAL AND
                                                                                program planning and decision making to help ensure the billions
INFORMATION TECHNOLOGY AUDITS, AT (202) 366-1407.
                                                                                of dollars DOT spends on contracting annually are cost effective
                                                                                and support program results. In 2011 we reported that DOT’s
                                                                                Office of the Senior Procurement Executive (OSPE) was not
CHAPTER 8                                                                       included in top-level management decisions and that the
                                                                                procurement structure did not play a strategic role in supporting
ENSURING EFFECTIVE MANAGEMENT OF DOT’S
                                                                                DOT’s missions. However, OSPE recently updated its strategic
ACQUISITIONS TO MAXIMIZE VALUE AND PROGRAM
                                                                                plan covering fiscal years 2013 through 2016 and reports that it
PERFORMANCE
                                                                                now provides policy and operational support to parts of DOT
In fiscal year 2011, DOT obligated approximately $68 billion on
                                                                                responsible for carrying out the Department’s mission. OSPE
contracts and grants.40 Minimizing waste and abuse through
                                                                                will need to work diligently to implement its strategic goals and
acquisition management is an ongoing challenge for DOT and
                                                                                recent revisions to its strategic plan to ensure that acquisition
particularly critical given current budget limitations and recent
                                                                                management is fully integrated into its decision making.
Office of Management and Budget (OMB) and congressional
                                                                                Organizational weaknesses within various Operating Administra-
initiatives emphasizing more accountability in Federal contract-
                                                                                tions’ acquisition functions similarly limit their strategic roles in
ing. Our audits have found weaknesses in DOT’s acquisition
                                                                                achieving program results. For example, in 2010 we reported that
planning and oversight, resulting in missed opportunities to
                                                                                the Federal Motor Carrier Safety Administration relegated its
improve program performance and save taxpayer dollars.
                                                                                acquisition function to an administrative support role rather than
                                                                                a partner for implementing the Agency’s mission. As a result, the
KEY CHALLENGES
                                                                                Agency did not maximize competition when awarding contracts
   ▶ Increasing Departmentwide management attention on the
                                                                                and had inadequate contract oversight. FMCSA has begun to
     importance of acquisitions and governance
                                                                                focus attention on its acquisition function in response to our
   ▶ Strengthening DOT’s acquisition planning, oversight, and                   recommendations, but sustained efforts will be needed to fully
     workforce                                                                  address them.

   ▶ Improving management oversight of recipients’ contract
                                                                                STRENGTHENING DOT’S ACQUISITION PLANNING,
     practices to ensure program integrity and the efficient use of
                                                                                CONTRACT OVERSIGHT, AND WORKFORCE Ineffective
     limited funds
                                                                                acquisition planning and oversight make DOT’s contract
                                                                                spending less cost effective and undermine the success of DOT’s
INCREASING DEPARTMENTWIDE MANAGEMENT
                                                                                acquisitions. Our work has continually identified such weakness-
ATTENTION ON THE IMPORTANCE OF ACQUISITIONS AND
                                                                                es within some of DOT’s most critical—and costly—acquisitions.
GOVERNANCE To effectively safeguard taxpayer dollars and
                                                                                For example:
meet OMB requirements, DOT must strengthen its processes for
approving and overseeing major acquisitions, such as its $2.2                     ▶ Systems Engineering 2020 (SE-2020): FAA’s SE-2020
billion information technology (IT) investment portfolio. While                     contracts, with a cumulative maximum value of $7.3 billion,
DOT has developed a proposal for an IT acquisition and                              are the largest awards in FAA’s history and are intended to
investment governance structure, it still lacks a Departmentwide                    help it develop the Next Generation Air Transportation
implementation plan. Institutionalizing IT procurement reform                       System (NextGen). However, FAA lacked clear require-
across DOT will remain a significant challenge given the                            ments for ensuring fair and reasonable labor rates. FAA
longstanding oversight, statutory, and organizational barriers our                  awarded the contracts using the contractors’ proposed labor
work has identified. For example, even though the Federal                           rates, which were 29 percent lower than FAA’s estimated
Aviation Administration’s (FAA) IT investments account for 94                       rates, without submitting a required explanation for these
percent ($2.07 billion) of DOT’s investment portfolio, DOT                          significant differences. FAA also included 18 million more
                                                                                    labor hours than needed in the contracts’ ceilings. As a
40 DOT’s fiscal year 2012 data were not available at the time of this report.




125 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
     result, the contract values are overstated by as much as $2                     IMPROVING MANAGEMENT OVERSIGHT OF RECIPIENTS’
     billion. FAA is taking action to address our recommenda-                        CONTRACT PRACTICES TO ENSURE PROGRAM INTEGRITY
     tions to strengthen its SE2020 program and contract                             AND THE EFFICIENT USE OF LIMITED FUNDS Our work
     management. While FAA is in the early stages of using its                       continues to identify the need for more vigilant DOT oversight of
     SE-2020 contracts, it must continually focus on improving                       taxpayer dollars distributed through the Department’s grant
     its contracting to manage and monitor future SE-2020                            programs, including over $48 billion in American Recovery and
     performance—especially given the billions of dollars the                        Reinvestment Act (ARRA) funds. Within DOT, the Federal High-
     Agency may yet award.                                                           way Administration (FHWA) is responsible for the largest share
                                                                                     of grants, including $27 billion in ARRA funds for highway
   ▶ En Route Automation Modernization (ERAM): FAA will
                                                                                     projects. In 2012, we reported that FHWA’s oversight does not
     be challenged to resolve shortcomings in the ERAM
                                                                                     ensure that State Departments of Transportation (State DOT)
     contract structure and execution to effectively manage costs
                                                                                     effectively obtain competition prior to awarding contracts.
     and achieve desired program outcomes. The ERAM contract
                                                                                     FHWA’s guidance to State DOTs promoting competition is
     follows a traditional, large-scale approach with contract
                                                                                     optional and therefore unenforceable. FHWA also lacks sound
     tasks that span several years instead of a modular approach,
                                                                                     performance measures and monitoring tools to evaluate State
     which would divide the contract into manageable segments
                                                                                     DOT contract competition and award activity. Our review found
     for better control. As a result, it is difficult for FAA to track
                                                                                     that even minimal increases in the number of bids could
     individual factors driving cost overruns. In addition, FAA
                                                                                     significantly impact contract prices. Specifically, 19 percent of
     did not effectively use two cost management tools. First,
                                                                                     the 8,365 ARRA contracts that State DOTs awarded through
     FAA’s use of contract incentives did not motivate the
                                                                                     March 31, 2010, received only 1 or 2 bids—and their prices were
     contractor to manage costs because, when requirements
                                                                                     on average 11 percent higher than those with 3 bids.42 When
     grew, FAA simply increased the targeted ceiling for the
                                                                                     projected over all FHWA ARRA funds, the average price
     contractor. At the time of our review, FAA had paid the
                                                                                     difference between contracts with 1 or 2 bids and those with 3
     contractor over $150 million of the total available cost
                                                                                     bids was at least $179 million.43 Although FHWA’s ARRA funds
     incentives even though ERAM was as much as $500 million
                                                                                     have already been awarded, the Agency needs to leverage the
     over budget. Second, FAA did not correctly implement
                                                                                     lessons learned from its oversight of ARRA contracts to foster
     earned value management (EVM)41 to forecast performance
                                                                                     better competition and maximize States’ use of Federal-aid funds
     trends and identify problems early on. As a result, the EVM
                                                                                     for future contracts.
     system did not detect significant schedule and cost variances,
     which started when ERAM experienced software problems
                                                                                     DOT also faces challenges in administering its Disadvantaged
     at the initial test site.
                                                                                     Business Enterprises (DBE) program. The DBE program is
                                                                                     intended to help socially and economically disadvantaged
FAA is beginning to address our recommendations on revising
                                                                                     individuals who own or control small businesses to participate in
the contract structure for ERAM. It will now separately track
                                                                                     contracting opportunities under DOT financial assistance
costs for new software releases to better control spending. It will
                                                                                     programs. DOT, through its recipients, distributed $4.4 billion to
also establish five separate performance targets for each release,
                                                                                     DBEs in fiscal year 2011. Our investigations have seen an
each with mandatory award criteria to encourage improved
                                                                                     increase in DBE fraud and abuse cases, which now represent 29
performance. FAA also recently agreed to restructure its EVM
                                                                                     percent of our active procurement and grant fraud investigations.
system to better align with program milestones and account and
                                                                                     For example, in April 2012, the president of a Pennsylva-
report on some authorized work.
                                                                                     nia-based bridge beam manufacturer was convicted of fraud and
                                                                                     money laundering in conjunction with a $136 million DBE fraud
A key component of addressing challenges with DOT’s acquisi-
                                                                                     scheme, the largest reported DBE fraud scheme in the Nation’s
tion processes will be strengthening the workforce DOT relies on
                                                                                     history. Our audit work shows that the Department needs to
to negotiate and administer its contracts. FAA’s acquisition
                                                                                     improve its management, recipient communication, and training
workforce is of particular concern as its billion-dollar NextGen
                                                                                     for the DBE program. DOT has not issued standardized guidance
program significantly increased the Agency’s acquisition
                                                                                     or provided sufficient training to States responsible for imple-
workload and will require more resources and new skills to
                                                                                     menting the DBE program. It also has a fragmented management
ensure sound acquisition management. For example, in review-
                                                                                     approach; no single DOT entity is accountable for overall
ing SE-2020 contracts, we found that FAA did not require its
                                                                                     program management. Instead, limited aspects of program
oversight staff to receive training in contractor surveillance
                                                                                     management are assigned to three separate DOT offices. As a
methods or use oversight plans, resulting in oversight plans that
                                                                                     result, Operating Administrations’ oversight of recipients’ DBE
did not detail how to assess the contractor’s work.
                                                                                     42	 Based on responses to our survey of 52 FHWA Division Offices for States that
                                                                                          received ARRA funds.
41	 Earned Value Management is a project management planning, monitoring, and        43 	 This difference should not be construed as potential savings. Rather, it highlights
    control technique that integrates scope, schedule, and resources in such a way        the importance of increasing competition because our results show that even
    as to provide for the objective measurement of project performance and                minimal increases in the number of bids could have a significant impact on
    progress.                                                                             contract prices. Our projection has a 90-percent confidence level.




126 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
programs is neither consistent nor comprehensive, leaving                ▶ FAA Policies and Plans Are Insufficient To Ensure an
weaknesses in DBE practices unaddressed. For example, during               Adequate and Effective Acquisition Workforce, August 3,
our review, 14 of 15 randomly selected States reported the                 2011
Department had not provided them with comprehensive,
                                                                         ▶ Weaknesses in the Office of the Secretary’s Acquisition
standardized guidance on DBE regulations. Areas of concern
                                                                           Function Limit Its Capacity To Support DOT’s Mission,
included how to verify a DBE owner’s personal net worth, which
                                                                           May 25, 2011
could allow unqualified DBEs to be certified. We found that two
firms certified in a State failed to meet DBE eligibility require-       ▶ Federal Motor Carrier Safety Administration Lacks Core
ments in fiscal year 2009, but they collectively received over             Elements for a Successful Acquisition Function, August 24,
$5.4 million in DBE awards and payments that year.                         2010

                                                                         ▶ Weaknesses in DOT’s Suspension and Debarment Program
DOT’s responsibility for billions of dollars in contract awards
                                                                           Limit Its Protection of Government Funds, March 18, 2010
and ARRA funds heightens the importance of protecting those
funds from individuals with a record of wrongdoing and abuse.            ▶ DOT’s Suspension and Debarment Program Does Not
In 2010 we reported and testified to Congress that DOT could not           Safeguard Against Awards to Improper Parties, January 7,
effectively prevent contract and grant awards to improper parties          2010
due to delays in its suspension and debarment (S&D) decisions
and reporting. DOT and FAA are revising their policies to require
timely action on S&D decisions. However, DOT can do more to
                                                                       FOR MORE INFORMATION ON THE ISSUES IDENTIFIED IN
leverage the protections of its S&D program. For example, our
                                                                       THIS CHAPTER, PLEASE CONTACT MARY KAY LANGAN-
2012 audit of FHWA’s oversight of State contracting practices for
                                                                       FEIRSON, ASSISTANT INSPECTOR GENERAL FOR
ARRA-funded projects found that FHWA Division Offices
                                                                       ACQUISITION AND PROCUREMENT AUDITS, AT (202)
needed better controls to prevent States’ awards to improper
                                                                       366-5225 OR TIMOTHY BARRY, PRINCIPAL ASSISTANT
parties. These include written confirmation from State DOTs that
                                                                       INSPECTOR GENERAL FOR INVESTIGATIONS, AT (202)
they checked the suspension and debarment database before
                                                                       366-1967.
granting an award.

Finally, our investigations continue to identify the need for more
vigilant oversight to detect and prevent procurement and grant
                                                                       CHAPTER 9
fraud, waste, and abuse within DOT and among its fund
                                                                       MANAGING AND SECURING INFORMATION SYSTEMS TO
recipients. Grant and procurement fraud cases currently comprise
                                                                       EFFICIENTLY MODERNIZE TECHNOLOGY
about 50 percent of our active investigations. Between October
                                                                       INFRASTRUCTURE AND PROTECT SENSITIVE DATA FROM
2011 and August 2012, procurement and grant fraud investiga-
                                                                       COMPROMISE
tions resulted in 49 indictments, 19 convictions, and $24 million
                                                                       DOT faces the ongoing challenge of modernizing its systems to
in fines and other recoveries. Our investigations also pointed to
                                                                       keep pace with new technologies that change how DOT entities
DOT’s challenges in ensuring that its grantees’ contractors’
                                                                       conduct business and create complex information security issues.
expenses are proper. For example, in November 2011, the former
                                                                       Departmental operations rely on more than 400 information
chief executive officer of EV Worldwide LLC was ordered to pay
                                                                       systems—nearly two-thirds of which belong to the Federal
$4.25 million to the Federal Transit Administration as a result of
                                                                       Aviation Administration (FAA). However, DOT currently lacks a
his participation in a scheme to submit fraudulent invoices for
                                                                       blueprint, known as an enterprise architecture (EA), to effec-
ineligible and questionable expenses on a transit authority project.
                                                                       tively guide changes to its infrastructure. Security is a top priority
                                                                       since breaches by computer hackers have placed a number of
RELATED PRODUCTS The following related documents can be
                                                                       major entities at risk and have exposed individuals’ personal
found on the OIG Web site at http://www.oig.dot.gov.
                                                                       information to unauthorized access. In 2010 and 2011, the
  ▶ Weaknesses in Program and Contract Management 
                    Department declared the deficiencies in its information security
    Contribute To ERAM Delays and Put Other NextGen 
                  program to be a material weakness.
    Initiatives at Risk, September 13, 2012
	
                                                                       KEY CHALLENGES
  ▶ Lessons Learned From ARRA: Improved FHWA Oversight
                                                                         ▶ Creating an effective Departmentwide EA program
    Can Enhance States’ Use of Federal-Aid Funds, April 5,
    2012                                                                 ▶ Establishing a robust information security program

  ▶ FAA’s Contracting Practices Are Insufficient To Effectively          ▶ Protecting sensitive information
    Manage Its Systems Engineering 2020 Contracts, March 28,
    2012                                                               CREATING AN EFFECTIVE DEPARTMENTWIDE EA
                                                                       PROGRAM Creating a functional EA will remain a major




127 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
challenge for the Department in the years to come. An agency’s             confidentiality, availability, and integrity of information, of
EA program is necessary to help management understand its                  which PII is a critical piece. As such, almost any weakness in
current technology infrastructure, define how future infrastruc-           security controls on systems containing PII increases the risk that
ture should accomplish its mission, and develop a transition plan.         sensitive data could be exposed, which would be detrimental to
Despite its $48 million investment and years of effort towards             the Department’s mission and credibility.
creating an EA, DOT still lacks adequate EA policy and
procedures, direction in the selection of EA development tools,            In fiscal year 2011, the Department provided plans for reducing
performance measures, and an approved plan to build a                      PII and the use of Social Security numbers and for establishing
Departmentwide EA. Absent this blueprint, the Department faces             the required privacy protections. Although the Department is
significant challenges in maximizing its returns on IT invest-             committed to providing privacy protections by securing PII, the
ments through cost savings, reduced duplicative systems, aligned           associated reductions in the volume of PII will not be complete
information technology and mission, and effective information              until 2013. Vigilant follow through is critical, given some of the
security spending—all critical elements in an environment of               weaknesses our work has identified. For example, our ongoing
dwindling resources.                                                       review of the Civil Aviation Registry, which contains PII of
                                                                           airmen and aircraft owners, found that PII data were not
ESTABLISHING A ROBUST INFORMATION SECURITY                                 adequately protected from compromise. We identified numerous
PROGRAM Last year, we reported that the Department’s                       deficiencies in the configuration of the Registry system’s
information security program did not meet key Office of                    software that render it vulnerable to attacks that can lead to
Management and Budget (OMB) and Federal Information                        unauthorized access. According to FAA, the upgrades to correct
Security Management Act (FISMA) requirements to protect                    these vulnerabilities are slated for implementation during fiscal
agency information and systems. As a result, in 2011, DOT again            year 2013.
declared its information security deficiencies a material weakness
in its annual assurance statement, as required by the Federal              RELATED PRODUCTS The following related documents can be
Managers’ Financial Integrity Act.44 DOT has made limited                  found on the OIG Web site at http://www.oig.dot.gov.
progress in fiscal year 2012 toward correcting weaknesses in key
                                                                             ▶ The U.S. Merchant Marine Academy’s Security Controls
control areas.
                                                                               Were Not Sufficient To Protect Sensitive Data from
                                                                               Unauthorized Access, May 30, 2012
The Department’s Office of the Chief Information Officer
(OCIO), the modal Administrators, and their CIOs are collective-             ▶ DOT Does Not Have an Effective Enterprise Architecture
ly responsible for implementing and maintaining a robust                       Program for Management of Information Technology
computer security program. Our work has found that OCIO                        Changes, April 17, 2012
could do more to guide and oversee Operating Administrations in
                                                                             ▶ FISMA 2011: Persistent Weaknesses in DOT’s Controls
building and sustaining strong information security practices. For
                                                                               Challenge the Protection and Security of Its Information
example, OCIO has yet to issue Departmentwide procedural
                                                                               Systems, November 14, 2011
guidance or improve quality assurance reviews of modal cyber
security efforts. The Department recently deployed an automated
software tool that, when fully implemented, will monitor the
cyber security status of a limited number of information                   FOR MORE INFORMATION ON THE ISSUES IDENTIFIED IN
technology devices (e.g., desktop computers). However, DOT                 THIS CHAPTER, PLEASE CONTACT LOUIS C. KING,
has not provided a plan to address the remaining devices. In addi-         ASSISTANT INSPECTOR GENERAL FOR FINANCIAL AND
tion, our work continues to identify mode-specific security                INFORMATION TECHNOLOGY AUDITS, AT (202) 366-1407
deficiencies. For example, our ongoing work on air traffic control
systems has identified weaknesses in access controls and incident
reporting that FAA needs to remediate. To build a strong
information security program, the Department and the Operating
Administrations must work together to continue addressing these
deficiencies in a sustainable and flexible manner so that DOT can
quickly adapt to and avert new cyber threats.

PROTECTING SENSITIVE INFORMATION To safeguard against
the breach of personally identifiable information (PII), OMB
requires agencies to reduce the volume of information collected
and maintained, restrict access, and implement other security
controls (e.g., encryption) to prevent unauthorized access. The
main goal of information security management is to protect the

44 Federal Managers’ Financial Integrity Act, Pub. L. No. 97–255 (1982).



128 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
EXHIBIT
�

COMPARISON OF FISCAL YEAR 2013 AND 2012 TOP MANAGEMENT CHALLENGES

                  FISCAL YEAR 2013 CHALLENGES	�                                                       FISCAL YEAR 2012 CHALLENGES


 ▶	 Ensuring the Next Generation Air Transportation System Advances Safety and       ▶	 Managing the Next Generation Air Transportation System Advancement While
    Air Travel                                                                          Controlling Costs

 ▶ Enhancing FAA’s Oversight and Use of Data To Identify and Mitigate Safety Risks   ▶ Ensuring Effective Oversight on Key Initiatives That Can Improve Aviation Safety

 ▶	 Overseeing Administration of Key Transportation Assets To Ensure Their
    Success and Sustainability

 ▶ Strengthening Existing Surface Safety Programs and Effectively Implementing       ▶ Enhancing DOT’s Oversight of Highway, Bridge and Transit Safety
   New Safety Requirements                                                           ▶ Ensuring Effective Oversight of Hazardous Liquid and Natural Gas Pipeline
                                                                                       Safety

 ▶ Maximizing Surface Infrastructure Investments With Effective Program              ▶ Ensuring Effective Oversight of ARRA Projects and Applying Related Lessons
   Oversight and Execution of New Legislative Requirements                             Learned To Improve DOT’s Infrastructure Programs

 ▶	 Adequately Overseeing Administration of High Speed Intercity Passenger Rail      ▶ Defining Clear Goals To Guide the Federal Railroad Administration in Its
    Grant Funds                                                                        Transformation

 ▶	 Strengthening Financial Management Over Grants To Better Use Funds, Create
    Jobs, and Improve Infrastructure

 ▶ Ensuring Effective Management of DOT’s Acquisitions To Maximize Value and         ▶	 Managing DOT Acquisitions in a Smarter and More Strategic Manner To
   Program Performance                                                                  Maximize Limited Resources and Achieve Better Mission Results

 ▶ Managing and Securing Information Systems To Efficiently Modernize                ▶ Improving the Department’s Cyber Security
   Technology Infrastructure and Protect Sensitive Data From Compromise

                                                                                     ▶	 Utilizing Department Credit Programs To Leverage Limited Federal
                                                                                        Transportation Infrastructure Resources




129 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
APPENDIX. DEPARTMENT RESPONSE

MEMORANDUM




OFFICE OF THE SECRETARY
OF TRANSPORTATION

Subject:	�     ACTION: Management Comments on OIG Draft Report                                       Date:           November 9, 2012
               on Top Management Challenges

From: 	        Christopher P. Bertram
               Assistant Secretary for Budget and Programs,
               and Chief Financial Officer

To:	�          Calvin L. Scovel, III
               Inspector General



The Department is fully engaged in each of the issues enumerated in the OIG report and has actions underway throughout the
organization to effectively address these and the myriad other policy and programmatic responsibilities of the Department. Notably,
the Department is aggressively addressing the challenges of implementing the recently enacted P.L. 112-141, the Moving Ahead for
Progress in the 21st Century Act (MAP-21). MAP-21 introduces substantial new programs and responsibilities for the Department of
Transportation. For example, it enables the Federal Transit Administration to, for the first time, create a nationwide framework for
enhanced rail transit safety. MAP-21 also creates a streamlined, performance-based, and multimodal approach for investing in surface
transportation infrastructure. Enhanced performance management requirements will transform Federal highway programs and enable
more efficient Federal investment in transportation by focusing on national transportation goals, increase accountability and transpar-
ency for Federal highway programs, and improve transportation investment decision making. In addition, the new law vastly expands
the use of innovative financing through the TIFIA program which leverages Federal investment in transportation, by attracting private
and other non-Federal co-investment in critical improvements to the Nation’s surface transportation system.

Most of the remaining challenges enumerated in the OIG report are familiar recurring issues. For example, Air Traffic Modernization
is a continuous effort to maintain and improve the Nation’s exceptionally strong aviation safety record through the judicious applica-
tion of state-of-the- art technology. As technology continues to change and enable improved capabilities, the Department has har-
nessed these capabilities to enhance safety with considerable success over the last few decades. The Department has carefully
structured new programs to serve continued growth in the Nation’s economy and provide additional good paying jobs. For example,
our efforts in high speed intercity passenger rail are already making a difference throughout the nation and will continue to do so for
years to come thanks to careful planning, a performance-oriented, data-driven selection process, and carefully structured oversight.

Beyond the familiar recurring issues in the management challenges report we note the section on key transportation assets. There are
several points in this regard that merit particular attention, notably: our efforts to ensure the Metropolitan Washington Airport
Authority (MWAA) is run in a manner commensurate with the public trust; efforts to ensure that Union Station is run in a manner
consistent with its role as a vital transportation hub and landmark within the City of the District of Columbia; and our work to ensure
that investment in the Nation’s Merchant Marine Academy is well planned, prioritized, and executed to serve the needs of its students,
and the nation.

The Department took swift action to the full extent of its statutory authority, to address the deeply troubling issues that have come to
light with regard to the personnel, contracting, and business practices at MWAA. DOT has been working with MWAA to ensure it acts
quickly to adopt policies and procedures that establish a strong and appropriate framework guiding the actions of its officers and staff.
The Department has taken the extraordinary measure of appointing a Federal Accountability Officer to provide guidance to MWAA as
it revises its policies and procedures, bringing them in line with Federal agency best practices. As this work continues, it is vitally




130 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
important that strong oversight and internal controls are established to ensure MWAA adheres to its new policies. As established by
statute, MWAA is a public entity with considerable autonomy. While the Department will continue to hold MWAA accountable in its
management and operation of vitally important Federal assets, it is primarily incumbent on MWAA to institute the reforms needed to
regain the public’s trust.

At Union Station, the Department is exercising its authority on the Board of Directors of the Union Station Redevelopment Corpora-
tion (USRC) to provide strong and effective leadership and to take the actions necessary to protect this iconic structure, while
carefully planning its role as an intermodal transportation hub. The Department is fully engaged in activities to ensure that the Board
is led by highly qualified individuals with the vision and authority necessary to provide effective management of this important
transportation asset. We are also working to ensure that appropriate policies and procedures are in place to ensure the organization
functions effectively. Detailed analysis is ongoing with regard to cost centers to ensure that every dollar is well and constructively
spent. The Department is working with the Board of Directors and actively monitoring progress as the newly appointed President of
the USRC continues to sort through issues, obtain stakeholder input and identify priorities.

The Department has implemented comprehensive and detailed processes to help ensure the United States Merchant Marine Academy
can continue training a dependable cadre of highly capable merchant mariners to serve the country in times of war and helping to
maintain a viable U.S. maritime industry in times of peace. Specifically, the Department has put in place a capital investment process
that provides a data driven approach to identifying and prioritizing investments in the Academy. This process is led by an executive
committee, with representatives from the Office of the Secretary, the Maritime Administration, and the Academy.

Finally, the Department continues to ensure that it provides strong and effective financial management. In particular, the Department
made progress this year in addressing a new challenge identified by the OIG to strengthen financial management over grants in order
to better use funds. Late in FY 2012, Operating Administrations (OAs) undertook a major effort to review, verify, and correct as neces-
sary outstanding grant obligations for significant projects. These balances are categorized as “Undelivered Orders” (UDOs) for these
programs in our annual Statement of Budgetary Resources. Further, we have completed intensive day-long training sessions for key
OA grants and acquisitions staff in proper grant close-out procedures, which will greatly improve the financial management of these
critical programs. Also, we have developed a new Departmental Order that will be issued shortly governing the quarterly review of all
UDO balances, with a primary emphasis on outstanding grant obligations. This too will strengthen our financial management of grants
throughout the Department.

With prospects for continued operation in an increasingly resource constrained environment, the Department is looking for new
approaches to facilitate effective programmatic performance. This will require new perspectives beyond the traditional approaches
that call for adding new oversight, additional programs, or increased spending to address problems. The Department intends to explore
new approaches that make better use of technology and use more efficient processes to function effectively in an era of diminishing
resource availability. We look to the Office of Inspector General as a partner in this endeavor, by keeping this imperative in mind in
addressing issues, making recommendations for management action, and conducting its interactions with us in an effective and
efficient manner.




131 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
                                                                     FWHA FEDERAL-AID HIGHWAY PROGRAM. This program con-
IMPROPER PAYMENTS INFORMATION ACT                                    sists of numerous AU internal control risk averages with “low”
(IPIA) (AS AMENDED BY IPERA)                                         or “medium” risk ratings, and the prior year’s improper payment
REPORTING DETAILS                                                    point estimate percentage was below the 2.5% threshold. How-
                                                                     ever, the size of the Federal-Aid Highway Program resulted in
RISK ASSESSMENT
                                                                     prior year improper payment estimates in excess of $100 million.
As part of the FY 2012 Improper Payments Review, a risk
                                                                     This “significant” rate of improper payments ($10 million and 2.5
assessment was conducted by the Department of Transportation
                                                                     percent of total program payments or $100 million, regardless
(DOT) in accordance with the requirements of the Improper
                                                                     of error rate) results in the requirement of a FY 2012 individual
Payments Elimination and Recovery Act (IPERA) of 2010 and
                                                                     improper payment estimate.
OMB Circular A-123, Appendix C. This Programmatic Improper
Payment Risk Assessment was used to determine which DOT
                                                                     FAA AIRPORT IMPROVEMENT PROGRAM. This program con-
Programs required a statistically valid extrapolated improper
                                                                     sisted of “low” or “medium” risk ratings, and the prior year’s
payment estimate.
                                                                     improper payment point estimate percentage was below the
                                                                     2.5% threshold. However, DOT determined that the volume
DOT’s Programmatic Improper Payment Risk Assessment lever-
                                                                     of payments made annually, approximately $4 billion for
ages Departmental Assessable Unit (AU) Risk Profiles compiled
                                                                     FAA AIP, coupled with the fact that Federal funds within these
as part of ongoing compliance with the Federal Managers Finan-
                                                                     programs are further administered outside the agency by local
cial Integrity Act (FMFIA) of 1982.
                                                                     governments or airport sponsors, necessitated an individual
                                                                     improper payment estimate.
DOT incorporated the improper payment risk factors outlined in
Part I of OMB Circular A-123, Appendix C, and the following          FTA FORMULA GRANTS AND CAPITAL INVESTMENT GRANTS
criteria, in combination with AU Risk Profiles, weighed heavily      PROGRAMS. These programs’ AU risk were identified as a “high”
in determining which Programs required extrapolated estimates:       level of internal control risk due to the combination of a high
                                                                     volume of payments and externally administered payments.
  ▶	 Whether the program or activity reviewed is new to 
            This combination resulted in the need to develop individual
      the agency
	                                                   improper payment estimates.
  ▶	 The volume of payments made annually
                                                                     FRA HIGH-SPEED INTERCITY PASSENGER RAIL. This program’s
  ▶	 Whether payments or payment decisions are made outside          AU risk was identified as a “high” level of internal control risk
      of the agency, for example, by a State or local government,    since this is a new program to the DOT, and the dollar amount
      or a regional Federal office                                   of funds appropriated to the program, in excess of $10 billion,
  ▶	 Results from prior improper payment work                        represents a significant portion of DOT grant funds.

 The Department’s AU Risk Profiles rate the various areas of in-     Separately, AU Risk Profiles identified six programs as possess-
 ternal control either “high,” “medium,” or “low.” After assigning   ing a “high” level of internal control risk. However, the total
 numerical values to the “high,” “medium,” and “low” risk ratings,   outlays for these six programs amounted to less than $50 million.
 DOT determined that programs with AU Risk Profiles that             At a total outlay amount of $50 million, the identified programs
 reported average internal control risk ratings of “low” or          would need to report an average minimum improper payment
“medium” did not warrant additional review except for the            rate of 20% to achieve a nominal value of improper payments
 following programs:                                                 deemed “significant” by OMB.

  ▶	 Federal Highway Administration (FHWA) Federal-Aid 
             Further, roughly 13% of the cumulative $50 million represent
      Highway Program
	                                              Federal salary payments which are exempt from improper
  ▶	 Federal Aviation Administration (FAA) Airport Improve-          payment review. In comparison to improper payment rates across
      ment Program (AIP)                                             the Federal government, DOT determined that a 20% improper
                                                                     payment rate is highly unlikely and that these programs do not
  ▶	 Federal Transit Administration (FTA) Capital Investment         require individual improper payment estimates.
      Grants (CIG) Program

  ▶	 Federal Transit Administration (FTA) Formula Grants (FG)
                                                                     STATISTICAL SAMPLING
      Program
                                                                     In an effort to adhere to the IPERA requirements, DOT
  ▶	 Federal Rail Administration (FRA) High-Speed Intercity          engaged a contractor to develop nationwide sampling plans,
      Passenger Rail (HSIPR) Program                                 test sampled invoice line items for improprieties, and extrapolate
                                                                     nationwide improper payments estimates for the DOT’s major
                                                                     grant programs.



132 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
In direct response to the Office of the Inspector General’s (OIG)     While this sample provides an improper payment estimate for the
recommendations, DOT obtained the data extracts from a single         Airport Improvement Program as a whole, this sample does not
source, DOT’s financial system of record, Delphi. Additionally,       support an estimate for individual states or airport sponsors.
to ensure both sample validity and the accuracy of extrapolated
programmatic improper payment estimates, the DOT collabo-             Testing yielded 4 improper payments within the sample totaling
rated closely with OIG’s IPERA statistician to develop sampling       $839.74 The projection of known improper payments to the
and extrapolation methodologies mutually agreed upon by               population of program payments for the twelve-month period
both parties.                                                         results in an improper payment estimate of $2.2 million +/- $3.4
                                                                      million at the 90% confidence interval. The estimated improper
The reviewed grant program samples are of sufficient size to          payment rate is 0.06% +/- 0.1% at the 90% confidence interval.
yield an estimate with a minimum 90 percent confidence interval       This projection does not meet IPERA’s definition of significant
within 2.5 percentage points above and below the estimated            improper payments ($10 million and 2.5 percent of total program
percentage of erroneous payments, as prescribed by OMB.               payments or $100 million, regardless of error rate).
The following sections discuss the results of these efforts.
                                                                      FTA FORMULA GRANTS PROGRAM. FTA executed the nation-
FHWA FEDERAL-AID HIGHWAY PROGRAM. DOT developed and                   wide testing program using contractor personnel. The sample
executed a sampling methodology and test plan to review project       of tested line items originated from Federal disbursements to
payments and estimate the dollar amount of the Federal-aid            grantees within the twelve-month period April 1, 2011 through
Highway Planning and Construction Grant Program’s improper            March 31, 2012.
payments. FHWA executed the nationwide testing program using
FHWA division office personnel and included a secondary review        The IPERA sampling methodology involved a risk-based,
by a contractor. The sample of tested line items originated from      multi-staged statistical approach that included the selection of 39
Federal disbursements to grantees within the twelve-month             Federal disbursements totaling $310.0 million and 73 line items
period April 1, 2011 through March 31, 2012.                          from supporting invoices totaling $23.0 million. DOT designed
                                                                      the sample to extrapolate a nationwide estimate of improper
The IPERA sampling methodology involved a risk-based,                 payments. While this sample provides an improper payment
multi-staged statistical approach that included the selection of 82   estimate for the Formula Grants Program as a whole, this
Federal disbursements totaling $230.7 million and 146 line items      sample does not support an estimate for individual states
from supporting invoices totaling $184.8 million. DOT designed        or transit agencies.
the sample to extrapolate a nationwide estimate of improper
payments. While this sample provides an improper payment              Testing yielded 3 improper payments within the sample totaling
estimate for the Federal-Aid Highway Program as a whole,              $630.07. The projection of known improper payments to the popula-
this sample does not support an estimate for individual States        tion of program payments for the twelve-month period results in
or territory grantees.                                                an improper payment estimate of $38.1 million +/- $50.2 million
                                                                      at the 90% confidence interval. Likewise, the estimated improper
Testing yielded 3 improper payments within the sample totaling        payment rate is 0.44% +/- 0.58% at the 90% confidence interval.
$8,241.80. The projection of known improper payments to the           This projection does not meet IPERA’s definition of significant
population of program payments for the twelve-month period            improper payments ($10 million and 2.5 percent of total program
results in an improper payment estimate of $103.2 million +/-         payments or $100 million, regardless of error rate).
$129.1 million at the 90% confidence interval. The estimated
improper payment rate is 0. 22% +/- 0.28% at the 90% confidence       FTA CAPITAL INVESTMENT GRANTS PROGRAM. FTA executed
interval. This projection meets IPERA’s definition of significant     the nationwide testing program using contractor personnel. The
improper payments ($10 million and 2.5 percent of total program       sample of tested line items originated from Federal disburse-
payments or $100 million, regardless of error rate).                  ments to grantees within the twelve-month period April 1, 2011
                                                                      through March 31, 2012.
FAA AIRPORT IMPROVEMENT PROGRAM. FAA executed the
nationwide testing program using contractor personnel. The            The IPERA sampling methodology involved a risk-based multi-
sample of tested line items originated from Federal disbursements     staged statistical approach that included the selection of 33
to grantees within the twelve-month period April 1, 2011 through      Federal disbursements totaling $431.0 million and 64 line items
March 31, 2012.                                                       from supporting invoices totaling $40.5 million. DOT designed
                                                                      the sample to extrapolate a nationwide estimate of improper
The IPERA sampling methodology involved a multi-staged                payments. While this sample provides an improper payment
statistical approach that included the selection of 73 Federal dis-   estimate for the Capital Investment Grants Program as a whole,
bursements totaling $112.8 million and 142 line items from sup-       this sample does not support an estimate for individual states or
porting invoices totaling $11.3 million. DOT designed the sample      transit agencies.
to extrapolate a nationwide estimate of improper payments.


133 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
Testing yielded no improper payments in the sample. This pro-      FTA CAPITAL INVESTMENT GRANTS PROGRAM. Despite
jection does not meet IPERA’s definition of significant improper   the lack of identified errors, FTA, in coordination with DOT’s
payments ($10 million and 2.5 percent of total program pay-        Office of Financial Management, will update and distribute a
ments or $100 million, regardless of error rate).                  Best Practices Guide for grantees in an effort to maintain its low
                                                                   programmatic improper payment rate. Additionally, FTA will ad-
FRA HIGH-SPEED INTERCITY PASSENGER RAIL: FRA executed              vise grantees regarding the importance of proper documentation
the nationwide testing program using contractor personnel. The     maintenance for programmatic reviews and audits.
sample of tested line items originated from Federal disburse-
ments to grantees within the twelve-month period April 1, 2011     FAA AIRPORT IMPROVEMENT PROGRAM. Reported improp-
through March 31, 2012.                                            er payments resulted from non-systemic administrative, and
                                                                   documentation errors. FAA, in coordination with DOT’s Office
The IPERA sampling methodology involved a multi-staged             of Financial Management, will update and distribute a Best Prac-
statistical approach that included the selection of 19 Federal     tices Guide for grantees in an effort to work towards a reduced
disbursements totaling $249.6 million and 38 line items from       programmatic improper payment rate. Additionally, FAA will
supporting invoices totaling $766,813. DOT designed the sample     advise grantees regarding the importance of proper documenta-
to extrapolate a nationwide estimate of improper payments.         tion maintenance for programmatic reviews and audits.
While this sample provides an improper payment estimate for
the HSIPR program as a whole, this sample does not support an      FRA HIGH-SPEED INTERCITY PASSENGER RAIL. The identified
estimate for the railroad authorities.                             improper payments, from one grantee, were the result of missing
                                                                   information from the vendor contract – a non-systemic admin-
Testing yielded 3 improper payments within the sample totaling     istrative oversight. FRA, in coordination with DOT’s Office of
$839.43 The projection of known improper payments to the           Financial Management, will update and distribute a Best Prac-
population of program payments for the twelve-month period         tices Guide for grantees in an effort to work towards a reduced
results in an improper payment estimate of $4.3 million +/- $6.8   programmatic improper payment rate. Additionally, FRA will
million at the 90% confidence interval. The estimated improper     advise grantees regarding the importance of thorough contract
payment rate is 0.96% +/- 1.51% at the 90% confidence interval.    reviews and audits.
This projection does not meet IPERA’s definition of significant
improper payments ($10 million and 2.5 percent of total program    B. FUND STEWARDSHIP. Although DOT identifies its five
payments or $100 million, regardless of error rate).               largest grant programs as susceptible to significant improper
                                                                   payment rates, none of these five programs reported significant
CORRECTIVE ACTIONS                                                 rates of improper payments, as defined by OMB, in FY 2011 or
A. FHWA FEDERAL-AID HIGHWAY PROGRAM. Reported improp-              FY 2012. In order to maintain these low rates of improper payments,
er payments resulted from non-systemic administrative, clerical,   DOT’s Operating Administrations stress the importance of proper
and documentation errors. FHWA, in coordination with DOT’s         fund stewardship with its Grant recipients via various Grantee
Office of Financial Management, will update and distribute a       review programs.
Best Practices Guide for grantees in an effort to work towards
a reduced programmatic improper payment rate. Furthermore,         FHWA. Under its FIRE program, FHWA subjects states and
FHWA will continue to review for improper payments within its      territories not selected as part of the IPERA sample to a similar
Financial Integrity Review and Evaluations (FIRE) Program to       billing review process. The FIRE program also incorporates
review grantees not selected within the IPERA sample, and test     reviews regarding various topics such as inactive projects, grant
for improper payments annually. Additionally, FHWA will advise     administration at the local level, and procurement at the local
grantees regarding the importance of proper documentation          level using Federal funds.
maintenance for programmatic reviews and audits.
                                                                   FTA. The State Management Reviews and Triennial Reviews
FTA FORMULA GRANTS PROGRAM. Reported improper                      are utilized to ensure proper compliance with Federal Grant
payments resulted from misunderstanding of the grant               regulations. In addition to stressing proper financial oversight,
agreement requirements. FTA, in coordination with DOT’s            FTA Grantee reviews delve into various topics such as legal
Office of Financial Management, will update and distribute a       compliance, technical compliance, and procurement processes at
Best Practices Guide, including suggestions for grant agreement    the State and local level.
compliance. Additionally, FTA will advise grantees regarding the
importance of proper documentation maintenance for program-        FAA. Through a grant and sponsor oversight process, continuous
matic reviews/audits, and will continue to review grantee          throughout the duration of the grant, FAA promotes proper fund
compliance with statutory/administrative requirements via          stewardship. FAA receives quarterly reports on each grant to
its Triennial Review process.                                      assess sponsor performance under every grant agreement. On a
                                                                   broader level, FAA utilizes a risk-based approach that increases



134 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
the level of review of sponsor documentation depending on the
risk level of the Grantee and their prior performance.

FRA. Under a comprehensive risk-based oversight program,
FRA conducts routine monitoring, including periodic reviews
applicable to projects as part of the management and admin-
istration of the High-Speed Intercity Passenger Rail (HSIPR)
Program. The routine monitoring activities center on recipient
compliance with the FRA agreement, as well as the approved
budget, schedule and fund stewardship. Routine monitoring
highlights potential areas of concern and opportunities for
training and technical assistance.

IMPROPER PAYMENT REPORTING


TABLE 1A, IMPROPER PAYMENT REDUCTION OUTLOOK
                                PY OUTLAYS                          PY IP$        CY OUTLAYS                        CY IP$       CY+1 EST.         CY+1
 PROGRAM                              ($M)             PY IP%         ($M)              ($M)             CY IP%       ($M)    OUTLAYS ($M)          IP%
                                          $48,142         0.94%       $450.3                $45,897         0.22%    $103.2              $42,465    .25%
FHWA Highway Planning /
Construction

FAA Airport Improvement                    $3,906         0.89%        $34.6                 $3,459       0.064%       $2.2               $3,619    .50%
Program
FTA Capital Investment Grants             $2,421          0.00%            $0.0              $2,369         0.00%      $0.0               $2,062    .50%
FTA Formula Grants Program                 $8,938         0.00%            $0.0              $8,594        0.44%      $38.1               $9,237    .25%
FRA HSIPR                                    N/A              N/A          N/A               $452.2         0.96%      $4.3               $1,768    .75%




TABLE 1A, IMPROPER PAYMENT REDUCTION OUTLOOK, CONTINUED
                                                    CY+2 EST.                                         CY+3 EST.
                                CY+1 IP$             OUTLAYS         CY+2          CY+2 IP$            OUTLAYS       CY+3
 PROGRAM                           ($M)                  ($M)         IP%             ($M)                 ($M)       IP%     CY+3 IP$ ($M)
                                 $106.2             $43,732         .25%           $109.3             $44,552       .25%         $111.4
FHWA Highway Planning /
Construction

FAA Airport Improvement           $18.1              $3,446         .50%           $17.2               $3,412       .50%         $17.1
Program
FTA Capital Investment Grants    $10.3               $2,140         .50%           $10.7               $2,201       .50%          $11
FTA Formula Grants Program       $23.1               $9,063         .25%           $22.7               $8,864       .25%         $22.2
FRA HSIPR                        $13.3               $1,665         .75%           $12.5               $1,594       .75%          $12




135 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
TABLE 1B, EXTRAPOLATED FAA AND FRA OVERPAYMENT /
UNDERPAYMENT PROGRAMMATIC ESTIMATE
                                     IMPROPER                  IMPROPER
                                  PAYMENT $ (M)               PAYMENT %
FAA Overpayment Estimate                        $2.16                  0.06%
FAA Underpayment Estimate                       $0.04                 0.001%
FAA Total Point Estimate                        $2.20                  0.06%


FRA Overpayment Estimate                        $1.56                  0.34%
FRA Underpayment Estimate                       $2.79                  0.62%
FRA Total Point Estimate                        $4.35                  0.96%


RECAPTURE OF IMPROPER PAYMENTS REPORTING.
DOT contracted with a Recovery Audit firm to conduct the
annual recovery audit. The contractor worked to both recover
identified Departmental overpayments, and identify opportunities
for Departmental payment process improvements. The contractor,
working closely with DOT’s internal shared service provider,
did not identify any systemic payment process weaknesses.
Overpayments resulted from individual cases of duplicate
payments due to human input errors, sales tax billing errors,
open credit on statements, and other miscellaneous overpayments.




TABLE 2. PAYMENT RECAPTURE AUDIT REPORTING
 PROGRAM OR ACTIVITY                                           DOT TOTAL

Type of Payment                                         Contracts and Grants
Amount Subject to Review for CY Reporting                       $113.7 Billion
Actual Amount Reviewed and Reported (CY)                        $113.7 Billion
Amount Identified for Recovery (CY)                                 $536,840
Amount Recovered (CY)                                               $395,086
% of Amount Recovered out                                              73.6%
of Amount Identified (CY)
Amount Outstanding (CY)                                             $141,754
% of Amount Outstanding out                                            26.4%
of Amount Identified (CY)
Amount Not Collectable (CY)                                                $0
% of Amount Not Collectable out                                         0.0%
of Amount Identified (CY)
Amounts Identified for Recovery (PY)                                $266,403
Amount Recovered (PY)                                               $235,749
Cumulative Amounts Identified                                       $803,243
for Recovery (CY + PY)

Cumulative Amounts Recovered (CY + PY)
                             $630,835
Cumulative Amounts Outstanding (CY + PY)
                           $172,408
Cumulative Amounts Not Collectable (CY + PY)
                              $0




136 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
TABLE 3, PAYMENT RECAPTURE AUDIT TARGETS
                                                                   CY RECOVERY
                                                                  RATE (AMOUNT                                                       CY+3
                                                                    RECOVERED                                       CY+2         RECOVERY
 TYPE OF                CY AMOUNT             CY AMOUNT               / AMOUNT CY+1 RECOVERY                   RECOVERY              RATE
 PAYMENT                IDENTIFIED            RECOVERED             IDENTIFIED)  RATE TARGET                 RATE TARGET           TARGET
Contract                     $536,840             $395,086                   73.6%                  90.0%              90.0%          90.0%




TABLE 4, AGING OF OUTSTANDING OVERPAYMENTS
 TYPE OF                    CY AMOUNT OUTSTANDING                   CY AMOUNT OUTSTANDING                     CY AMOUNT OUTSTANDING
 PAYMENT                             (0 – 6 MONTHS)                     (6 MONTHS TO 1 YEAR)                            (OVER 1 YEAR)
N/A                                               $141,754                                    N/A                                       N/A




TABLE 5, DISPOSITION OF RECAPTURED FUNDS
                           AGENCY                                   FINANCIAL
                       EXPENSES TO              PAYMENT           MANAGEMENT                                 OFFICE OF
 TYPE OF                ADMINISTER            RECAPTURE          IMPROVEMENT          ORIGINAL              INSPECTOR          RETURNED TO
 PAYMENT              THE PROGRAM           AUDITOR FEES            ACTIVITIES        PURPOSE                 GENERAL             TREASURY
Contract                          N/A                  $0                   N/A          $395,086                    N/A                 $0




TABLE 6, OVERPAYMENTS RECAPTURED OUTSIDE OF PAYMENT RECAPTURE AUDITS
                                                                                                            CUMULATIVE         CUMULATIVE
                              AMOUNT              AMOUNT             AMOUNT             AMOUNT                  AMOUNT             AMOUNT
                           IDENTIFIED          RECOVERED          IDENTIFIED         RECOVERED               IDENTIFIED         RECOVERED
 AGENCY SOURCE                   (CY)                (CY)               (PY)               (PY)                  (CY+PY)            (CY+PY)
Post-Payment Review               $10,550                   $0        $140,607                 $0                 $151,157               $0




TABLE 3 NOTES. DOT’s Recovery Auditor completed its                   ACCOUNTABILITY. DOT has implemented various Grantee
identification of overpayments in November 2012. Recovery of          review programs, as highlighted in PART III of this IPERA
overpayments occurs throughout the audit process and will             Reporting Details Section, to hold States and local agencies
continue into 2013. DOT expects the current recovery rate of          accountable for improper payments. All review programs stress
74% to increase and mirror past recovery rates of 85 to 90%.          the importance of reducing and recapturing improper payments,
                                                                      and focus on improper payments is now an ongoing concern, and
TABLE 6 NOTES. Overpayments identified during DOT’s Post              not just an annual review exercise.
Payment Review were identified during the audit process ending
in November 2012. DOT is in the process of continuing with the        DOT’s various Operating Administrations use a vast network of
recovery of these payments.                                           regional offices to ensure that DOT maintains regular com-
                                                                      munication with Grantees as well as State and local officials.
                                                                      Operating Administrations ensure that Grantees understand the
                                                                      purpose of Grant reviews during each step of the review process.
                                                                      This constant communication, along with the aid of Grantee staff,
                                                                      has allowed DOT to not only maintain a low rate of improper
                                                                      payments, but also achieve success in recapturing payments
                                                                      identified as both improper and recoverable.

                                                                      AGENCY INFORMATION SYSTEMS AND OTHER INFRASTRUCTURE.
                                                                      DOT currently possesses the internal controls, human capital, and
                                                                      information systems necessary to maintain improper payments
                                                                      levels at the targeted programmatic rates.




137 U. S. DEP AR TME NT OF TR A NS P OR TATIO N A GE N C Y F I N A N C I A L RE P O RT 2012
Office of the Secretary of Transportation
Assistant Secretary for Budget &
Program Performance
1200 New Jersey Avenue, SE
Washington DC 20590
